No. 20-574

IN THE

Supreme Court of the United States
__________
JOSEPH B. SCARNATI, III., et al.
Petitioners
v.
PENNSYLVANIA DEMOCRATIC PARTY ET AL. et al.
Respondents
On Petition for Certiorari from the Pennsylvania
Supreme Court
Motion for Leave to file Amicus Curiae Brief of
White House Watch Fund a project of United
States Public Policy Council et al., in support of
Petitioners

David W. T. Carroll, Esq.
Carroll, Ucker & Hemmer LLC
1955 Coventry Road
Columbus, Ohio 43212
Direct Telephone: (614) 423-9820
Counsel of Record for United of White
House Watch Fund a project of United
States Public Policy
November 30, 2020

1

MOTION FOR LEAVE TO FILE

Proposed Amici respectfully move for leave to file
the attached brief as amici curiae in support of

Petitioners. The Applicants consent to, and the
Respondents expected to oppose the stay applications
do not object to, the filing of the enclosed amici brief
in support of the opposition to Applicants’ emergency
stay applications.

Amici respectfully request that the Court consider
the arguments herein and in the enclosed amici brief
in support of the petitioner's position that the manner
for direction of the selection of elect doors to the
electoral college is a delegated federal function which
the United States Constitution, specifically delegates to
the state legislature.
No counsel for any party authored the amici brief in
whole or in part and no person or entity other than
amici made a monetary contribution to its preparation
or submission.
I.

Statement of Movants' Interest.

The White House Watch Fund (WHWF) (formerly
White House Defense Fund) is a project of the U.S. Public
Policy Council, a non-profit, public policy organization
recognized under Section 501(c)(4) of the IRS code.
WHWF monitors and provides information and analysis
on public policy proposals or changes of the White House.
WHWF is associated with the Freedom Center
Foundation, recognized under Section 501(c)3 of the IRS
Tax Code and which has helped pay for expenses

2

associated with the filing of this brief.
Much of the programmatic work of WHWF involved
defense against attacks on the White House as an
institution. WHWF has over 300,000 active, recent
supporters from every state in the union and all
Congressional Districts.
WHWF delivered a quarter of a million petitions in a
presentation at the House of Representatives on
September 23, 2020 concerning Speaker of the House
Nancy Pelosi’s and House Intelligence Committee
Chairman Adam Schiff’s dishonesty and malfeasance in
the impeachment of the President.
WHWF is especially interested to see that the
Constitution is followed in federal elections, especially
where it states that only the Congress determines the
date of voting, and only the state legislatures determine
the details of that voting, such as what time polls close
and when late ballots are not to be counted.
Its past work defending the White House against
dishonest partisan attacks, WHWF’s supporters are
alarmed and concerned that no future election in our
nation will be trusted if governing laws can be so
massively and readily ignored now.
The Conservative Christian Center (CCC) of
Pennsylvania is a project of United States Public Policy
Council with active clubs in York County and Cumberland
County. Its central mission is to increase the number of
voters from the church-going, faith communities and to
increase their interest and influence on public policy
questions. They have for eight years published a twice

3

annual Value Voters Guide, in general elections and for
primary elections, showing the candidate’s response to ten
public policy questions, to enable faith voters to cast an
informed vote based upon the issues of interest to them
and the position that candidates take on those issues.
America First Agenda (AFA) (formerly Americans for
the Trump Agenda), also a project of United States Public
Policy Council, has been supportive during the four years
of the Trump Administration of the programs and policies
proposed or enacted by President Donald Trump and
wishes to have its views represented to the Court through
this brief.
Former Representative Will Tallman, on behalf of
himself and the GOP majority in both chambers of the
Pennsylvania State Legislature, has a fundamental
interest in defending his unique prerogatives specifically
enumerated in the Constitution regarding the election of
a President and the method by which the Electoral
College votes are allocated, and wishes to have his views
considered by the Court before it renders a decision on
this matter.
Citizens who reside in South Central Pennsylvania,
and who do hereby associate with Conservative Christian
Center and join as Amicus, include:
2020 GOP National Convention Delegates Ronald
Wilcox and William E. Saracino, not residents of
Pennsylvania, wish to be listed as Amicus because of their
interest in helping President Donald Trump and their
interest in upholding the Constitution.
Andrew W. Barbin, Ross Cleveland, Carter Cluz,

4

Donna Ellingsen, Julie Haertsch, Maxine Kaufmann,
Laszlo Pazstor, Jr., Corbin Kauffman, Mario Eckert,
Cynthia A Voggenreiter, and Michael Ebersole are
residents and voters of Pennsylvania who wish to make
sure that their votes in elections such as the 2020 contest
for President, are not diminished or reduced by disparate
treatment of votes cast in liberal-Democrat controlled
cities in Pennsylvania, such as Philadelphia versus the
more accurate and strict treatment of the handling of
votes, in accordance with the rules approved by the state
legislature in accordance with the United States
Constitution and they pray that the Court will consider
their views as Amicus as stated in this brief.
Thomas C. Bivona, Dr. Daniel A. Brubaker, PhD.,
Richard Buck, Dr. Roger Canfield, PhD., Gerald R.
Geddes, Gary Giordano, Lt. Col. Dennis Gillem, USA
(Ret.), Sant Gupta, Owen Jones, Jim Logue, Greg
Penglis, Kevin E. Peterson, Dr. John J. Sainsbury Phd.
are residents of other states who have an interest in the
Constitutional issues raised in this brief because the
same issues may affect the outcome of their elections in
their respective states about who will be leading this
country for the next four years, and who thus wish to
have their views considered by the Court as Amicus as
stated in this brief
II.

Statement Regarding Brief

Amici gave notice to all parties below of the intent to
file an amici brief in support of petitioners. If the Writ
is granted, it is likely that is case will be fast-moving due
to the nature of it, so Amici cannot wait additional time
before submitting the motion. The Petitioners consented
on November 30, 2020. Republican Party consented on

5

November 29, 2020. Respondents Armstrong, Bedford,
Blair, Centre, Columbia, Dauphin, Fayette, Huntingdon,
Indiana, Lackawanna, Lawrence, Lebanon, Montour,
Northumberland, Venango, and York County Boards of
Elections. Consented on November 30, 2020. We had no
response from any of the other parties. The above
justifies the request to file the enclosed amici brief
supporting Petitioners without 10 days’ advance notice
to the parties of intent to file.
CONCLUSION
The Court should grant amici curiae leave to file
the attached Amicus Curiae brief in support of
Petitioners.
Respectfully submitted,
s/ David W. T. Carroll
David W. T. Carroll, Esq.
Carroll, Ucker & Hemmer LLC
1955 Coventry Road
Columbus, Ohio 43212
Direct Telephone: (614) 423-9820
Counsel of Record for United of
White House Watch Fund a project
of United States Public Policy

CERTIFICATE OF SERVICE
Amici, by counsel, certifies that a copy of the
foregoing Motion for Leave to File Amicus Curiae Brief

6

with the Proposed Amicus Brief attached were served,
upon the attorney of record in this Court for the
Appellant by first class U.S. mail, postage prepaid, on
November 30, 2020:
Attorneys for Petitioners:
John Matthew Gore
Jones Day
51 Louisiana Avenue, N.W.
Washington, DC 20001
jmgore@jonesday.com 2028793939
Party name: Republican Party of Pennsylvania
Jason Brett Torchinsky
Holtzman Vogel Josefiak Torchinsky PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
Jtorchinsky@hvjt.law 540 341 8808
Party name: Joseph B. Scarnati, III, et al.
Attorneys for Respondents
Joseph Matthias Cosgrove
Selingo Guagliardo LLC
345 Market Street
Kingston, PA 18704-0000
jmcosgro@msn.com
570-287-2400
Party name: Luzerne County Board of Elections
John Bartley DeLone
Attorney General's Office
Pennsylvania Office of Attorney General -Appellate
Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
jdelone@attorneygeneral.gov 717-712-3818

7

Party name: Secretary of State Kathy Boockvar
Gerard Joseph Geiger
Newman, Williams, et al.
712 Monroe St.
P.O. Box 511
Stroudsburg, PA 18360
ggeiger@newmanwilliams.com
(570) 421-9090
Party name: Carbon County Board of Elections,
Monroe County Board of Elections, Pike County Board of
Elections, Wayne County Board of Elections, Schuylkill
County Board of Elections
Molly Elizabeth Meacham
Babst Calland Clements and Zomnir, PC
Two Gateway Center, 603 Stanwix Street
Pittsburgh, PA 15222
mmeacham@babstcalland.com
4126008528
Party name: Boards of Elections for Armstrong,
Bedford, Blair, Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna, Lawrence, Lebanon,
Montour, Northumberland, Venango and York Counties
Donald B. Verrilli Jr.
Munger, Tolles & Olson LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
donald.verrilli@mto.com
202-220-1101
Party name: Pennsylvania Democratic Party
Stephanie L. Fera
Cafardi Ferguson Wyrick Weis & Gabriel, LLC
2605 Nicholson Road, Suite 2201
Sewickley, PA 15143

8

Party name: Clarion County Board of Elections/Tioga
County Board of Elections
Thomas R Shaffer
Glassmire and Shaffer Law Offices, P.C.
5 East Third Street
Coudersport, PA 16915
Party name: Potter County Board of Elections
Other
Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
benjamin.flowers@ohioattorneygeneral.gov
Party name: State of Ohio
Mithun Mansinghani
Solicitor General
Office of the Oklahoma Attorney General
313 NE 21st Street
Oklahoma City, OK 73105
mithun.mansinghani@oag.ok.gov 405-522-4392
Party name: State of Oklahoma
D. John Sauer
Office of the Attorney General
Supreme Court Building, 207 West High Street
P.O. Box 899
Jefferson City, MO 65102
john.sauer@ago.mo.gov
573-751-3321
Party name: State of Missouri
Jay Alan Sekulow
Constitutional Litigation and Advocacy Group, P.C.

9

1700 Pennsylvania Ave. NW, Suite 200
Washington, DC 20006
jsekulow@claglaw.com 2025468890
Party name: Donald J. Trump for President, Inc.
Also, in compliance with Rule 29 of the Rules of the
Supreme Court, an electronic copy of this Brief was also
sent by electronic mail (email) on the same date in
electronic / computer PDF format to all attorneys for the
principal parties.
s/ David W. T. Carroll
David W. T. Carroll

10

No. 20-574

IN THE

Supreme Court of the United States
__________
JOSEPH B. SCARNATI, III., et al.
Petitioners
v.
PENNSYLVANIA DEMOCRATIC PARTY ET AL. et al.
Respondents
On Petition for Certiorari from the Pennsylvania
Supreme Court
Amicus Curiae Brief of White House Watch
Fund a project of United States Public Policy
Council et al., for Petitioners

David W. T. Carroll, Esq.
Carroll, Ucker & Hemmer LLC
1955 Coventry Road
Columbus, Ohio 43212
Direct Telephone: (614) 423-9820
Counsel of Record for United of
White House Watch Fund a
project of United States Public
Policy
November 30, 2020

TABLE OF CONTENTS
TABLE OF AUTHORITIES ................................. iv
INTRODUCTORY STATEMENT: ......................... 1
INTEREST OF AMICI CURIAE ............................ 1
SUMMARY OF ARGUMENT ................................ 5
ARGUMENT ........................................................... 8
I. FEDERAL POWER DELEGATED TO
STATE LEGISLATURES ................................... 8
A.
The election for president and vice
president is a federal function under federal
authority. ......................................................... 8
B.
The Plain Text of the Elector Clause
Delegated Federal Authority to the State
Legislature and to No Other State Body or
Official ............................................................ 12
1.
Exclusive Federal Authority
Delegation................................................... 12
2.
No State Government Official or
Agency May Redesign Elections for
President. ................................................... 15
3.
The Constitution Provides No
Pandemic Exception ................................... 18
II.
PENNSYLVANIA VIOLATED EQUAL
PROTECTION RIGHTS OF VOTERS ..... Error!
Bookmark not defined.
ii

A.
If a State Legislature Chooses Popular
Election of Electoral College Electors, it Must
Treat Voters Equally .. Error! Bookmark not
defined.
B.
Pennsylvania’s Non-Legislative Officials
Violated the Equal Protection Rights of Voters
Error! Bookmark not defined.
III. REMEDIES AVAILABLE TO
PENNSYLVANIA ............................................. 20
A.

The Statutory Deadlines ...................... 20

B.

Two Possible Remedies. ....................... 21

IV.

CONCLUSION ........................................ 24

CERTIFICATE OF COMPLIANCE ..................... 25
STATEMENT OF SERVICE .... Error! Bookmark
not defined.

iii

TABLE OF AUTHORITIES 1
Cases
Ariz. v. Inter Tribal Council of Ariz., Inc., 570 U.S. 1, 133
S.Ct. 2247, 186 L.Ed.2d 239 (2013) ............................30
Arizona State Legislature v. Arizona Independent
Redistricting Commission, 576 U.S. 787 (2015). ........17
Baca v. Colo. Dep't of State, 935 F.3d 887, 907 (10th Cir.
2019). ...........................................................................13
Bush v. Palm Beach County Canvassing Bd., 531 U.S. 70
(2000) ...........................................................................12
Democratic Nat'l Comm. v. Wis. State Legislature, Case no.
20A66] .........................................................................14
Fitzgerald v. Green, 10 S.Ct. 586, 134 U.S. 377, 33 L.Ed.
951 (1890) ....................................................................13
James Carson, Eric Lucero v. Steve Simon, et al, Record
No. 20-3139, U.S. Court of Appeals For the Eighth
Circuit (October 29, 2020) ...........................................15
Lyman v. Baker, 954 F.3d 351, 354-355 (1st Cir. 2020) 12,
26, 30
Pherson v. Blacker, 146 U.S. 1, 27, 13 S.Ct. 3, 36 L.Ed. 869
(1892) .....................................................................16, 30
Ray v. Blair, 343 U.S. 214, 224-225, 72 S.Ct. 654, 96 L.Ed.
894 (1952) ....................................................................12
Twelfth Amendment ........................................................11
Williams v. Rhodes, 393 U.S. 23 (1968) ..........................25
Statutes
3 U.S.C. § 1 ............................................................9, 10, 28
1

Amici reviewed all of every precedent in the Federal
Judiciary system mentioning “electoral college.” The choice of
precedents relied upon is driven by limited, relevant cases.

iv

3 U.S.C. § 7 ......................................................................28
U.S. Constitution, Seventeenth Amendment ...................14
Rules
Rule 37.3 of the Rules of the Supreme Court1

v

INTRODUCTORY STATEMENT:
This brief supports the Petition for a Writ of
Certiorari and the substantive requests for relief of
the Petitioners, and proposed intervenor, Donald J.
Trump for President, Inc. (the principal, official,
election campaign committee for the re-election of
President Donald J. Trump and Vice President
Mike Pence), of candidate for re-election President
Donald J. Trump, of Pennsylvania voter (termed an
“elector” in Pennsylvania law) Lawrence Roberts,
and of Pennsylvania voter David John Henry.
Pursuant to Rule 37.3 of the Rules of the
Supreme Court, the parties who have given consent
are identified in the motion for leave to file.
INTEREST OF AMICI CURIAE
The White House Watch Fund (WHWF)
(formerly White House Defense Fund) is a project
of the U.S. Public Policy Council, a non-profit,
public policy organization recognized under Section
501(c)(4) of the IRS code. WHWF monitors and
provides information and analysis on public policy
proposals or changes of the White House.
WHWF is associated with the Freedom Center
Foundation, recognized under Section 501(c)3 of
the IRS Tax Code and which has helped pay for
expenses associated with the filing of this brief.
Much of the programmatic work of WHWF
involved defense against attacks on the White
House as an institution. WHWF has over 300,000

active, recent supporters from every state in the
union and all Congressional Districts.
WHWF delivered a quarter of a million petitions
in a presentation at the House of Representatives
on September 23, 2020 concerning Speaker of the
House Nancy Pelosi’s and House Intelligence
Committee Chairman Adam Schiff’s dishonesty
and malfeasance in the impeachment of the
President.
WHWF is especially interested to see that the
Constitution is followed in federal elections,
especially where it states that only the Congress
determines the date of voting, and only the state
legislatures determine the details of that voting,
such as what time polls close and when late ballots
are not to be counted.
Its past work defending the White House against
dishonest partisan attacks, WHWF’s supporters
are alarmed and concerned that no future election
in our nation will be trusted if governing laws can
be so massively and readily ignored now.
The Conservative Christian Center (CCC) of
Pennsylvania is a project of United States Public
Policy Council with active clubs in York County and
Cumberland County. Its central mission is to
increase the number of voters from the churchgoing, faith communities and to increase their
2

interest and influence on public policy questions.
They have for eight years published a twice annual
Value Voters Guide, in general elections and for
primary elections, showing the candidate’s
response to ten public policy questions, to enable
faith voters to cast an informed vote based upon the
issues of interest to them and the position that
candidates take on those issues.
America First Agenda (AFA) (formerly
Americans for the Trump Agenda), also a project of
United States Public Policy Council, has been
supportive during the four years of the Trump
Administration of the programs and policies
proposed or enacted by President Donald Trump
and wishes to have its views represented to the
Court through this brief.
Former Representative Will Tallman, on behalf
of himself and the GOP majority in both chambers
of the Pennsylvania State Legislature, has a
fundamental interest in defending his unique
prerogatives specifically enumerated in the
Constitution regarding the election of a President
and the method by which the Electoral College
votes are allocated, and wishes to have his views
considered by the Court before it renders a decision
on this matter.
Citizens who reside in South Central
Pennsylvania, and who do hereby associate with
3

Conservative Christian Center and join as Amicus,
include:
2020 GOP National Convention Delegates
Ronald Wilcox and William E. Saracino, not
residents of Pennsylvania, wish to be listed as
Amicus because of their interest in helping
President Donald Trump and their interest in
upholding the Constitution.
Andrew W. Barbin, Ross Cleveland, Carter Cluz,
Donna Ellingsen, Julie Haertsch, Maxine
Kaufmann, Laszlo Pazstor, Jr., Corbin Kauffman,
Mario Eckert, Cynthia A Voggenreiter, and Michael
Ebersole are residents and voters of Pennsylvania
who wish to make sure that their votes in elections
such as the 2020 contest for President, are not
diminished or reduced by disparate treatment of
votes cast in liberal-Democrat controlled cities in
Pennsylvania, such as Philadelphia versus the
more accurate and strict treatment of the handling
of votes, in accordance with the rules approved by
the state legislature in accordance with the United
States Constitution and they pray that the Court
will consider their views as Amicus as stated in this
brief.
Thomas C. Bivona, Dr. Daniel A. Brubaker,
PhD., Richard Buck, Dr. Roger Canfield, PhD.,
Gerald R. Geddes, Gary Giordano, Lt. Col. Dennis
Gillem, USA (Ret.), Sant Gupta, Owen Jones, Jim
4

Logue, Greg Penglis, Kevin E. Peterson, Dr. John
J. Sainsbury Phd. are residents of other states who
have an interest in the Constitutional issues raised
in this brief because the same issues may affect the
outcome of their elections in their respective states
about who will be leading this country for the next
four years, and who thus wish to have their views
considered by the Court as Amicus as stated in this
brief.
SUMMARY OF ARGUMENT
Amici Curiae (hereafter “Amici”) propose to
assist the Court by presenting a different and
deeper conceptual analysis of the matter presented
by the Petitioners (who will be presumably
Appellants) of the relationship of Article II, Section
1, of the U.S. Constitution (the "Elector Clause")
and state action. The Elector Clause governs the
selection of electors to the Electoral College who
vote for the President and the vice President. The
language could not be more clear, "Each State shall
appoint, in such manner as the Legislature
thereof may direct, a number of electors, equal to
the whole of number of Senators and
Representatives to which the State may be entitled
in the Congress…."[emphasis added]. The Elector
Clause expressly delegates federal power to the
state legislatures to direct the selection of electors.
In

this

case,

the
5

legislature

of

the

Commonwealth of Pennsylvania established a
process for the acceptance of votes by mail
mandating that to be counted, the ballot must be
received by the date established by Congress as
election day. On September 17, 2020, without any
legislative approval, the Supreme Court of
Pennsylvania decided to change the date by which
an eligible vote must be received to be counted.
The Elector Clause in Article II, Section 1,
delegated federal authority to the legislature of the
Commonwealth of Pennsylvania, but not to the
Supreme Court of Pennsylvania. Only to the
legislature of Pennsylvania. During the election,
Pennsylvania election officials accepted and
counted ballots that were ineligible under the
statutory law enacted by the Pennsylvania
legislature but purportedly authorized by the
Pennsylvania Supreme Court.
As a result, any votes certified by the
Commonwealth of Pennsylvania for the election of
electors to the Electoral College are void as long as
it contains ineligible ballots received after the date
set by the United States Congress as election day,
as mandated by the Pennsylvania legislature under
the Elector Clause.
Because Pennsylvania apparently counted the
valid ballots received by the statutory deadline set
by the Pennsylvania legislature, even if the actual
6

ballots were not necessarily preserved, it appears
possible to redress this violation by excluding from
the voting tabulations ballots received after the
statutory deadline.
Also, wisely or unwisely, the state legislature did
not establish for the purpose of elections for U.S.
President a procedure for the correction of
defectively completed or submitted absentee
ballots.
Whereas 3 U.S.C. § 1, sets one and only one
uniform nationwide day for the election,
Pennsylvania’s legislature provided for limited
ability to vote by mail under precise conditions and
requirements. Since November 3, 2020, was the
date of the election set by federal statute in 3 U.S.C.
§ 1, voting by absentee ballot is the exception, not
the default.
We recall Justice Amy Coney Barrett in her
confirmation hearing saying that she rejected the
courts substituting their own ideas for those of the
legislature and saying that as a Justice she cannot
impose “the law of Amy.” However tempting it
might be to let absentee voters correct their
defective ballots, doing so is incompatible with
Article II, Section 1 of the U.S. Constitution.
Indeed, the concept of voting remotely by mail is
incompatible with a voter coming to the election
office to correct a ballot in person.
7

ARGUMENT
In Act 77, the Pennsylvania legislature
authorized mail-in ballots to be counted only if
received by the election day established by the
United States Congress. In a questionable exercise
of judicial authority, the Pennsylvania Supreme
Court usurped the power of the Pennsylvania
legislature and decreed that ballots would be
counted if received within seven days after the
date established by Congress as election day as long
as they were postmarked by election day. The
Pennsylvania Supreme Court reasoned that the
COVID epidemic amounted to a natural disaster
that somehow authorized it to extend the received
by deadline for mail-in ballots. Pennsylvania
Democratic Party v. Kathy Boockvar, Case no. 133
MM 2020 (September 17, 2020) [Slip Op. 35].
I. FEDERAL POWER DELEGATED
STATE LEGISLATURES

TO

A. The Election for President and Vice
President is a Federal Function under
Federal Constitutional Authority.
As authorized by the United States Constitution,
Congress established election day in 3 U.S.C. § 1,
8

specifically the Tuesday next after the first Monday
in November in every fourth year.
In 2020, November 3 was the day Congress
established, not the entire month of November, not
November 10. One day. Only One day.
Congress established the date of the election, but
the Constitution delegated federal authority to
each state legislature to direct the manner of
selection of the electors to the Electoral College,
which, by congressional enactment, meets on the
first Monday after the second Wednesday in
December following their appointment. 3 U.S.C § 7.
Accordingly, the Electoral College is scheduled to
meet on December 14, 2020.
This Court should make clear once and forever
that the selection of the United States President is
exclusively and unalterably a federal function
arising exclusively from the
United States
Constitution and is not an exercise of state
government authority.
If this important detail is not clarified, we fear
that future United states elections will devolve into
chaos and corruption.
The United States elects its President and Vice
President through the Electoral College, which is a
body of electors appointed by each state in
9

proportion to its representation in the Senate and
the House of Representatives. Article II, §1, of the
United States Constitution and the Twelfth
Amendment. The candidate that receives a
majority of those electors' votes wins the
presidency. See id. Amend. XII, cl. 1. Lyman v.
Baker, 954 F.3d 351, 354-355 (1st Cir. 2020)
“The presidential electors exercise a federal
function in balloting for president and vice
president but they are not federal officers or agents
any more than the state elector who votes for
congressmen. They act by authority of the state
that in turn receives its authority from the federal
constitution.” Ray v. Blair, 343 U.S. 214, 224-225,
72 S.Ct. 654, 96 L.Ed. 894 (1952)
In Bush v. Palm Beach County Canvassing Bd.,
531 U.S. 70 (2000) this Court made the matter
unmistakably clear. Although the Court would
normally defer to a state court's interpretation of
the state statute,
But in the case of a law enacted by a state
legislature applicable not only to elections
to state offices, but also to the selection of
presidential electors, the legislature is not
acting solely under the authority given it
by the people of the state, but by virtue of
a direct grant of authority made under
10

Art. II, § 1, cl. 2, of the United States
Constitution.
Similarly,
And although presidential electors are not
federal officials, they exercise a federal
function. See Ray v. Blair, 343 U.S. 214,
224, 72 S.Ct. 654, 96 L.Ed. 894 (1952)
("The presidential electors exercise a
federal function in balloting for President
and Vice-President but they are not
federal officers or agents any more than
the state elector who votes for
congressmen.").
Baca v. Colo. Dep't of State, 935 F.3d 887, 907 (10th
Cir. 2019).
Fitzgerald v. Green, 10 S.Ct. 586, 134 U.S. 377,
33 L.Ed. 951 (1890), also may appear to be to the
contrary, but is distinguishable. It was argued that
the State could not prosecute crimes of fraudulent
voting because the selection of electors to the
Electoral College is a federal function. But in
Fitzgerald, the U.S. Supreme Court argued that the
Electoral College is “no more” of a federal function
than the state legislature appointing a U.S.
Senator.
11

Arguably, both are federal functions. To say that
choosing a U.S. President is “no more” a federal
function than choosing a U.S. Senator is not really
making a distinction useful to us here now -- except
that Senators are no longer chosen by state
legislatures. See, U.S. Constitution, Seventeenth
Amendment.
B. The Plain Text of the Elector Clause
Delegated Federal Authority to the
State Legislature and to No Other
State Body or Official
1. Exclusive Federal Authority Delegation
In Democratic Nat'l Comm. v. Wis. State
Legislature, 20A66, this Court declined to take up
the full case but denied the application to vacate a
stay that had issued by the Court of Appeals of a
District Court's change to Wisconsin's election
rules. In his concurring opinion in footnote 1,
Justice Kavanaugh addressed precisely the
situation in this case:
[U]nder the U. S. Constitution, the state
courts do not have a blank check to rewrite
state election laws for federal elections.
Article II expressly provides that the rules
for Presidential elections are established
by the States "in such Manner as the
12

Legislature thereof may direct." §1, cl. 2
(emphasis added). The text of Article II
means that "the clearly expressed intent
of the legislature must prevail" and that a
state court may not depart from the state
election code enacted by the legislature.
Bush v. Gore, 531 U. S. 98, 120 (2000)
(Rehnquist, C. J., concurring) …
.
In a case involving the 2020 election, the Eighth
Circuit Court of Appeals decided a remarkably
similar case. In James Carson, Eric Lucero v. Steve
Simon, et al, Record No. 20-3139, U.S. Court of
Appeals For the Eighth Circuit (October 29, 2020)),
the Minnesota Alliance for Retired Persons
Education give fund had sued the Minnesota
Secretary of State and entered into a consent decree
purporting to change rules established by the
Minnesota legislature by which the Secretary
would count as the ballots received up to a week
after election date, notwithstanding Minnesota
law. Candidates for Electoral College filed an action
in the District Court to enjoin the consent decree.
The District Denied the injunction. On appeal, the
Eighth Circuit reversed finding that the electors
are likely to succeed on the merits because the
Secretary's action in altering the deadline for mailin ballots likely violated the Electors Clause of
Article II, Section 1 of the United States
Constitution. The Court reasoned that the Electors
Clause that the power to determine the manner of
13

selecting electors in the legislature of each state.
[Slip op. at 11-12.]
As long ago as 1879 in Pherson v. Blacker, 146
U.S. 1, 27, 13 S.Ct. 3, 36 L.Ed. 869 (1892) , this
Court recognized that the Constitution leaves the
selection of Electoral College electors to the state
legislatures exclusively. In Pherson, the legislature
of the state of Michigan had established that the
electors to the Electoral College would be chosen by
popular election. Several potential electors insisted
that the legislature as a body politic had the
obligation to choose the electors. Confirming that
the state legislature was the sole authority in
determining how electors would be chosen, the
state legislature had every right to establish that it
would be by popular election.
Arizona
State
Legislature
v.
Arizona
Independent
Redistricting
Commission,
576 U.S. 787 (2015). is not to the contrary. In the
Arizona case, this Court approved of the Arizona
citizens exercising legislative authority under the
Arizona Constitution through citizen initiative,
stating that the initiative process qualified as part
of the authority of the legislature under Article II,
Section 1.
Each state has three branches of government:
legislative, executive, and judicial. In the Arizona
case, the Arizona Constitution authorized
14

legislative authority to be exercised by initiative
petition. In the present case, the Pennsylvania
judicial branch does not have and cannot properly
exercise legislative authority the United States
Constitution delegated to the Pennsylvania
legislature.
There is another substantial difference between
the Arizona case in the present case: The Arizona
redistricting of congressional and legislative
districts within Arizona did not change the rules or
procedures for choosing electors to the Electoral
College. The lines drawn for each congressional
district every ten years are not an alteration of
rules or procedures of how a state chooses its
electors.
2. No State Government Official or Agency
May Redesign Elections for President.
The plain text of the United States
Constitution’s Elector Clause delegates federal
authority to the state legislatures alone the duty to
determine that manner of choosing Electors of the
Electoral College. The text of the Elector Clause
implicitly and necessarily excludes any role for any
other State government officials, authorities, or
agencies in the process of setting the rules and
procedures for electing the President.
15

To the extent that they alter, re-interpret, waive,
modify, suspend, or rewrite the procedures, rules,
laws, rights, and/or obligations for choosing the
electors previously established by the state
legislature, all of the following state actions are
null and void because they fall outside the
delegated federal authority:  A State Governor’s decisions, orders,
guidance, interpretations, or instructions.
 A State Secretary of State’s decisions, orders,
guidance, interpretations, or instructions
from.
 Decisions, orders, guidance, interpretations,
or instructions from a State, County, local,
precinct, or district election official.
 Consent orders entered or approved by any
court.
 Decisions,
orders,
injunctions,
or
interpretations from a State, County, or local
court.
Furthermore,
 Ballots received that fail to conform to law
enacted by the state legislature in its
federally delegated power are void without
discretion or decision.
 Ballots

received
16

after

the

deadlines

established by the state legislature under it
federally delegated power might potentially
be accepted as votes for State or local offices,
but not for the selection of electors for
the President, which is fundamentally
and Constitutionally distinct.
 Ballots for the election of President received
after the deadline established by the state
legislature acting under federally delegated
power are null and void and may not be
considered.
 Modifications
to
ballot
signature
requirements established by the state
legislature acting under federally delegated
power are null and void with regard to the
election of the President.
 Modifications to absentee ballot witness
requirements are void for to the election of
the President if the modifications depart
from the legislature's federally delegated
enactment.
 Ballots that do not comply with the state
legislature's pre-existing statutory law
enacted under its federally delegated power
for selection of electors for the Electoral
College in presidential elections are void.
The state legislatures act exclusively under
delegated federal authority and do not act simply
17

as creatures of their respective states when they
direct manner of selecting electors under the
Elector Clause.
The Pennsylvania Supreme Court excused its
changing of the date and process for determining
eligible mail in votes because of the pandemic. A
failure to plan is not an emergency.
3. The United States Constitution Has No
Pandemic Exception
The Pennsylvania Supreme Court had no
authority to revise the manner of selection of
electors established by the Pennsylvania
legislature under its federally delegated power.
In his concurring opinion denying the motion to
stay in Democratic Nat'l Comm., supra, Justice
Kavanaugh made it clear that there is no pandemic
exception in the United States Constitution. [Slip
Op. at 12.]
Each State legislature has been fully aware of
circumstances possibly arguing for modifications of
their statutes since the President of the United
States issued a National Public Health Emergency
on January 31, 2020,2 followed by a March 13,
2

“Secretary Azar Declares Public Health Emergency
for United States for 2019 Novel Coronavirus,” Press Office,

18

2020, more standard declaration of a National
Emergency. 3 Similarly, all voters had extensive
knowledge of concerns about the impact of the
pandemic on the election. It is difficult to conjure
up by speculation a scenario in which a voter
worried about voting in person would need to or
have a right to mail an absentee ballot at the last
minute, so that it arrived days late, after the
statutory deadline. Might someone do so? Yes.
Does the law provide a “right” to vote late? No.
The national discussion from March 2020
constantly debated these concerns. No one was
taken by surprise that the election was on
November 3, 2020, and that the volume of mailedin ballots would be enormous. Waiting until the
last minute might be human, but there exists no
legal right to vote late.4

U.S. Department of Health and Human Services, January 31,
2020, https://www.hhs.gov/about/news/2020/01/31/secretaryazar-declares-public-health-emergency-us-2019-novelcoronavirus.html

3 Charlie Savage, “Trump Declared an Emergency Over
Coronavirus.,” The New York Times, March 13, 2020,
https://www.nytimes.com/2020/03/13/us/politics/coronavirusnational-emergency.html

4 Charlie Savage, “Trump Declared an Emergency
Over Coronavirus.,” The New York Times, March
13, 2020,
https://www.nytimes.com/2020/03/13/us/politics/co
ronavirus-national-emergency.html
19

In summary, the Pennsylvania Supreme Court
usurped federal power delegated to the
Pennsylvania legislature, resulting in many
ineligible votes being cast in the selection for
Elector of the Electoral College. The unfortunate
result is that the Secretary of State certification of
the results of the Pennsylvania election for the
President and Vice President is invalid and void.
II. REMEDIES
AVAILABLE
TO
PENNSYLVANIA LEGISLATURE

THE

A. The Statutory Deadlines
The United States Congress provided date for
presidential elections in 3 U.S.C. § 1, specifically
"the Tuesday next after the first Monday in
November, in every fourth year…." Accordingly,
November 3, 2020, was the one and only day
designated for electing a President.
3 U.S.C. § 7, Meeting and vote of electors,
provides that the electors shall meet and give their
votes on the first Monday after the second
Wednesday in December next following their
appointment…." The Electoral College is required
to meet and vote on December 14, 2020.

20

B. Two Possible Remedies.
Amici understand that this Court may be
concerned about potential disenfranchisement of
voters who acted in reliance on the usurpation of
power by the Pennsylvania Supreme Court. Amici
see this as a political issue. The Pennsylvania
voters have every right and opportunity to cast
their ballots in a state election for Pennsylvania
Supreme Court to express their concerns over any
disenfranchisement
resulting
from
the
Pennsylvania Supreme Court's usurpation of state
legislative power in violation of the United States
Constitution. If restoration of the integrity of the
2020 Election results in disenfranchisement of
Pennsylvania voters, it will have been the justices
of
the
Pennsylvania
Supreme
Court
disenfranchised them by refusing to conform to the
United States Constitution.
The Commonwealth of Pennsylvania has at least
two remedies which may be exercised by its
legislature. 1) the legislature may direct emergency
legislation appointing electors to the Electoral
College consistent with the Electors Clause and
3 U.S.C. §2 which allows the state legislature to
direct the appointment of electors after election
day. If the state fails to make the choice on the day
prescribed by Congress; or 2) the Pennsylvania
legislature may decline to certify any electors for
any presidential and vice presidential candidate.
21

Amici are not saying that these are the only
remedies possible or the best remedies, but only
that there are at least two remedies available.
While the process for choosing electors cannot
violate Equal Protection of the Law concerns of
voters, an invalid election may require the state
legislature to remedy an invalid election by making
its best judgment, which may include the
legislature selecting the electors to the Electoral
College. Legislators selecting the electors has
historical precedent in the United States.:
In Pherson v. Blacker, 146 U.S. 1, 13 S.Ct. 3, 36
L.Ed. 869 (1892) this Court noted that in the second
presidential election this country, nine of the state
legislators chose the electors to the Electoral
College. In the third presidential election, nine
states again appointed the electors.
In Lyman v. Baker, 954 F.3d 351 (1st Cir. 2020),
potential electors to the Electoral College
challenged the Massachusetts statutory scheme by
which the election of Electoral College electors was
winner take all. Affirming the District Court's
dismissal of the complaint, the Court of Appeals in
footnote 7 noted that in 1800, " the Massachusetts
legislature took back the appointment power from
its citizens and picked the electors itself."
22

Justice Alito's dissent in Ariz. v. Inter Tribal
Council of Ariz., Inc., 570 U.S. 1, 133 S.Ct. 2247,
186 L.Ed.2d 239 (2013) similarly acknowledges our
history in which legislatures selected the electors to
the Electoral College.
FOOTNOTE 2. As late as 1824, six State
Legislatures chose Electoral College
delegates, and South Carolina continued
to follow this model through the 1860
election. 1 Guide to U.S. Elections 821
(6th ed. 2010). Legislatures in Florida in
1868 and Colorado in 1876 chose
delegates, id., at 822, and in recent
memory, the Florida Legislature in 2000
convened a special session to consider how
to allocate its 25 electoral votes if the
winner of the popular vote was not
determined in time for delegates to
participate in the Electoral College, see
James, Election 2000: Florida Legislature
Faces Own Disputes over Electors, Wall
Street Journal, Dec. 11, 2000, p. A16,
though it ultimately took no action. See
Florida's Senate Adjourns Without
Naming Electors, Wall Street Journal,
Dec. 15, 2000, p. A6.
If the Pennsylvania legislature does not
otherwise act, the invalid and void certification by
the Secretary of State of Pennsylvania will result in
23

Pennsylvania's electoral votes not being counted
toward the 270 electoral votes necessary for the
election of the President and Vice President.
III. CONCLUSION
Amici respectfully urge this Court to grant
Certiorari to clarify that the Pennsylvania
Supreme Court wrongfully usurped federal power
when it changed the Pennsylvania legislature's
statutory rule for what constituted an eligible vote
in the 2020 election. Unless the Secretary of State
can demonstrate that the state segregated the mailin ballots received after election day and that the
number is less than the improperly certified margin
of victory for Joseph Biden, the Pennsylvania
election should be declared void and any
certification a nullity.
Respectfully submitted,
BY COUNSEL
S/

DAVID W. T. CARROLL
DAVID W. T. CARROLL, ESQ.
(Ohio #10406)
(SUP. Ct. 1980)
Carroll, Ucker & Hemmer LLC
1955 Coventry Road
Columbus, Ohio 43212
Telephone: (614) 423-9820
Email: dcarroll@cuhlaw.com
24

Counsel of Record for Proposed
Amici
Not appearing:
Jonathon A. Moseley, Esq.
Virginia State Bar #41058
3823 Wagon Wheel Lane
Woodbridge, Virginia 22192
Telephone: (703) 656-1230
Email: Contact@JonMoseley.com
Assisting Counsel of Record in
Preparing Briefing for Proposed
Amici, Not Admitted in This Court
CERTIFICATE OF COMPLIANCE
I certify that this petition is formatted and
printed in typeface Century Schoolbook, 12 point
font size, and contains 4387 words, excluding the
parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
/s David W. T. Carroll
DAVID W. T. CARROLL, ESQ.

25

CERTIFICATE OF SERVICE
Amici, by counsel, certifies that a copy of the
foregoing Motion for Leave to File Amicus Curiae
Brief with the Proposed Amicus Brief attached
were served, upon the attorney of record in this
Court for the Appellant by first class U.S. mail,
postage prepaid, on November 30, 2020:
Attorneys for Petitioners:
John Matthew Gore
Jones Day
51 Louisiana Avenue, N.W.
Washington, DC 20001
jmgore@jonesday.com 2028793939
Party name: Republican Party of Pennsylvania
Jason Brett Torchinsky
Holtzman Vogel Josefiak Torchinsky PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
Jtorchinsky@hvjt.law 540 341 8808
Party name: Joseph B. Scarnati, III, et al.
Attorneys for Respondents
Joseph Matthias Cosgrove
Selingo Guagliardo LLC
345 Market Street
Kingston, PA 18704-0000
jmcosgro@msn.com
570-287-2400
26

Party name: Luzerne County Board of
Elections
John Bartley DeLone
Attorney General's Office
Pennsylvania Office of Attorney General Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
jdelone@attorneygeneral.gov 717-712-3818
Party name: Secretary of State Kathy Boockvar
Gerard Joseph Geiger
Newman, Williams, et al.
712 Monroe St.
P.O. Box 511
Stroudsburg, PA 18360
ggeiger@newmanwilliams.com
(570) 4219090
Party name: Carbon County Board of Elections,
Monroe County Board of Elections, Pike County
Board of Elections, Wayne County Board of
Elections, Schuylkill County Board of Elections
Molly Elizabeth Meacham
Babst Calland Clements and Zomnir, PC
Two Gateway Center, 603 Stanwix Street
Pittsburgh, PA 15222
mmeacham@babstcalland.com
4126008528
27

Party name: Boards of Elections for Armstrong,
Bedford, Blair, Centre, Columbia, Dauphin,
Fayette, Huntingdon, Indiana, Lackawanna,
Lawrence, Lebanon, Montour, Northumberland,
Venango and York Counties
Donald B. Verrilli Jr.
Munger, Tolles & Olson LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
donald.verrilli@mto.com
202-220-1101
Party name: Pennsylvania Democratic Party
Stephanie L. Fera
Cafardi Ferguson Wyrick Weis & Gabriel, LLC
2605 Nicholson Road, Suite 2201
Sewickley, PA 15143
Party name: Clarion County Board of
Elections/Tioga County Board of Elections
Thomas R Shaffer
Glassmire and Shaffer Law Offices, P.C.
5 East Third Street
Coudersport, PA 16915
Party name: Potter County Board of Elections
Other
Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
28

Columbus, OH 43215
benjamin.flowers@ohioattorneygeneral.gov
Party name: State of Ohio
Mithun Mansinghani
Solicitor General
Office of the Oklahoma Attorney General
313 NE 21st Street
Oklahoma City, OK 73105
mithun.mansinghani@oag.ok.gov 405-5224392
Party name: State of Oklahoma
D. John Sauer
Office of the Attorney General
Supreme Court Building, 207 West High Street
P.O. Box 899
Jefferson City, MO 65102
john.sauer@ago.mo.gov
573-751-3321
Party name: State of Missouri
Jay Alan Sekulow
Constitutional Litigation and Advocacy Group,
P.C.
1700 Pennsylvania Ave. NW, Suite 200
Washington, DC 20006
jsekulow@claglaw.com 2025468890
Party name: Donald J. Trump for President,
Inc.

29

Also, in compliance with Rule 29 of the Rules of
the Supreme Court, an electronic copy of this Brief
was also sent by electronic mail (email) on the
same date in electronic / computer PDF format to
all attorneys for the principal parties.
s/ David W. T. Carroll
David W. T. Carroll

30

LIST OF AMICI
White house Watch Fund, a project of the United
States Public Policy Council, a Virginia nonprofit
corporation
Concerning the Christian Center of Pennsylvania,
a project of the United States Public Policy
Council, a Virginia nonprofit corporation.
America First Agenda, a project of the United
States Public Policy Council
Former Pennsylvania State Representative
Hon. Will Tallman
Pennsylvania Residents/Voters:
Andrew W. Barbin, Esq.
Ross Cleveland
Carter Cluz
Mario Eckert
Donna Ellingsen
Julie Haertsch
Ethan Hake
Maxine Kaufmann
Laszlo Pazstor, Jr.
Cynthia A Voggenreiter
Michael Ebersole
Non-Pennsylvania Residents/Voters:
31

Ronald Wilcox, 2020 GOP National Convention
Delegate
William E. Saracino 2020 GOP National
Convention Delegate
Thomas C. Bivona
Dr. Daniel A. Brubaker, Ph.D
Richard Buck
Dr. Roger Canfield, Ph.D
Gerald R. Geddes
Gary Giordano
Lt. Col. Dennis Gillem, USA (Ret.)
Sant D. Gupta
Owen Jones
Jim Logue
Greg Penglis
Kevin Peterson
Dr. John J. Sainsbury, Ph.D.

32

APPENDIX
The following are attached:
1.

Pennsylvania Act 77

2.
Pennsylvania Democratic Party et al. v.
Kathy Boockvar et al, Supreme Court of
Pennsylvania, case number133MM 2020, 2020
WL 5554644 (September 17, 2020)
3.
James Carson, Eric Lucero v. Steve Simon, et
al, Record No. 20-3139, U.S. Court of Appeals For
the Eighth Circuit (October 29, 2020)
4.
Democratic Nat'l Comm.v.Wisc. United
States Supreme Court Case No. 20A66 (Justice
Kavanaugh, concurring)

33

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

1 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

PENNSYLVANIA ELECTION CODE - OMNIBUS AMENDMENTS
Act of Oct. 31, 2019, P.L. 552, No. 77
Session of 2019
No. 2019-77

Cl. 25

SB 421
AN ACT
Amending the act of June 3, 1937 (P.L.1333, No.320), entitled "An
act concerning elections, including general, municipal, special
and primary elections, the nomination of candidates, primary
and election expenses and election contests; creating and
defining membership of county boards of elections; imposing
duties upon the Secretary of the Commonwealth, courts, county
boards of elections, county commissioners; imposing penalties
for violation of the act, and codifying, revising and
consolidating the laws relating thereto; and repealing certain
acts and parts of acts relating to elections," in preliminary
provisions, further providing for definitions; in the Secretary
of the Commonwealth, providing for requirements for disapproval
or decertification of voting apparatuses and for census
outreach; in district election officers, further providing for
compensation of district election officers; in election
districts and polling places, further providing for
restrictions on alteration; in nomination of candidates,
further providing for petition may consist of several sheets
and affidavit of circulator, for manner of signing nomination
petitions and time of circulating and for nominations by
political bodies; in ballots, further providing for form of
official primary ballot, for form of official election ballot,
for number of ballots to be printed and specimen ballots and
for forms of ballots on file and open to public inspection and
ballots and diagrams to be furnished to candidates and parties;
in voting machines, further providing for requirements of
voting machines and for form of ballot labels on voting
machines; in electronic voting systems, further providing for
requirements of electronic voting systems, for forms, for
election day procedures and the process of voting and for post
election procedures; providing for voting apparatus bonds; in
preparation for and conduct of primaries and elections, further
providing for manner of applying to vote and persons entitled
to vote and voter's certificates and entries to be made in
district register and numbered lists of voters and challenges,
for method of marking ballots and depositing same in districts
in which ballots are used, for instructions of voters and
manner of voting in districts in which voting machines are
used, for count and return of votes in districts in which
ballots are used, for what ballots shall be counted, manner of
counting and defective ballots and for canvass and return of
votes in districts in which voting machines are used and
providing for deadline for receipt of valid voter registration
application, for appeals and for appeals to court of common
pleas; in voting by qualified absentee electors, further
providing for applications for official absentee ballots, for
date of application for absentee ballot, for approval of
application for absentee ballot, for absentee electors files
and lists, for official absentee voters ballots, for delivering
or mailing ballots, for voting by absentee electors, for
canvassing of official absentee ballots and for public records;

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

2 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

providing for voting by qualified mail-in electors; in returns
of primaries and elections, further providing for manner of
computing irregular ballots; providing for dissemination of
information and for jurisdiction; removing references to the
Traffic Court of Philadelphia; and making related repeals.
The General Assembly of the Commonwealth of Pennsylvania hereby
enacts as follows:
Section 1. Section 102(z.5)(3) of the act of June 3, 1937
(P.L.1333, No.320), known as the Pennsylvania Election Code, is
amended and the section is amended by adding a subsection to read:
Section 102. Definitions.--The following words, when used in
this act, shall have the following meanings, unless otherwise
clearly apparent from the context:
* * *
(z.5) The words "proof of identification" shall mean:
* * *
(3) For a qualified absentee elector under section 1301 or a
qualified mail-in elector under section 1301-D:
(i) in the case of an elector who has been issued a current
and valid driver's license, the elector's driver's license number;
(ii) in the case of an elector who has not been issued a
current and valid driver's license, the last four digits of the
elector's Social Security number;
(iii) in the case of an elector who has a religious objection
to being photographed, a copy of a document that satisfies
paragraph (1); or
(iv) in the case of an elector who has not been issued a
current and valid driver's license or Social Security number, a
copy of a document that satisfies paragraph (2).
(z.6) The words "qualified mail-in elector" shall mean a
qualified elector who is not a qualified absentee elector.
Section 2. The act is amended by adding sections to read:
Section 207. Requirements for Disapproval or Decertification
of Voting Apparatuses.--(a) The Commonwealth may not disapprove
or decertify a voting apparatus in 50% or more counties until the
requirements of this section have been met.
(b) If the Commonwealth intends to make a disapproval or
decertification under subsection (a), the Department of State must
submit a written plan to the President pro tempore of the Senate,
the Speaker of the House of Representatives, the Appropriations
Committee of the Senate, the Appropriations Committee of the House
of Representatives, the State Government Committee of the Senate
and the State Government Committee of the House of Representatives
at least 180 days prior to the effective date of the replacement
voting apparatuses, containing all of the following information:
(1) The reason for the disapproval or decertification.
(2) The estimated cost to replace the disapproved or
decertified voting apparatus and the plan for how funding will be
obtained to cover the estimated cost.
(3) A plan for replacing the disapproved or decertified voting
apparatus.
(4) The effective date of the replacement voting apparatus.
(c) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:
"Electronic voting system" shall have the meaning given to the
term in section 1101-A.
"Voting apparatus" shall mean a kind or type of electronic
voting system that received the approval of the Secretary of the

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

3 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

Commonwealth under section 1105-A.
Section 208. Census Outreach.--The Department of State may
utilize up to $4,000,000 of funds not expended, encumbered or
committed from appropriations from the General Fund for a fiscal
year ending before July 1, 2020, for an executive branch agency,
which is subject to the policy, supervision and control of the
Governor, for communication, administration and assistance within
each county of the Commonwealth for the purpose of ensuring a
complete and accurate census count of the Commonwealth in the 2020
Federal decennial census. The funds shall be transferred by the
Secretary of the Budget to a restricted account as necessary to
make payments under this section and, when transferred, are hereby
appropriated to carry out the provisions of this section. The
Secretary of the Budget may make a transfer of funds if the
transfer will not result in a deficit in an appropriation from
which funds are transferred. The Secretary of the Budget shall
provide at least 10 days prior notification of a transfer to the
chair and minority chair of the Appropriations Committee of the
Senate and the chair and minority chair of the Appropriations
Committee of the House of Representatives.
Section 3. Sections 412.2, 536(a) and (b), 630.1, 908, 909,
910, 951(d), 976, 981.1, 993(a), 998(a) and (b), 1002(a) and (b),
1003(a) and (e), 1004, 1007, 1008, 1107(b), 1110(h), 1107-A(3),
1109-A(a)(2) and (d), 1112-A(a)(2) and (4) and (b)(4) and 1113A(d) of the act are amended to read:
Section 412.2. Compensation of District Election
Officers.--(a) In all counties regardless of class, [the
compensation of] judges of election, inspectors of election,
clerks and machine operators shall be paid compensation as fixed
by the county board of elections for each election [in accordance
with the following:
Election Officers
Minimum
Maximum
Compensation
Compensation
Judges of election
$75
$200
Inspectors of election
$75
$195
Clerks and machine operators
$70
$195]
, which amount shall be at least $75 and not more than $200.
(a.1) An election officer shall receive additional
compensation, as fixed by the county board of elections, for
participating in election training.
(a.2) A judge of election shall receive additional
compensation, as fixed by the county board of elections, for
picking up and returning election materials.
(b) If a county board of elections authorizes that the duties
of a clerk of elections or machine operator may be performed by
two individuals who each perform [such] the duties for one-half of
an election day, [such individuals shall each] each individual
shall be compensated at one-half of the rate authorized for a
single individual who performs the duties for the entire election
day.
(c) The county board of elections may[, in its discretion,]
establish different per diem rates within [the minima and maxima
provided for in] minimum and maximum rates provided for under
subsection (a) based on the number of votes cast for the following
groups:
(1) 150 votes or fewer.
(2) 151 to 300 votes.
(3) 301 to 500 votes.
(4) 501 to 750 votes.
(5) 751 votes and over.
(d) For transmitting returns of elections and the ballot box

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

4 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

or boxes, all judges of election shall be entitled to receive the
additional sum of [twenty dollars ($20)] $20.
(e) The county board of elections may[, in its discretion,]
require the minority inspector of election to accompany the judge
of election in transmitting the returns of elections, in which
case the minority inspector of election shall be entitled to
receive the additional sum of [twenty dollars ($20)] $20.
(f) The [person] individual furnishing transportation to the
judge of election and the minority inspector in transmitting
returns and ballot boxes shall be entitled to a minimum of
[thirty-five cents (35¢)] 35¢ per circular mile from the polling
place to the county court house. The name of [such person] the
individual shall appear on the voucher of the judge of election[,
and only one person shall] and only one individual may receive
mileage compensation.
(h) When a primary and special election or a special election
and a general or municipal election take place on the same date,
[they] the elections shall be construed as one election for the
purpose of receiving compensation.
(i) Compensation and other payments received by election
officials [pursuant to] under this section shall not be deemed
income classified and categorized under section 303 of the act of
March 4, 1971 (P.L.6, No.2), known as the "Tax Reform Code of
1971."
Section 536. Restrictions on Alteration.--(a) Except as
provided in subsection (b), there shall be no power to establish,
abolish, divide, consolidate or alter in any manner an election
district during the period [July 15, 2009] from December 31, 2019,
through November 30, [2012] 2022, or through resolution of all
judicial appeals to the [2012] 2022 Congressional Redistricting
Plan, whichever occurs later.
(b) During the period from [July 15, 2009] December 31, 2019,
through December 31, [2010] 2020, an election district may be
divided or election districts may be combined if the following are
met:
(1) In the case of the division of an election district, the
boundary of each resulting district is composed entirely of
clearly visible physical features conforming with the census block
lines or portions of the original boundary of the election
district which was divided.
(2) In the case of the combination of election districts, the
boundary of each resulting district is composed entirely of
portions of the original boundaries of the election districts
which were combined.
* * *
Section 630.1. Affidavits of Candidates.--Each candidate for
any State, county, city, borough, incorporated town, township,
school district or poor district office, or for the office of
United States Senator or Representative in Congress, selected as
provided in section 630 of this act, shall file with the
nomination certificate an affidavit stating--(a) his residence,
with street and number, if any, and his post-office address; (b)
his election district, giving city, borough, town or township; (c)
the name of the office for which he consents to be a candidate;
(d) that he is eligible for such office; (e) that he will not
knowingly violate any provision of this act, or of any law
regulating and limiting election expenses and prohibiting corrupt
practices in connection therewith; (f) unless he is a candidate
for judge of a court of common pleas, the Philadelphia Municipal
Court [or the Traffic Court of Philadelphia,] or for the office of
school board in a district where that office is elective or for
the office of justice of the peace, that he is not a candidate for

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

5 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

the same office of any party or political body other than the one
designated in such certificate; (g) that he is aware of the
provisions of section 1626 of this act requiring election and
post-election reporting of campaign contributions and
expenditures; and (h) that he is not a candidate for an office
which he already holds, the term of which is not set to expire in
the same year as the office subject to the affidavit.
Section 908. Manner of Signing Nomination Petitions; Time of
Circulating.--Each signer of a nomination petition shall sign but
one such petition for each office to be filled, and shall declare
therein that he is a registered and enrolled member of the party
designated in such petition: Provided, however, That where there
are to be elected two or more persons to the same office, each
signer may sign petitions for as many candidates for such office
as, and no more than, he could vote for at the succeeding
election. He shall also declare therein that he is a qualified
elector of the county therein named, and in case the nomination is
not to be made or candidates are not to be elected by the electors
of the State at large, of the political district therein named, in
which the nomination is to be made or the election is to be held.
He shall add his [residence] address where he is duly registered
and enrolled, giving city, borough or township, with street and
number, if any, and shall legibly print his name and add the date
of signing, expressed in words or numbers: Provided, however, That
if the said political district named in the petition lies wholly
within any city, borough or township, or is coextensive with same,
it shall not be necessary for any signer of a nomination petition
to state therein the city, borough or township of his residence.
No nomination petition shall be circulated prior to the thirteenth
Tuesday before the primary, and no signature shall be counted
unless it bears a date affixed not earlier than the thirteenth
Tuesday nor later than the tenth Tuesday prior to the primary.
Section 909. Petition May Consist of Several Sheets;
[Affidavit] Statement of Circulator.--Said nomination petition may
be on one or more sheets, and different sheets must be used for
signers resident in different counties. If more than one sheet is
used, they shall be bound together when offered for filing if they
are intended to constitute one petition, and each sheet shall be
numbered consecutively beginning with number one, at the foot of
each page. In cases of petitions for delegate or alternate
delegate to National conventions, each sheet shall contain a
notation indicating the presidential candidate to whom he is
committed or the term "uncommitted." Each sheet shall have
appended thereto the [affidavit] statement of the circulator of
each sheet, setting forth, subject to the penalties of 18 Pa.C.S.
§ 4904 (relating to unsworn falsification to authorities)--(a)
that he or she is a qualified elector of the Commonwealth, who is
duly registered and enrolled as a member of the [designated party
of the State, or of the political district, as the case may be,
referred to] party designated in said petition, unless said
petition relates to the nomination of a candidate for a court of
common pleas, for the Philadelphia Municipal Court [or for the
Traffic Court of Philadelphia] or for justice of the peace, in
which event the circulator need not be a duly registered and
enrolled member of the designated party; (b) his residence, giving
city, borough or township, with street and number, if any; (c)
that the signers thereto signed with full knowledge of the
contents of the petition; (d) that their respective residences are
correctly stated therein; (e) that they all reside in the county
named in the [affidavit] statement; (f) that each signed on the
date set opposite his name; and (g) that, to the best of
[affiant's] the circulator's knowledge and belief, the signers are

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

6 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

qualified electors and duly registered and enrolled members of the
designated party of the State, or of the political district, as
the case may be.
Section 910. Affidavits of Candidates.--Each candidate for any
State, county, city, borough, incorporated town, township, ward,
school district, poor district, election district, party office,
party delegate or alternate, or for the office of United States
Senator or Representative in Congress, shall file with his
nomination petition his affidavit stating--(a) his residence, with
street and number, if any, and his post-office address; (b) his
election district, giving city, borough, town or township; (c) the
name of the office for which he consents to be a candidate; (d)
that he is eligible for such office; (e) that he will not
knowingly violate any provision of this act, or of any law
regulating and limiting nomination and election expenses and
prohibiting corrupt practices in connection therewith; (f) unless
he is a candidate for judge of a court of common pleas, the
Philadelphia Municipal Court [or the Traffic Court of
Philadelphia,] or for the office of school director in a district
where that office is elective or for the office of justice of the
peace that he is not a candidate for nomination for the same
office of any party other than the one designated in such
petition; (g) if he is a candidate for a delegate, or alternate
delegate, member of State committee, National committee or party
officer, that he is a registered and enrolled member of the
designated party; (h) if he is a candidate for delegate or
alternate delegate the presidential candidate to whom he is
committed or the term "uncommitted"; (i) that he is aware of the
provisions of section 1626 of this act requiring pre-election and
post-election reporting of campaign contributions and
expenditures; and (j) that he is not a candidate for an office
which he already holds, the term of which is not set to expire in
the same year as the office subject to the affidavit. In cases of
petitions for delegate and alternate delegate to National
conventions, the candidate's affidavit shall state that his
signature to the delegate's statement, as hereinafter set forth,
if such statement is signed by said candidate, was affixed to the
sheet or sheets of said petition prior to the circulation of same.
In the case of a candidate for nomination as President of the
United States, it shall not be necessary for such candidate to
file the affidavit required in this section to be filed by
candidates, but the post-office address of such candidate shall be
stated in such nomination petition.
Section 951. Nominations by Political Bodies.--* * *
(d) Nomination papers may be on one or more sheets and
different sheets must be used for signers resident in different
counties. If more than one sheet is used, they shall be bound
together when offered for filing if they are intended to
constitute one nomination paper, and each sheet shall be numbered
consecutively, beginning with number one (1) at the foot of each
page. Each sheet shall have appended thereto the [affidavit]
statement of some person, not necessarily a signer, and not
necessarily the same person on each sheet, setting forth, subject
to the penalties of 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities)--[(1) that the affiant is a
qualified elector of the State, or of the electoral district, as
the case may be, referred to in the nomination paper;] (2) [his]
the person's residence, giving city, borough or township with
street and number, if any; (3) that the signers signed with full
knowledge of the contents of the nomination paper; (4) that their
respective residences are correctly stated therein; (5) that they
all reside in the county named in the [affidavit] statement; (6)

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

7 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

that each signed on the date set opposite his name; and (7) that,
to the best of [affiant's] the person's knowledge and belief, the
signers are qualified electors of the State, or of the electoral
district, as the case may be.
* * *
Section 976. Examination of Nomination Petitions, Certificates
and Papers; Return of Rejected Nomination Petitions, Certificates
and Papers.--When any nomination petition, nomination certificate
or nomination paper is presented in the office of the Secretary of
the Commonwealth or of any county board of elections for filing
within the period limited by this act, it shall be the duty of the
said officer or board to examine the same. No nomination petition,
nomination paper or nomination certificate shall be permitted to
be filed if--(a) it contains material errors or defects apparent
on the face thereof, or on the face of the appended or
accompanying affidavits; or (b) it contains material alterations
made after signing without the consent of the signers; or (c) it
does not contain a sufficient number of signatures as required by
law; Provided, however, That the Secretary of the Commonwealth or
the county board of elections, although not hereby required so to
do, may question the genuineness of any signature or signatures
appearing thereon, and if he or it shall thereupon find that any
such signature or signatures are not genuine, such signature or
signatures shall be disregarded in determining whether the
nomination petition, nomination paper or nomination certificate
contains a sufficient number of signatures as required by law; or
(d) in the case of nomination petitions, if nomination petitions
have been filed for printing the name of the same person for the
same office, except the office of judge of a court of common
pleas, the Philadelphia Municipal Court [or the Traffic Court of
Philadelphia,] or the office of school director in districts where
that office is elective or the office of justice of the peace upon
the official ballot of more than one political party; or (e) in
the case of nomination papers, if the candidate named therein has
filed a nomination petition for any public office for the ensuing
primary, or has been nominated for any such office by nomination
papers previously filed; or (f) if the nomination petitions or
papers are not accompanied by the filing fee or certified check
required for said office; or (g) in the case of nomination papers,
the appellation set forth therein is identical with or deceptively
similar to the words used by any existing party or by any
political body which has already filed nomination papers for the
same office, or if the appellation set forth therein contains part
of the name, or an abbreviation of the name or part of the name of
an existing political party, or of a political body which has
already filed nomination papers for the same office. The
invalidity of any sheet of a nomination petition or nomination
paper shall not affect the validity of such petition or paper if a
sufficient petition or paper remains after eliminating such
invalid sheet. The action of said officer or board in refusing to
receive and file any such nomination petition, certificate or
paper, may be reviewed by the court upon an application to compel
its reception as of the date when it was presented to the office
of such officer or board: Provided, however, That said officer or
board shall be entitled to a reasonable time in which to examine
any petitions, certificates or papers, and to summon and
interrogate the candidates named therein, or the persons
presenting said petitions, certificates or papers, and his or
their retention of same for the purpose of making such examination
or interrogation shall not be construed as an acceptance or
filing.
Upon completion of any examination, if any nomination petition,

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

8 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

certificate or paper is found to be defective, it shall forthwith
be rejected and returned to the candidate or one of the candidates
named therein, together with a statement of the reasons for such
rejection:
Provided further, That no nomination petition, nomination paper
or nomination certificate shall be permitted to be filed, if the
political party or political body referred to therein shall be
composed of a group of electors whose purposes or aims, or one of
whose purposes or aims, is the establishment, control, conduct,
seizure or overthrow of the Government of the Commonwealth of
Pennsylvania or the United States of America by the use of force,
violence, military measure or threats of one or more of the
foregoing. The authority to reject such nomination petition, paper
or certificate for this reason shall, when filed with the
Secretary of the Commonwealth, be vested in a committee composed
of the Governor, the Attorney General and the Secretary of the
Commonwealth, and when filed with any county board of elections
shall be vested in such board. If in such case the committee or
board, as the case may be, shall conclude that the acceptance of
such nomination petition, paper or certificate should be refused,
it shall within two days of the filing of such nomination
petition, paper or certificate fix a place and a time five days in
advance for hearing the matter, and notice thereof shall be given
to all parties affected thereby. At the time and place so fixed
the committee or board, as the case may be, shall hear testimony,
but shall not be bound by technical rules of evidence. The
testimony presented shall be stenographically recorded and made a
part of the record of the committee or board. Within two days
after such hearing the committee or board, if satisfied upon
competent evidence that the said nomination petition, paper or
certificate is not entitled to be accepted and filed, it shall
announce its decision and immediately notify the parties affected
thereby. Failure to announce decision within two days after such
hearing shall be conclusive that such nomination petition, paper
or certificate has been accepted and filed. The decision of said
committee or board in refusing to accept and file such nomination
petition, paper or certificate may be reviewed by the court upon
an application to compel its reception as of the date when
presented to the Secretary of the Commonwealth or such board. The
application shall be made within two days of the time when such
decision is announced. If the application is properly made, any
judge of said court may fix a time and place for hearing the
matter in dispute, of which notice shall be served with a copy of
said application upon the Secretary of the Commonwealth or the
county board of elections, as the case may be. At the time so
fixed, the court, or any judge thereof assigned for the purpose,
shall hear the case de novo. If after such hearing the said court
shall find that the decision of the committee or the board was
erroneous, it shall issue its mandate to the committee or board to
correct its decision and to accept and file the nomination paper,
petition or certificate. From any decision of the court an appeal
may be taken within two days after the entry thereof. It shall be
the duty of the said court to fix the hearing and to announce its
decision within such period of time as will permit the Secretary
of the Commonwealth or the county board of elections to permit the
names of the candidates affected by the court's decision to be
printed on the ballot, if the court should so determine.
Section 981.1. Affidavits of Candidates.--Each candidate for
any State, county, city, borough, incorporated town, township,
ward, school district, poor district or election district office,
or for the office of United States Senator or Representative in
Congress, selected as provided in sections 979 and 980 of this

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

9 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

act, shall file with the substituted nomination certificate an
affidavit stating--(a) his residence, with street and number, if
any, and his post-office address; (b) his election district,
giving city, borough, town or township; (c) the name of the office
for which he consents to be a candidate; (d) that he is eligible
for such office; (e) that he will not knowingly violate any
provision of this act, or of any law regulating and limiting
election expenses and prohibiting corrupt practices in connection
therewith; (f) unless he is a candidate for judge of a court of
common pleas, the Philadelphia Municipal Court [or the Traffic
Court of Philadelphia,] or for the office of school board in a
district where that office is elective or for the office of
justice of the peace, that he is not a candidate for the same
office of any party or political body other than the one
designated in such certificate; (g) that he is aware of the
provisions of section 1626 of this act requiring election and
post-election reporting of campaign contributions and
expenditures; and (h) that he is not a candidate for an office
which he already holds, the term of which is not set to expire in
the same year as the office subject to the affidavit.
Section 993. Filling of Certain Vacancies in Public Office by
Means of Nomination Certificates and Nomination Papers.--(a) In
all cases where a vacancy shall occur for any cause in an elective
public office, including that of judge of a court of record, at a
time when such vacancy is required by the provisions of the
Constitution or the laws of this Commonwealth to be filled at the
ensuing election but at a time when nominations for such office
cannot be made under any other provision of this act, nominations
to fill such vacancies shall be made by political parties in
accordance with party rules relating to the filling of vacancies
by means of nomination certificates in the form prescribed in
section nine hundred ninety-four of this act, and by political
bodies by means of nomination papers in accordance with the
provisions of sections nine hundred fifty-one, nine hundred fiftytwo and nine hundred fifty-four of this act. No such nomination
certificate shall nominate any person who has already been
nominated by any other political party or by any political body
for the same office unless such person is a candidate for the
office of judge of a court of common pleas, the Philadelphia
Municipal Court [or the Traffic Court of Philadelphia,] or for the
office of school director in districts where that office is
elective or for the office of justice of the peace. No such
nomination papers shall nominate any person who has already been
nominated by any political party or by any other political body
for any office to be filled at the ensuing November election,
unless such person is a candidate for the office of judge of a
court of common pleas, the Philadelphia Municipal Court [or the
Traffic Court of Philadelphia,] or for the office of school
director in districts where that office is elective or for the
office of justice of the peace.
* * *
Section 998. Substituted Nominations to Fill Certain Vacancies
for a November Election.--(a) Any vacancy happening or existing
in any party nomination made in accordance with the provisions of
section nine hundred ninety-three of this act for a November
election by reason of the death or withdrawal of any candidate may
be filled by a substituted nomination made by such committee as is
authorized by the rules of the party to make nominations in the
event of vacancies on the party ticket, in the form prescribed by
section nine hundred ninety-four of this act. But no substituted
nomination certificate shall nominate any person who has already
been nominated by any other political party or by any political

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

10 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

body for the same office, unless such person is a candidate for
the office of judge of a court of common pleas, the Philadelphia
Municipal Court [or the Traffic Court of Philadelphia,] or for the
office of school director in districts where that office is
elective or for the office of justice of the peace.
(b) In case of the death or withdrawal of any candidate
nominated by a political body for an election, the committee named
in the original nomination papers may nominate a substitute in his
place by filing a substituted nomination certificate in the form
and manner prescribed by section nine hundred eighty of this act.
In the case of a vacancy caused by the death of any candidate,
said nomination certificate shall be accompanied by a death
certificate properly certified. No substituted nomination
certificate shall nominate any person who has already been
nominated by any political party or by any other political body
for any office to be filled at the ensuing November election,
unless such person is a candidate for the office of judge of a
court of common pleas, the Philadelphia Municipal Court [or the
Traffic Court of Philadelphia,] or for the office of school
director in districts where that office is elective or for the
office of justice of the peace.
* * *
Section 1002. Form of Official Primary Ballot.--(a) At
primaries separate official ballots shall be prepared for each
party which shall be in substantially the following form:
Official............................... Primary Ballot.
(Name of Party)
........District,........Ward, City of........................,
County of..............................., State of Pennsylvania
........Primary election held on the.....day of........., 19...
Make a cross (X) or check (ˆš) in the square to the right of
each candidate for whom you wish to vote. If you desire to vote
for a person whose name is not on the ballot, write[, print or
paste] or stamp his name in the blank space provided for that
purpose. Mark ballot only in black lead pencil, indelible pencil
or blue, black or blue-black ink in fountain pen or ball point
pen. Use the same pencil or pen for all markings you place on the
ballot.
President of the United States.
(Vote for one)
John Doe
Richard Roe
John Stiles
United States Senator.
(Vote for one)
John Doe
Richard Roe
John Stiles
Governor.
(Vote for one)
John Doe
Richard Roe
John Stiles
Representative in Congress.....District.
(Vote for one)
John Doe
Richard Roe
John Stiles
Delegates at Large to National Convention.
(Vote for.....)
John Doe
(Committed to Jeremiah Smith)

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

11 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

John Stiles
(Uncommitted)
Delegate to National Convention.....District.
(Vote for.....)
John Doe
(Committed to Jeremiah Smith)
John Stiles
(Uncommitted)
Senator in the General Assembly.....District.
(Vote for one)
John Doe
Richard Roe
John Stiles
Member of State Committee.
(Vote for one)
John Doe
Richard Roe
John Stiles
Party Committeemen.
(Vote for.....)
John Doe
Richard Roe
John Stiles
(b) On the back of each ballot shall be printed in prominent
type the words "OFFICIAL PRIMARY BALLOT OF ........PARTY FOR"
followed by the designation of the election district for which it
is prepared, the date of the primary and the facsimile signatures
of the members of the county board of elections. The names of
candidates shall in all cases be arranged under the title of the
office for which they are candidates, and be printed thereunder in
the order determined by the casting of lots as provided by this
act. Under the title of such offices where more than one candidate
is to be voted for, shall be printed "Vote for not more than
........" (the blank space to indicate the number of candidates to
be voted for the particular office.) At the right of the name of
each candidate there shall be a square of sufficient size for the
convenient insertion of a cross (x) or check (ˆš) mark. There
shall be left at the end of the list of candidates for each office
(or under the title of the office itself in case there be no
candidates who have filed nomination petitions therefor) as many
blank spaces as there are persons to be voted for, for such
office, in which space the elector may insert, by writing or
stamping, the name of any person whose name is not printed on the
ballot as a candidate for such office. Opposite or under the name
of each candidate, except candidates for the office of President
of the United States and candidates for delegate or alternate
delegate to a National Party Convention, who is to be voted for by
the electors of more than one county, shall be printed the name of
the county in which such candidate resides; and opposite or under
the name of each candidate except candidates for delegate or
alternate delegate to a National Party Convention who is to be
voted for by the electors of an entire county or any
congressional, senatorial or representative district within the
county, shall be printed the name of the city, borough, township
or ward, as the case may be, in which such candidate resides.
* * *
Section 1003. Form of Official Election Ballot.-(a) The official ballots for general, municipal and special
elections shall be in substantially the following form:
OFFICIAL BALLOT
....................... District, ........................ Ward,
City of ........................, County of ...................,

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

12 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

State of Pennsylvania ..........................................
Election held on the .......... day of ................, [19]
20.....
A cross (X) or check (ˆš) mark in the square opposite the name of
any candidate indicates a vote for that candidate.
[To vote a straight party ticket, mark a cross (X) or check
(ˆš) in the square, in the Party Column, opposite the name of
the party of your choice. To vote for an individual candidate of
another party after making a mark in the party square, mark a
cross (X) or check (ˆš) opposite his name. For an office where
more than one candidate is to be voted for, the voter, after
marking in the party square, may divide his vote by marking a
cross (X) or check (ˆš) to the right of each candidate for whom he
or she desires to vote. For such office votes shall not be counted
for candidates not individually marked.]
To vote for a person whose name is not on the ballot, write[,
print or paste] or stamp his name in the blank space provided for
that purpose. A cross (X) or check (ˆš) mark in the square
opposite the names of the candidates of any party for President
and Vice-President of the United States indicates a vote for all
the candidates of that party for presidential elector. To vote for
individual candidates for presidential elector, write[, print or
paste] or stamp their names in the blank spaces provided for that
purpose under the title "Presidential Electors." Mark ballot only
in black lead pencil, indelible pencil or blue, black or blueblack ink, in fountain pen or ball point pen; use the same pencil
or pen for all markings you place on the ballot.
Before leaving the voting compartment, fold this ballot,
without displaying the markings thereon, in the same way it was
folded when received, then leave the compartment and exhibit the
ballot to one of the election officers who shall ascertain by an
inspection of the number appearing upon the right hand corner of
the back of the ballot whether the ballot so exhibited to him is
the same ballot which the elector received before entering the
voting compartment. If it is the same, the election officer shall
direct the elector, without unfolding the ballot, to remove the
perforated corner containing the number, and the elector shall
immediately deposit the ballot in the ballot box. Any ballot
deposited in a ballot box at any primary or election without
having the said number torn off shall be void and shall not be
counted.
[Party Column
Presidential Electors
To Vote a Straight Party Ticket
(Vote for the candidates of
Mark a Cross (X) or Check (ˆš)
one party for President and
in this Column.
Vice-President, or insert the
names of candidates.)
For
John Stiles
and
Democratic
Richard Doe,
Democratic ...................

Republican

Socialist

For
John Doe
and
Richard Roe,
Republican ...................
For
John Smith
and
William Jones,

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

13 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

Socialist ....................
Citizens]
Presidential Electors.
(Vote for the candidates of one party for President and Vice
President, or insert the names of candidates)
For
John Stiles and Richard Doe......................... Democratic
For
John Doe and Richard Roe............................ Republican
For
John Smith and William Jones......................... Socialist
For
........................ Citizens
United States Senator.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Governor.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Representatives in Congress,
....... District.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Senator in the General Assembly,
....... District.
(Vote for one)
John Doe ............................................ Democratic
Richard Roe ......................................... Republican
* * *
(e) There shall be left at the end of the group of candidates
for President and Vice-President of the United States under the
title "Presidential Electors," as many blank spaces as there are
presidential electors to be elected, in which spaces the elector
may insert, by writing or stamping, the names of any individual
candidates for presidential electors for whom he desires to vote.
There shall also be left at the end of each group of candidates
for each other office (or under the title of the office itself in
case no candidates have been nominated therefor), as many blank
spaces as there are persons to be voted for for such office, in
which space the elector may insert the name of any person or
persons whose name is not printed on the ballot as a candidate for
such office.
* * *
Section 1004. Form of Ballots; Printing Ballots; Stubs;
Numbers.--From the lists furnished by the Secretary of the
Commonwealth under the provisions of sections 915 and 984, and
from petitions and papers filed in their office, the county
election board shall print the official primary and election
ballots in accordance with the provisions of this act: Provided,
however, That in no event, shall the name of any person consenting
to be a candidate for nomination for any one office, except the
office of judge of a court of common pleas, the Philadelphia
Municipal Court [or the Traffic Court of Philadelphia,] or the
office of school director in districts where that office is

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

14 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

elective or the office of justice of the peace be printed as a
candidate for such office upon the official primary ballot of more
than one party. All ballots for use in the same election district
at any primary or election shall be alike. They shall be at least
six inches long and four inches wide, and shall have a margin
extending beyond any printing thereon. They shall be printed with
the same kind of type (which shall not be smaller than the size
known as "brevier" or "eight point body") upon white paper of
uniform quality, without any impression or mark to distinguish one
from another, and with sufficient thickness to prevent the printed
matter from showing through. Each ballot shall be attached to a
stub, and all the ballots for the same election district shall be
bound together in books of fifty, in such manner that each ballot
may be detached from its stub and removed separately. The ballots
for each party to be used at a primary shall be bound separately.
The stubs of the ballots shall be consecutively numbered, and in
the case of primary ballots, the number shall be preceded by an
initial or abbreviation designating the party name. The number and
initial or abbreviation which appears upon the stub shall also be
printed in the upper right hand corner of the back of the ballot,
separated from the remainder of the ballot by a diagonal
perforated line so prepared that the upper right hand corner of
the back of the ballot containing the number may be detached from
the ballot before it is deposited in the ballot box and beside
that corner shall also be printed, "Remove numbered stub
immediately before depositing your ballot in ballot box."
Section 1007. Number of Ballots to Be Printed; Specimen
Ballots.--(a) The county board of each county shall provide for
each election district [in which a primary is to be held, one book
of fifty official ballots of each party for every forty-five
registered and enrolled electors of such party and fraction
thereof, appearing upon the district register, and shall provide
for each election district in which an election is to be held one
book of fifty official ballots for every forty-five registered
electors and fraction thereof appearing upon the district
register. They] a supply of official election ballots for:
(1) the general primary election held in even-numbered years
in which candidates for the office of President of the United
States are not nominated in an amount of at least 10% greater than
the highest number of ballots cast in the election district in any
of the previous three general primary elections at which
candidates for the office of President of the United States were
not nominated;
(2) the general primary election held in even-numbered years
in which candidates for the office of President of the United
States are nominated in an amount of at least 15% greater than the
highest number of ballots cast in the election district in any of
the previous three general primary elections at which candidates
for the office of President of the United States were nominated;
(3) the municipal primary election held in odd-numbered years
in an amount of at least 10% greater than the highest number of
ballots cast in any of the previous three municipal primary
elections in the election district;
(4) the general election held in even-numbered years in which
candidates for the office of President of the United States are
not elected in an amount of at least 10% greater than the highest
number of ballots cast in the election district in any of the
previous three general elections at which candidates for the
office of President of the United States were not elected;
(5) the general election held in even-numbered years in which
candidates for the office of President of the United States are
elected in an amount of at least 15% greater than the highest

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

15 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

number of ballots cast in the election districts in any of the
previous three general elections at which candidates for the
office of President of the United States were elected; and
(6) the municipal election held in odd-numbered years in an
amount of at least 10% greater than the highest number of ballots
cast in any of the previous three municipal elections in the
election district.
(b) The county board of each county shall also, in addition to
the number of ballots required to be printed for general
distribution, maintain a sufficient supply of such ballots at the
office of the county board for the use of absentee electors or
mail-in electors and for the use of any district, the ballots for
which may be lost, destroyed or stolen. They shall also cause to
be printed on tinted paper, and without the facsimile
endorsements, permanent binding or stubs, copies of the form of
ballots provided for each polling place at each primary or
election therein, which shall be called specimen ballots, and
which shall be of the same size and form as the official ballots,
and at each election they shall deliver to the election officers,
in addition to the official ballots to be used at such election, a
suitable supply of specimen ballots for the use of the electors.
At each primary, a suitable supply of specimen ballots of each
party shall be furnished.
Section 1008. Forms of Ballots on File and Open to Public
Inspection; Ballots and Diagrams to Be Furnished to Candidates and
Parties.-(a) The county board of elections shall have on file in its
office[, on and] after the Thursday [preceding] before each
primary and election, open to public inspection, forms of the
ballots and ballot labels[, with the names and such statements and
notations as may be required by the provisions of this act,
printed thereon, which shall be used in each election district
within the county]. The forms of the ballots and ballot labels
shall be published on the county board's publicly accessible
Internet website.
(b) On the Thursday [preceding] before each primary, the
county board shall, upon request made at their office, [there]
deliver to each candidate whose name is printed on the ballot of
any party, or to his authorized representative, without charge,
three [specimen] sample ballots of such party for the entire
district [in which such candidate is to be voted for, and the
candidate may, at his own expense, have printed on different
colored paper as many copies as he requires for conducting his
campaign].
(c) On the Thursday [preceding] before each November election,
the county board shall, upon request made at their office, [there]
deliver to the county chairman or other authorized representative
of each political party and political body in the county, without
charge, two [specimen] sample ballots [or diagrams] for each
election district within the county in which candidates of such
party or political body are [to be voted for, and such political
party or political body may, at its own expense, have printed on
different colored paper as many copies as it requires for
conducting its campaign.] running for office.
Section 1107. Requirements of Voting Machines.--No voting
machine shall, upon any examination or reexamination, be approved
by the Secretary of the Commonwealth, or by any examiner appointed
by him, unless it shall, at the time, satisfy the following
requirements:
* * *
[(b) It shall permit each voter, at other than primary
elections, to vote a straight political party ticket in one

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

16 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

operation, and, in one operation, to vote for all the candidates
of one political party for presidential electors, and, in one
operation, to vote for all the candidates of one political party
for every office to be voted for, except those offices as to which
he votes for individual candidates.]
* * *
Section 1110. Form of Ballot Labels on Voting Machines.-* * *
(h) The names of all candidates of a political party shall
appear in the same row or column, and except in cases of names of
presidential commitments of nominees for delegate or alternate
delegate to political party National conventions no other names
shall appear in the same row or column[, to the left or top of
which shall be a straight party lever, by means of which an
elector may, in one operation, vote for all the candidates of that
political party for every office to be voted for]. Where the names
of the delegate or alternate delegate and the presidential
candidate he is supporting shall both appear, the print size of
the name of the delegate or alternate delegate shall be equal to
the size of the name of the particular presidential candidate to
whom he is committed, or in the case where he is uncommitted, the
word "uncommitted" shall appear in the same size print. The names
of such candidates shall be arranged under or opposite the title
of the office for which they are candidates, and shall appear in
the order of the votes obtained by the candidate for Governor of
the party nominated at the last gubernatorial election, beginning
with the party obtaining the highest number of votes: Provided,
however, That in the case of parties or bodies not represented on
the ballot at the last gubernatorial election, the names of the
candidates of such parties shall be arranged alphabetically,
according to the party or body name. The names of all candidates
of a political body shall appear in the same row or column, and,
if the number of parties and bodies permits, each political body
shall be entitled exclusively to a separate row or column[, with a
straight party lever]. If, however, the number of political
parties and political bodies renders it impossible or
impracticable to so arrange the political bodies, in such case
said bodies shall not be entitled to a separate row or column [and
a straight party lever], but shall be listed by political
appellations on the first left hand or top row, with the
designating letter and number of the ballot label where their
candidates may be found, together with the political appellations
of other political bodies, whose candidates may be interspersed on
the same row or column. Subject to the aforesaid limitations, the
form and arrangement of ballot labels, as to the placing thereon
of political bodies, shall be within the discretion of the county
board.
* * *
Section 1107-A. Requirements of Electronic Voting Systems.--No
electronic voting system shall, upon any examination or
reexamination, be approved by the Secretary of the Commonwealth,
or by any examiner appointed by him, unless it shall be
established that such system, at the time of such examination or
reexamination:
* * *
[(3) Permits each voter, at other than primary elections, to
vote a straight political party ticket by one mark or act and, by
one mark or act, to vote for all the candidates of one political
party for presidential electors and, by one mark or act, to vote
for all the candidates of one political party for every office to
be voted for, and every such mark or act shall be equivalent to
and shall be counted as a vote for every candidate of the

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

17 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

political party so marked including its candidates for
presidential electors, except with respect to those offices as to
which the voter has registered a vote for individual candidates of
the same or another political party or political body, in which
case the automatic tabulating equipment shall credit the vote for
that office only for the candidate individually so selected,
notwithstanding the fact that the voter may not have individually
voted for the full number of candidates for that office for which
he was entitled to vote.]
* * *
Section 1109-A. Forms.--(a) * * *
(2) The pages placed on the voting device shall be of
sufficient number to include, following the listing of particular
candidates, the names of candidates for any nonpartisan offices
and any measures for which a voter may be qualified to vote on a
given election day, provided further that for municipal, general
or special elections, the first ballot page shall list in the
order that such political parties are entitled to priority on the
ballot, the names of such political parties [with designating
arrows so as to indicate the voting square or position on the
ballot card where the voter may insert by one mark or punch the
straight party ticket of his choice].
* * *
[(d) In partisan elections the ballot cards shall include a
voting square or position whereby the voter may by one punch or
mark record a straight party ticket vote for all the candidates of
one party or may vote a split ticket for the candidates of his
choice.]
* * *
Section 1112-A. Election Day Procedures and the Process of
Voting.--(a) In an election district which uses an electronic
voting system in which votes are registered electronically, the
following procedures will be applicable for the conduct of the
election at the election district:
* * *
(2) At [primary] all elections, the voter shall be able to
vote for each candidate individually by the means provided. [At
all other elections, he may vote for each candidate individually,
or he may vote a straight political party ticket in one operation
by operating the straight political party mechanism of the
political party or political body of his choice. He may also,
after having operated the straight party mechanism and before
recording his vote, cancel the vote for any candidate of such
political party or political body and may thereupon vote for a
candidate of another party, or political body for the same
office.] The voter may also vote individually for or against a
question submitted to the vote of the electors.
* * *
(4) At any general election at which presidential electors are
to be chosen, each elector shall be permitted to vote by one
operation for all the presidential electors of a political party
or political body. For each party or body nominating presidential
electors, a ballot label shall be provided containing only the
words "Presidential Electors," preceded by the names of the party
or body and followed by the names of the candidates thereof for
the Office of President and Vice-President, and the corresponding
counter or registering device shall register votes cast for said
electors when thus voted for collectively. If any elector desires
to vote a ticket for presidential electors made up of the names of
persons nominated by different parties or bodies, or partially of
names of persons so in nomination and partially of names of
persons not in nomination by any party or body, he may write or

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

18 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

deposit a paper ballot prepared by himself in the receptacle
provided in or on the voting device for that purpose, or he may
list their names on the write-in ballot or envelope provided for
that purpose. The voting device shall be so constructed that it
will not be possible for any one voter to vote a straight party
ticket for presidential electors and at the same time to deposit a
ballot for presidential electors in a receptacle as [hereinabove]
provided in this section. When the votes for presidential electors
are counted, the votes appearing upon the counter or registering
device corresponding to the ballot label containing the names of
the candidates for President and Vice-President of any party or
body shall be counted as votes for each of the candidates for
presidential elector of such party or body, and thereupon all
candidates for presidential elector shall be credited, in
addition, with the votes cast for them upon the ballots deposited
in the machine, as [hereinabove] provided in this section.
* * *
(b) In an election district which uses an electronic voting
system which utilizes paper ballots or ballot cards to register
the votes, the following procedures will be applicable for the
conduct of the election at the election district:
* * *
(4) [If the voter desires to vote for every candidate of a
political party or political body, except its candidates for
offices as to which he votes for individual candidates in the
manner hereinafter provided, he may make a cross (X) or check (ˆš)
or punch or mark sense mark in the square opposite the name of the
party or political body so marked, including its candidates for
presidential electors, except for those offices as to which he has
indicated a choice for individual candidates of the same or
another party or political body, by making a cross (X) or check
(ˆš) or punch or mark sense mark opposite their names in the
manner hereinabove provided, as to which offices his ballot shall
be counted only for the candidates which he has thus individually
marked, notwithstanding the fact that he made a mark in the party
column, and even though in the case of an office for which more
than one candidate is to be voted for, he has not individually
marked for such office the full number of candidates for which he
is entitled to vote.] If he desires to vote for the entire group
of presidential electors nominated by any party or political body,
he may make a cross (X) or check (ˆš) or punch or mark sense mark
in the appropriate space opposite the names of the candidates for
President and Vice-President of such party or body. If he desires
to vote a ticket for presidential electors made up of the names of
persons nominated by different parties or political bodies, or
partially of names of persons so in nomination and partially of
names of persons not in nomination by any party or political body,
or wholly of names of persons not in nomination by any party or
political body, he shall insert, by writing or stamping, the names
of the candidates for presidential electors for whom he desires to
vote in the blank spaces provided therefor on the write-in ballot
under the title of the office "Presidential Electors". In case of
a question submitted to the vote of the electors, he may make a
cross (X) or check (ˆš) or punch or mark sense mark in the
appropriate square opposite the answer which he desires to give.
* * *
Section 1113-A. Post Election Procedures.--* * *
(d) In returning any votes cast for any person whose name is
not printed on the official ballot, the election officers shall
record any such names exactly as they were written[, stamped or
applied to the ballot by sticker] or stamped.
* * *

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

19 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

Section 3.1.

The act is amended by adding an article to read:
ARTICLE XI-B
VOTING APPARATUS BONDS
Section 1101-B. Definitions.
The following words and phrases when used in this article shall
have the meanings given to them in this section unless the context
clearly indicates otherwise:
"Account." The County Voting Apparatus Reimbursement Account
established under section 1106-B.
"Authority." The Pennsylvania Economic Development Financing
Authority.
"Bond." Any type of revenue obligation, including a bond or
series of bonds, note, certificate or other instrument, issued by
the authority for the benefit of the department under this
article.
"Bond administrative expenses." Expenses incurred to
administer bonds as provided under the Financing Law, or as
otherwise necessary to ensure compliance with applicable Federal
or State law.
"Bond obligations." The principal of a bond and any premium
and interest payable on a bond, together with any amount owed
under a related credit agreement or a related resolution of the
authority authorizing a bond.
"Credit agreement." A loan agreement, a revolving credit
agreement, an agreement establishing a line of credit, a letter of
credit or another agreement that enhances the marketability,
security or creditworthiness of a bond.
"Department." The Department of State of the Commonwealth.
"Election security equipment." Information technology such as
intrusion detection sensors and other infrastructure deployed to
enhance the security of voting apparatus and election systems by
detecting and reporting hacking attempts and other election
security breaches.
"Electronic voting system." As defined in section 1101-A.
"Financing Law." The act of August 23, 1967 (P.L.251, No.102),
known as the Economic Development Financing Law.
"Voting apparatus." A kind or type of electronic voting system
that received the approval of the Secretary of the Commonwealth
under section 1105-A.
Section 1102-B. Bond issuance.
(a) Declaration of policy.--The General Assembly finds and
declares that funding the replacement of voting apparatuses,
including interest, through the authority, is in the best
interest of this Commonwealth.
(b) Authority.--Notwithstanding any other law, the following
shall apply:
(1) The department may be a project applicant under the
Financing Law and may apply to the authority for the funding of
the replacement of voting apparatuses.
(2) The authority may issue bonds under the Financing Law,
consistent with this article, to finance projects to fund the
replacement of county voting apparatuses or to reimburse
counties for their cost to purchase or enter into capital
leases for voting apparatuses.
(3) Participation of an industrial and commercial
development authority shall not be required to finance the
replacement of voting apparatuses.
(c) Debt or liability.-(1) Bonds issued under this article shall not be a debt or
liability of the Commonwealth and shall not create or
constitute any indebtedness, liability or obligation of the
Commonwealth.

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

20 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

(2) Bond obligations and bond administrative expenses
shall be payable solely from revenues or money pledged or
available for repayment as authorized under this article. This
paragraph shall include the proceeds of any issuance of bonds.
(3) Each bond shall contain on its face a statement that:
(i) the authority is obligated to pay the principal or
interest on the bonds only from the revenues or money
pledged or available for repayment as authorized under this
article;
(ii) neither the Commonwealth nor a county is
obligated to pay the principal or interest; and
(iii) the full faith and credit of the Commonwealth or
any county is not pledged to the payment of the principal
of or the interest on the bonds.
Section 1103-B. Criteria for bond issuance.
(a) Determination.--If the department decertifies one or more
voting apparatuses that are in use in any county of this
Commonwealth, the department shall apply to the authority to issue
bonds for reimbursements to each county for the cost of procuring
new voting apparatuses.
(a.1) Issuance.--Bonds may be issued in one or more series,
and each series may finance reimbursement grants to one or more
counties.
(b) Terms.-(1) The department, with the approval of the Office of the
Budget, shall specify in its application to the authority:
(i) the maximum principal amount of the bonds for each
bond issue; and
(ii) the maximum term of the bonds consistent with
applicable law.
(2) The total principal amount for all bonds issued under
this article may not exceed $90,000,000.
(3) The term of the bonds issued under this article may
not exceed 10 years from the respective date of original
issuance.
(c) Expiration.--For the purpose of this article,
authorization to issue bonds, not including refunding bonds, shall
expire December 31, 2020.
Section 1104-B. Issuance of bonds, security and sources of
payments.
(a) Issuance.--The authority shall consider issuance of bonds
upon application by the department. Bonds issued under this
article shall be subject to the provisions of the Financing Law,
unless otherwise specified under this article.
(b) Service agreement authorized.--The authority and the
department may enter into an agreement or service agreement to
effectuate this article, including an agreement to secure bonds
issued for the purposes under section 1102-B(b), pursuant to which
the department shall agree to pay the bond obligations and bond
administrative expenses to the authority in each fiscal year that
the bonds or refunding bonds are outstanding in amounts sufficient
to timely pay in full the bond obligations, bond administrative
expenses and any other financing costs due on the bonds issued for
the purposes under section 1102-B(b). The department's payment of
the bond obligations, bond administrative expenses and other
financing costs due on the bonds as service charges under an
agreement or service agreement shall be subject to and dependent
upon the appropriation of funds by the General Assembly to the
department for payment of the service charges. The service
agreement may be amended or supplemented by the authority and the
department in connection with the issuance of any series of bonds
or refunding bonds authorized under this section.

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

21 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

(c) Security.--Bond obligations and bond administrative
expenses may be secured, for the benefit of the holders of the
bonds and the obligees under credit agreements or the agreements
under subsection (b), by pledge of a security interest in and
first lien on the following:
(1) Money relating to the bonds held on deposit in any
other fund or account under an instrument or agreement
pertaining to the bonds, including bond reserves and interest
income on the money.
(2) The security provided under this subsection shall not
apply to money in any fund relating to arbitrage rebate
obligations.
Section 1105-B. Sale of bonds.
The authority shall offer the bonds for sale by means of a
public, competitive sale or by means of a negotiated sale based on
the authority's determination of which method will produce the
most benefit to counties and the Commonwealth.
Section 1106-B. Deposit of bond proceeds.
The net proceeds of bonds, other than refunding bonds,
exclusive of costs of issuance, reserves and any other financing
charges, shall be transferred by the authority to the State
Treasurer for deposit into a restricted account established in the
State Treasury and held solely for the purposes under section
1102-B(b) to be known as the County Voting Apparatus Reimbursement
Account. The department shall pay out the bond proceeds to the
counties from the account in accordance with this article.
Section 1107-B. Payment of bond-related obligations.
For each fiscal year in which bond obligations and bond
administrative expenses will be due, the authority shall notify
the department of the amount of bond obligations and the estimated
amount of bond administrative expenses in sufficient time, as
determined by the department, to permit the department to request
an appropriation sufficient to pay bond obligations and bond
administrative expenses that will be due and payable in the
following fiscal year. The authority's calculation of the amount
of bond obligations and bond administrative expenses that will be
due shall be subject to verification by the department.
Section 1108-B. Commonwealth not to impair bond-related
obligations.
The Commonwealth pledges that it shall not do any of the
following:
(1) Limit or alter the rights and responsibilities of the
authority or the department under this article, including the
responsibility to:
(i) pay bond obligations and bond administrative
expenses; and
(ii) comply with any other instrument or agreement
pertaining to bonds.
(2) Alter or limit the service agreement under section
1104-B(b).
(3) Impair the rights and remedies of the holders of
bonds, until each bond issued at any time and the interest on
the bond are fully met and discharged.
Section 1109-B. (Reserved).
Section 1110-B. Personal liability.
The members, directors, officers and employees of the
department and the authority shall not be personally liable as a
result of good faith exercise of the rights and responsibilities
granted under this article.
Section 1111-B. Annual report.
No later than March 1 of the year following the first full year
in which bonds have been issued under this article and for each

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

22 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

year thereafter in which bond obligations existed in the prior
year, the department shall submit an annual report to the chair
and minority chair of the Appropriations Committee of the Senate,
the chair and minority chair of the Appropriations Committee of
the House of Representatives, the chair and minority chair of the
State Government Committee of the Senate and the chair and
minority chair of the State Government Committee of the House of
Representatives providing all data available on bonds issued or
existing in the prior year. The report shall include existing and
anticipated bond principal, interest and administrative costs,
revenue, repayments, refinancing, overall benefits to counties and
any other relevant data, facts and statistics that the department
believes necessary in the content of the report.
Section 1112-B. Reimbursement of county voting apparatus
expenses.
(a) Application.--A county may apply to the department to
receive funding to replace the county's voting apparatuses or to
reimburse the county's cost to purchase or lease by capital lease
voting apparatuses. Each county shall submit an application for
funding on a form containing information and documentation
prescribed by the department no later than July 1, 2020.
(b) Documentation for prior purchase or lease.--If a county
seeks reimbursement of the county's cost to purchase or lease by
capital lease a voting apparatus that the county purchased or
leased before the date that the county submits its application to
the department, the county's application shall include
documentation prescribed by the department to substantiate the
county's cost to purchase or lease the voting apparatus, including
copies of fully executed voting apparatus contracts, invoices and
proof of payment to the vendor of the voting apparatus.
(c) Documentation for subsequent purchase or lease.--If a
county seeks funding to purchase or lease by capital lease a
voting apparatus that the county will purchase or lease after the
date that the county submits its application to the department,
the county's application shall include documentation prescribed by
the department to substantiate the county's estimate to purchase
or lease the voting apparatus, including copies of fully executed
voting apparatus contracts, bids or price quotes submitted to the
county by voting apparatus vendors and other price estimates or
cost proposals.
(d) Review.--The department shall review each county
application on a rolling basis and shall either approve or deny
each county's application within 90 days of the date the
application is received by the department. A county may supplement
or amend submitted applications during the 90-day review period in
consultation with the department.
(e) Approval for prior purchase or lease.--If the department
approves a county's application submitted under subsection (b),
the department and the county shall enter into a written grant
agreement through which the department shall reimburse the county
at the amount determined under subsection (g).
(f) Approval for subsequent purchase or lease.--If the
department approves a county's application under subsection (c),
the department and the county shall enter into a written grant
agreement through which the department will provide funding to
reimburse the county's cost to purchase or lease a voting
apparatus at the amount determined under subsection (g). The
county shall hold the grant money in an account of the county that
is separate from each other county account. The county shall
deliver quarterly reports to the department of the voting
apparatus costs paid from the grant money in a form prescribed by
the department. The county shall return any unspent grant money to

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

23 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

the department within 30 days of the expiration of the grant
agreement.
(g) Payments.-(1) A county shall only receive amounts under this section
to the extent that the department has bond proceeds available
in the account from which to make payments.
(2) Except as provided under paragraph (3), a county which
submitted an application approved under subsection (e) or (f)
shall receive 60% of the total amount submitted under
subsection (b) or (c) which may be reimbursed or paid.
(3) If the total amount submitted by all counties under
paragraph (2) exceeds the total amount available for
reimbursement or payment, a county shall receive a portion of
the amount available equal to the total amount submitted by the
county under subsection (b) or (c) which may be reimbursed or
paid, divided by the total amount submitted by all counties
under subsection (b) or (c) which may be reimbursed or paid.
(4) If any bond proceeds remain after the department has
issued all reimbursements in accordance with paragraphs (1),
(2) and (3), the department may utilize the remaining balance
for grants for counties for the purchase and distribution to
the counties of election security equipment. The department
shall provide notice to each county no later than 30 days prior
to receiving applications for grants under this paragraph.
(h) Certification.--A county shall only receive the
reimbursement or funding under this article after making a
certification to the department, the President pro tempore of the
Senate, the Speaker of the House of Representatives, the Minority
Leader of the Senate, the Minority Leader of the House of
Representatives, the chair and minority chair of the
Appropriations Committee of the Senate, the chair and minority
chair of the Appropriations Committee of the House of
Representatives, the chair and minority chair of the State
Government Committee of the Senate and the chair and minority
chair of the State Government Committee of the House of
Representatives that the county has completed a program under 25
Pa.C.S. § 1901(b)(1) (relating to removal of electors) and mailed
notices required under 25 Pa.C.S. § 1901(b)(3) within the prior 12
months. The certification shall include information on whether the
county has undertaken a canvass under 25 Pa.C.S. § 1901(b)(2).
(i) Department application.--The department shall apply to the
authority for funding under section 1102-B only if the department
has approved county applications under this article which total at
least $50,000,000.
Section 3.2. Sections 1210(a.4)(1) and (5)(ii), 1215(b) and
(c), 1216(d) and (f), 1222, 1223(a) and 1227(d) of the act are
amended to read:
Section 1210. Manner of Applying to Vote; Persons Entitled to
Vote; Voter's Certificates; Entries to Be Made in District
Register; Numbered Lists of Voters; Challenges.--* * *
(a.4) (1) At all elections an individual who claims to be
properly registered and eligible to vote at the election district
but whose name does not appear on the district register and whose
registration cannot be determined by the inspectors of election or
the county election board shall be permitted to cast a provisional
ballot. Individuals who appear to vote shall be required to
produce proof of identification pursuant to subsection (a) and if
unable to do so shall be permitted to cast a provisional ballot.
An individual presenting a judicial order to vote shall be
permitted to cast a provisional ballot. An elector who appears to
vote on election day having requested an absentee ballot or mailin ballot and who is not shown on the district register as having

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

24 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

voted an absentee ballot or mail-in ballot shall be permitted to
cast a provisional ballot.
* * *
(5) * * *
(ii) A provisional ballot shall not be counted if:
(A) either the provisional ballot envelope under clause (3) or
the affidavit under clause (2) is not signed by the individual;
(B) the signature required under clause (3) and the signature
required under clause (2) are either not genuine or are not
executed by the same individual;
(C) a provisional ballot envelope does not contain a secrecy
envelope;
(D) in the case of a provisional ballot that was cast under
subsection (a.2)(1)(i), within six calendar days following the
election the elector fails to appear before the county board of
elections to execute an affirmation or the county board of
elections does not receive an electronic, facsimile or paper copy
of an affirmation affirming, under penalty of perjury, that the
elector is the same individual who personally appeared before the
district election board on the day of the election and cast a
provisional ballot and that the elector is indigent and unable to
obtain proof of identification without the payment of a fee; [or]
(E) in the case of a provisional ballot that was cast under
subsection (a.2)(1)(ii), within six calendar days following the
election, the elector fails to appear before the county board of
elections to present proof of identification and execute an
affirmation or the county board of elections does not receive an
electronic, facsimile or paper copy of the proof of identification
and an affirmation affirming, under penalty of perjury, that the
elector is the same individual who personally appeared before the
district election board on the day of the election and cast a
provisional ballot[.]; or
(F) the elector's absentee ballot or mail-in ballot is timely
received by a county board of elections.
* * *
Section 1215. Method of Marking Ballots and Depositing Same in
Districts in Which Ballots are Used.--* * *
(b) At primaries, the elector shall prepare his ballot in the
following manner: He shall vote for the candidates of his choice
for nomination or election, according to the number of persons to
be voted for by him, for each office, by making a cross (X) or
check (ˆš) mark in the square opposite the name of the candidate,
or he may insert by writing[,] or stamping [or sticker,] in the
blank space provided therefor, any name not already printed on the
ballot, and such insertion shall count as a vote without the
making of a cross (X) or check (ˆš) mark. In districts in which
paper ballots or ballot cards are electronically tabulated,
stickers or labels may not be used to mark ballots.
(c) At elections, the elector shall prepare his ballot in the
following manner: He may vote for the candidates of his choice for
each office to be filled according to the number of persons to be
voted for by him for each office, by making a cross (X) or check
(ˆš) mark in the square opposite the name of the candidate, or he
may insert by writing[,] or stamping [or sticker,] in the blank
spaces provided therefor, any name not already printed on the
ballot, and such insertion shall count as a vote without the
making of a cross (X) or check (ˆš) mark. In districts in which
paper ballots or ballot cards are electronically tabulated,
stickers or labels may not be used to mark ballots. If he desires
to vote for every candidate of a political party or political
body, except its candidates for offices as to which he votes for
individual candidates in the manner hereinafter provided, he may

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

25 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

make a cross (X) or check (ˆš) mark in the square opposite the
name of the party or political body of his choice in the party
column on the left of the ballot, and every such cross (X) or
check (ˆš) mark shall be equivalent to and be counted as a vote
for every candidate of a party or political body so marked,
including its candidates for presidential electors, except for
those offices as to which he has indicated a choice for individual
candidates of the same or another party or political body, by
making a cross (X) or check (ˆš) mark opposite their names in the
manner hereinabove provided, as to which offices his ballot shall
be counted only for the candidates which he has thus individually
marked, notwithstanding the fact that he made a mark in the party
column, and even though in the case of an office for which more
than one candidate is to be voted for, he has not individually
marked for such office the full number of candidates for which he
is entitled to vote. If he desires to vote for the entire group of
presidential electors nominated by any party or political body, he
may make a cross (X) or check (ˆš) mark in the appropriate square
at the right of the names of the candidates for President and
Vice-President of such party or body. If he desires to vote a
ticket for presidential electors made up of the names of persons
nominated by different parties or political bodies, or partially
of names of persons so in nomination and partially of names of
persons not in nomination by any party or political body, or
wholly of names of persons not in nomination by any party or
political body, he shall insert, by writing or stamping, the names
of the candidates for presidential electors for whom he desires to
vote in the blank spaces provided therefor under the title of the
office "Presidential Electors." In case of a question submitted to
the vote of the electors, he may make a cross (X) or check (ˆš)
mark in the appropriate square opposite the answer which he
desires to give.
* * *
Section 1216. Instructions of Voters and Manner of Voting in
Districts in Which Voting Machines are Used.-* * *
(d) At [primaries, he] all elections, the elector shall vote
for each candidate individually by operating the key, handle,
pointer or knob, upon or adjacent to which the name of such
candidate is placed. [At elections, he may vote for each candidate
individually by operating the key, handle, pointer or knob, upon
or adjacent to which the names of candidates of his choice are
placed, or he may vote a straight political party ticket in one
operation by operating the straight political party lever of the
political party or political body of his choice, if such machine
has thereon a separate lever for all the candidates of the
political body. He may also, after having operated the straight
party lever, and before recording his vote, cancel the vote for
any candidate of such political party or political body by
replacing the individual key, handle, pointer or knob of such
candidate, and may thereupon vote for a candidate of another
party, or political body for the same office by operating the key,
handle, pointer or knob, upon or adjacent to which the name of
such candidate appears.] In the case of a question submitted to
the vote of the electors, the elector shall operate the key,
handle, pointer or knob corresponding to the answer which he
desires to give.
* * *
(f) At any general election at which presidential electors are
to be chosen, each elector shall be permitted to vote by one
operation for all the presidential electors of a political party
or political body. For each party or body nominating presidential

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

26 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

electors, a ballot label shall be provided containing only the
words "Presidential Electors," preceded by the names of the party
or body and followed by the names of the candidates thereof for
the office of President and Vice-President, and the corresponding
counter or registering device shall register votes cast for said
electors when thus voted for collectively. If an elector desires
to vote a ticket for presidential electors made up of the names of
persons nominated by different parties or bodies, or partially of
names of persons so in nomination and partially of names of
persons not in nomination by any party or body, or wholly of names
of persons not in nomination by any party or body, he may write or
deposit a paper ballot prepared by himself in the receptacle
provided in or on the machine for the purpose. The machine shall
be so constructed that it will not be possible for any one voter
to vote a straight party ticket for presidential electors and at
the same time to deposit a ballot for presidential electors in a
receptacle as [hereinabove] provided in this section. When the
votes for presidential electors are counted, the votes appearing
upon the counter or registering device corresponding to the ballot
label containing the names of the candidates for President and
Vice-President of any party or body shall be counted as votes for
each of the candidates for presidential elector of such party or
body, and thereupon all candidates for presidential elector shall
be credited, in addition, with the votes cast for them upon the
ballots deposited in the machine, as [hereinabove] provided in
this section.
* * *
Section 1222. Count and Return of Votes in Districts in Which
Ballots are Used.-(a) As soon as all the ballots have been properly accounted
for, and those outside the ballot box, as well as the "Voting
Check List," numbered lists of voters and district register
sealed, the election officers shall forthwith open the ballot box,
and take therefrom all ballots therein, and at primaries, separate
the same according to the party to which they belong. The ballots
shall then be counted one by one, and a record made of the total
number, and at primaries of the total number cast for each party.
Then the judge, under the scrutiny of the minority inspector, or
the minority inspector, under the scrutiny of the judge, in the
presence of the other officers, clerks, and of the overseers, if
any, and within the hearing and sight of the watchers outside the
enclosed space, shall read aloud the names of the candidates
marked or inserted upon each ballot (at primaries the ballots of
each party being read in sequence), together with the office for
which the person named is a candidate, and the answers contained
on the ballots to the questions submitted, if any, and the
majority inspector and clerks shall carefully enter each vote as
read, and keep account of the same in ink in triplicate tally
papers (triplicate tally papers for each party at primaries) to be
provided by the county board of elections for that purpose, all
three of which shall be made at the same time.[: Provided, That at
all general, municipal and special elections, in entering each
vote received by candidates at such election, it shall not be
necessary to enter separate tally marks for each vote received by
such candidates upon the ballots containing the same votes for the
same names, commonly known, and in this act designated as
"Straight Party Tickets" for such purpose straight party ticket
votes shall be entered carefully as each straight party ticket
vote is read on the triplicate tally sheets under the heading
"Number of votes received upon the ..............................
straight party tickets." Upon completing the number of votes
received by each straight party ticket, the number so tallied for

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

27 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

each party shall be entered numerically on the extreme right hand
margin of each such tally paper.] All ballots, after being removed
from the box, shall be kept within the unobstructed view of all
persons in the voting room until replaced in the box. No person
while handling the ballots shall have in his hand any pencil, pen,
stamp or other means of marking or spoiling any ballot. The
election officers shall forthwith proceed to canvass and compute
the votes cast, and shall not adjourn or postpone the canvass or
computation until it shall have been fully completed.
(b) When the vote cast for the different persons named upon
the ballots and upon the questions, if any, appearing thereon,
shall have been fully recorded in the tally papers and counted,
the election officers shall duly certify to the number of votes
cast for each person (upon the respective party tickets at
primaries), and shall prepare in ink two (2) general returns,
showing, in addition to the entries made thereon as aforesaid, the
total number of ballots received from the county board (the total
of each party at primaries), the number of ballots cast (the
number of each party at primaries), the number of ballots (of each
party at primaries) declared void, and the number of ballots
spoiled and cancelled, and any blank ballots cast, as well as the
votes cast for each candidate. At elections, the number of votes
cast for each candidate by each political party or political body
of which such candidate is a nominee shall be separately stated.[:
Provided, That the number of votes received by each set of
candidates upon "straight party tickets" shall be entered opposite
the names of the respective candidates in a column immediately
adjoining upon the left which column shall be of convenient width
and shall be headed "number of votes received upon straight party
tickets."] In an immediate column to the left thereto, the number
of votes received by each candidate upon all ballots [other than
"straight party tickets" including all ballots known as "split
tickets"] shall be entered, such column to be of convenient width
and shall be headed "number of votes [received other than upon
straight party tickets." The number of votes received by each
candidate as shown in the column headed "number of votes received
upon straight party tickets" shall then be added, together with
the number of votes received by each candidate as shown in the
column headed "number of votes received other than upon straight
party tickets" and thereupon, the] received." The total number of
votes received by each candidate shall be entered in a column on
the extreme right-hand side of the return sheets, which column
shall be of convenient width and shall be headed "total number of
votes."
Nothing in this section contained shall be construed to
authorize or permit the canvassing, counting or tallying ballots
with any less degree of strictness than otherwise required by
law.[, the intention of this section being to dispense with the
individual tally marks only so far as the so-called "straight
party tickets" are concerned, and all other operations of
tallying, counting, canvassing and announcing the votes shall
proceed as near as may be in accordance with the other provisions
of this act.]
(c) In returning any votes cast for any person whose name is
not printed on the ballot, the election officers shall record any
such names exactly as they were written[,] or stamped [or applied
to] upon the ballot [by sticker]. In districts in which paper
ballots or ballot cards are electronically tabulated, stickers or
labels may not be used to mark ballots. A vote cast by means of a
sticker or label affixed to a ballot or ballot card shall be void
and may not be counted.
Section 1223. What Ballots Shall Be Counted; Manner of

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

28 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

Counting; Defective Ballots.--(a) No ballot which is so marked as
to be capable of identification shall be counted. Any ballot that
is marked in blue, black or blue-black ink, in fountain pen or
ball point pen, or black lead pencil or indelible pencil, shall be
valid and counted: Provided, That all markings on the ballot are
made by the same pen or pencil. Any ballot marked by any other
mark than an (X) or check (ˆš) in the spaces provided for that
purpose shall be void and not counted: Provided, however, That no
vote recorded thereon shall be declared void because a cross (X)
or check (ˆš) mark thereon is irregular in form. [Any erasure,
mutilation or defective marking of the straight party column at
November elections shall render the entire ballot void, unless the
voter has properly indicated his choice for candidates in any
office block, in which case the vote or votes for such candidates
only shall be counted.] Any erasure or mutilation in the vote in
any office block shall render void the vote for any candidates in
said block, but shall not invalidate the votes cast on the
remainder of the ballot, if otherwise properly marked. Any ballot
indicating a vote for any person whose name is not printed on the
ballot, by writing[, stamping or sticker] or stamping, shall be
counted as a vote for such person, if placed in the proper space
or spaces provided for that purpose, whether or not an (X) or
check (ˆš) is placed after the name of such person: Provided,
however, That if such writing[, stamping or sticker] or stamping
is placed over the name of a candidate printed on the ballot, it
shall render the entire vote in said office block void. In
districts in which paper ballots or ballot cards are
electronically tabulated, stickers or labels may not be used to
mark ballots. A vote cast by means of a sticker or label affixed
to a ballot or ballot card shall be void and may not be counted.
If an elector shall mark his ballot for more persons for any
office than there are candidates to be voted for for such office,
or if, for any reason, it may be impossible to determine his
choice for any office, his ballot shall not be counted for such
office, but the ballot shall be counted for all offices for which
it is properly marked. Ballots not marked, or improperly or
defectively marked, so that the whole ballot is void, shall be set
aside and shall be preserved with the other ballots.
* * *
Section 1227. Canvass and Return of Votes in Districts in
Which Voting Machines are Used.--* * *
(d) The election officers, on the foregoing returns, shall
record any votes which have been cast for a person whose name is
not printed on the ballot labels, by means of an irregular ballot,
as defined herein. In returning any such votes which have been
written[,] or deposited [or affixed] upon receptacles or devices
provided for the purpose, the election officers shall record any
such names exactly as they were written[,] or deposited [or
affixed].
Section 4. The act is amended by adding sections to read:
Section 1231. Deadline for Receipt of Valid Voter Registration
Application.--(a) Except as provided under subsection (b), each
commission, commissioner and registrar or clerk appointed by the
commission shall receive, during ordinary business hours and
during additional hours as the commission prescribes, at the
office of the commission and at additional places as the
commission designates, applications from individuals who apply to
be registered to vote as provided under 25 Pa.C.S. Pt. IV
(relating to voter registration) who appear and claim that they
are entitled to be registered as electors of a municipality.
(b) In the administration of voter registration, each
commission shall ensure that an applicant who is a qualified

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

29 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

elector is registered to vote in an election when the applicant
has met any of the following conditions:
(1) In the case of voter registration with a motor vehicle
driver's license application under 25 Pa.C.S. § 1323 (relating to
application with driver's license application), if the valid voter
registration application is received by the appropriate commission
not later than fifteen days before the election.
(2) (Reserved).
(3) In the case of voter registration at a voter registration
agency under 25 Pa.C.S. § 1325 (relating to government agencies),
if the valid voter registration application is received by the
appropriate commission not later than fifteen days before the
election.
(4) In any other case, if the valid voter registration
application of the applicant is received by the appropriate
commission not later than fifteen days before the election.
(c) (1) In the case of a special election within a
congressional, senatorial or representative district held on a day
other than the day of a primary, general or municipal election,
the registration application forms shall not be processed in the
wards and election districts comprising the district for the
fifteen days prior to the special election for such election.
(2) No applications shall be received as follows:
(i) On Sundays.
(ii) On holidays.
(iii) On the day of the election.
(iv) During the fifteen days next preceding each general,
municipal and primary election except as provided under subsection
(b).
(d) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:
"Commission" shall mean a registration commission established
under 25 Pa.C.S. § 1203 (relating to commissions).
"Commissioner" shall mean a member of a commission.
Section 1232. Appeals.--(a) An individual whose application
to be registered has been denied under section 1231 or 25 Pa.C.S.
Pt. IV (relating to voter registration) may file with the
commission a petition to be registered, setting forth the grounds
of the petition under oath or affirmation. The petition must be
filed by the eighth day prior to an election.
(b) (1) The commission shall fix a time for a public hearing
at its office not later than the fifth day prior to the election.
(2) The commission shall give the person responsible for the
rejection forty-eight hours' notice of the hearing.
(3) At the hearing, a clerk, inspector of registration or
qualified elector of the county may offer evidence as to why the
petitioner should not be registered.
(4) The commission, if satisfied that the petitioner is
entitled to be registered, shall direct registration.
(c) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:
"Commission" shall mean a registration commission established
under 25 Pa.C.S. § 1203 (relating to commissions).
Section 1233. Appeals to Court of Common Pleas.--(a) An
applicant whose claim for registration under section 1231 and 25
Pa.C.S. Pt. IV (relating to voter registration) has been denied
shall have standing to appeal an action of a commission to the
appropriate court of common pleas.
(b) An appeal under subsection (a) must be made by the third
day preceding an election.

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

30 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

(c) The appeal must request relief and specify the grounds for
relief.
(d) Upon timely receipt of an appeal under this section, the
court shall conduct a hearing.
(e) If the court finds that an injustice has been done, the
court shall reverse or modify the ruling of the commission and
issue appropriate injunctive relief.
(f) The following shall apply:
(1) Except as provided in paragraph (2), the court may award
costs for the appeal to the prevailing party.
(2) Costs may not be assessed against a commission or a
county.
(g) As used in this section, "commission" shall mean a
registration commission established under 25 Pa.C.S. § 1203
(relating to commissions).
Section 5. Section 1302(b), (c), (d), (e.1) and (i) of the act
are amended and the section is amended by adding subsections to
read:
Section 1302. Applications for Official Absentee Ballots.--* *
*
(b) [The application] An application for a qualified elector
under subsection (a) shall contain the following information: Home
residence at the time of entrance into actual military service or
Federal employment, length of time a citizen, length of residence
in Pennsylvania, date of birth, length of time a resident of
voting district, voting district if known, party choice in case of
primary, name and, for a military elector, his stateside military
address, FPO or APO number and serial number. Any elector other
than a military elector shall in addition specify the nature of
his employment, the address to which ballot is to be sent,
relationship where necessary, and such other information as may be
determined and prescribed by the Secretary of the Commonwealth.
When such application is received by the Secretary of the
Commonwealth it shall be forwarded to the proper county board of
election.
(b.1) An application for a qualified elector other than under
subsection (a) shall contain the following information: Date of
birth, length of time a resident of voting district, voting
district if known, party choice in case of primary and name. The
elector shall in addition specify the nature of his or her
employment, the address to which ballot is to be sent,
relationship where necessary, and other information as may be
determined and prescribed by the Secretary of the Commonwealth.
When the application is received by the Secretary of the
Commonwealth it shall be forwarded to the proper county board of
election.
(c) [The application of any qualified elector, as defined in
section 1301(a), (b), (c), (d), (e), (f), (g) and (h), for an
official absentee ballot in any primary or election may not be
made over the signature of any person, other than the qualified
elector or an adult member of his immediate family, as required in
the preceding subsection.] A qualified absentee military or
overseas elector, as defined by the Uniformed and Overseas
Citizens Absentee Voting Act (Public Law 99-410, 100 Stat. 924),
may submit his application for an official absentee ballot by
[facsimile method if the original application is received prior to
the election by the county election office. The absentee ballot of
the qualified military or overseas elector shall not be counted
unless the elector's original application is received prior to the
election by the county election office. The facsimile] electronic
transmission method. The electronic transmission method shall not
be acceptable for the official absentee ballot. As used in this

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

31 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

subsection, "electronic transmission method" means any technology
that can transmit a document or an image of a document via
electronic or electromechanical means, including, but not limited
to, facsimile method. An elector entitled to submit an application
for an official absentee ballot under a method authorized under 25
Pa.C.S. Ch. 35 (relating to uniform military and overseas voters)
may submit an application using a method authorized under 25
Pa.C.S. Ch. 35, in addition to the methods authorized in this
article.
(d) The application of any qualified elector, as defined in
preceding section 1301, subsections [(b)] (a) to (h), inclusive,
for an official absentee ballot in any primary or election shall
be signed by the applicant[.], except that for electors under
section 1301(a), an adult member of the applicant's immediate
family may sign the application on the elector's behalf.
* * *
(e.1) Any qualified registered elector[, including any
qualified bedridden or hospitalized veteran,] who is unable
because of illness or physical disability to attend his polling
place on the day of any primary or election or operate a voting
machine and state distinctly and audibly that he is unable to do
so as required by section 1218 of this act may, with the
certification by his attending physician that he is permanently
disabled, and physically unable to attend the polls or operate a
voting machine and make the distinct and audible statement
required by section 1218 appended to the application hereinbefore
required, be placed on a permanently disabled absentee ballot list
file. An absentee ballot application shall be mailed to every such
person [for each primary or election] otherwise eligible to
receive one, by the first Monday in February each year, so long as
he does not lose his voting rights by failure to vote as otherwise
required by this act. Such person shall not be required to file a
physician's certificate of disability with each application as
required in subsection (e) of this section [but such person must
submit a written statement asserting continuing disability every
four years in order to maintain his eligibility to vote under the
provisions of this subsection]. Should any such person lose his
disability he shall inform the county board of elections of the
county of his residence. An absentee ballot application mailed to
a voter under this section, which is completed and timely returned
by the voter, shall serve as an application for any and all
primary, general or special elections to be held in the remainder
of that calendar year and for all special elections to be held
before the third Monday in February of the succeeding year.
* * *
(i) (1) Application for official absentee ballots shall be on
physical and electronic forms prescribed by the Secretary of the
Commonwealth. The application shall state that [a voter] an
elector who receives and votes an absentee ballot pursuant to
section 1301 [and who, on election day, is capable of voting at
the appropriate polling place must void the absentee ballot and
vote in the normal manner at the appropriate voting place] shall
not be eligible to vote at a polling place on election day. Such
physical application forms shall be made freely available to the
public at county board of elections, municipal buildings and at
such other locations designated by the secretary. Such electronic
application forms shall be made freely available to the public
through publicly accessible means. No written application or
personal request shall be necessary to receive or access the
application forms. Copies and records of all completed physical
and electronic applications for official absentee ballots shall be
retained by the county board of elections.

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

32 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

(2) Nothing in this act shall prohibit a private organization
or individual from printing blank voter applications for absentee
ballots or shall prohibit the use of such applications by another
individual, provided the form, content and paper quality have been
approved by the Secretary of the Commonwealth.
* * *
(k) The Secretary of the Commonwealth may develop an
electronic system through which all qualified electors may apply
for an absentee ballot and request permanent absentee voter status
under subsection (e.1), provided the system is able to capture a
digitized or electronic signature of the applicant. A county board
of elections shall treat any application or request received
through the electronic system as if the application or request had
been submitted on a paper form or any other format used by the
county.
Section 5.1. Sections 1302.1, 1302.2, 1302.3 heading, (a) and
(c), 1303(d) and (e) and 1305(b) of the act are amended to read:
Section 1302.1. Date of Application for Absentee Ballot.--(a)
Except as provided in [subsections (a.1) and (a.2)] subsection
(a.3), applications for absentee ballots shall be received in the
office of the county board of elections not earlier than fifty
(50) days before the primary or election [and], except that if a
county board of elections determines that it would be appropriate
to its operational needs, any applications for absentee ballots
received more than fifty (50) days before the primary or election
may be processed before that time. Applications for absentee
ballots shall be processed if received not later than five o'clock
P.M. of the first Tuesday prior to the day of any primary or
election.
[(a.1) Except as provided in subsection (a.2), in the event
any elector otherwise qualified who is so physically disabled or
ill on or before the first Tuesday prior to any primary or
election that he is unable to file his application or who becomes
physically disabled or ill after the first Tuesday prior to any
primary or election and is unable to appear at his polling place
or any elector otherwise qualified who because of the conduct of
his business, duties or occupation will necessarily be absent from
the municipality of his residence on the day of the primary or
election, which fact was not and could not reasonably be known to
said elector on or before the first Tuesday prior to any primary
or election, the elector shall be entitled to an absentee ballot
at any time prior to five o'clock P.M. on the first Friday
preceding any primary or election upon execution of an Emergency
Application in such form prescribed by the Secretary of the
Commonwealth.
(a.2) In the event any elector otherwise qualified who becomes
so physically disabled or ill between five o'clock P.M. on the
first Friday preceding any primary or election and eight o'clock
P.M. on the day of any primary or election that he is unable to
appear at his polling place or any elector otherwise qualified who
because of the conduct of his business, duties or occupation will
necessarily be absent from the municipality of his residence on
the day of the primary or election, which fact was not and could
not reasonably be known to said elector prior to five o'clock P.M.
on the first Friday preceding any primary or election, the elector
shall be entitled to an absentee ballot if the elector completes
and files with the court of common pleas in the county in which
the elector is qualified to vote an Emergency Application or a
letter or other signed document, which includes the same
information as is provided on the Emergency Application. Upon a
determination that the elector is a qualified absentee elector
under section 1301, the judge shall issue an absentee ballot to

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

33 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

the elector.]
(a.3) (1) The following categories of electors may apply for
an absentee ballot under this subsection, if otherwise qualified:
(i) An elector whose physical disability or illness prevented
the elector from applying for an absentee ballot before five
o'clock P.M. on the first Tuesday prior to the day of the primary
or election.
(ii) An elector who, because of the elector's business, duties
or occupation, was unable to apply for an absentee ballot before
five o'clock P.M. on the first Tuesday prior to the day of the
primary or election.
(iii) An elector who becomes so physically disabled or ill
after five o'clock P.M. on the first Tuesday prior to the day of
the primary or election that the elector is unable to appear at
the polling place on the day of the primary or election.
(iv) An elector who, because of the conduct of the elector's
business, duties or occupation, will necessarily be absent from
the elector's municipality of residence on the day of the primary
or election, which fact was not and could not reasonably be known
to the elector on or before five o'clock P.M. on the first Tuesday
prior to the day of the primary or election.
(2) An elector described in paragraph (1) may submit an
application for an absentee ballot at any time up until the time
of the closing of the polls on the day of the primary or election.
The application shall include a declaration describing the
circumstances that prevented the elector from applying for an
absentee ballot before five o'clock P.M. on the first Tuesday
prior to the day of the primary or election or that prevent the
elector from appearing at the polling place on the day of the
primary or election, and the elector's qualifications under
paragraph (1). The declaration shall be made subject to the
provisions of 18 Pa.C.S. § 4904 (relating to unsworn falsification
to authorities).
(3) If the county board of elections determines that the
elector meets the requirements of this section, the board shall
issue an absentee ballot to the elector.
(4) If the elector is unable to appear [in court] at the
office of the county board of elections to receive the ballot, the
[judge] board shall give the elector's absentee ballot to an
authorized representative of the elector who is designated in
writing by the elector. The authorized representative shall
deliver the absentee ballot to the elector and return the
completed absentee ballot, sealed in the official absentee ballot
envelopes, to the office of the county board of elections, [who]
which shall [distribute] retain the ballot, unopened, [to the
absentee voter's election district] until the canvassing of all
absentee ballots.
(5) Multiple people qualified under this subsection may
designate the same person, and a single person may serve as the
authorized representative for multiple qualified electors.
(6) If the elector is unable to appear [in court] at the
office of the county board of elections or unable to obtain
assistance from an authorized representative, the county board may
provide an authorized representative or ask the judge [shall] of
the court of common pleas in the county in which the elector is
qualified to vote to direct a deputy sheriff of the county to
deliver the absentee ballot to the elector if the elector is at a
physical location within the county and return the completed
absentee ballot, sealed in the official absentee ballot envelopes,
to the county board of elections[, who shall distribute the
ballots, unopened, to the absentee voter's respective election
district]. If there is no authorized representative and a deputy

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

34 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

sheriff is unavailable to deliver an absentee ballot under this
section, the judge may direct a constable to make such delivery in
accordance with the provisions of this section.
(7) In the case of an elector who requires assistance in
marking the elector's ballot, the elector shall designate in
writing the person who will assist in marking the ballot. Such
person shall be otherwise eligible to provide assistance to
electors eligible for assistance, and such person shall declare in
writing that assistance was rendered. Any person other than the
designee who shall render assistance in marking a ballot or any
person rendering assistance who shall fail to execute a
declaration shall be guilty of a violation of this act.
(8) No absentee ballot under this subsection shall be counted
which is received in the office of the county board of elections
later than [eight o'clock P.M. on the day of the primary or
election] the deadline for its receipt as provided in section
1308(g).
(b) In the case of an elector whose application for an
absentee ballot is received by the office of the county board of
elections earlier than fifty (50) days before the primary or
election, the application shall be held and processed upon
commencement of the fifty-day period or at such earlier time as
the county board of elections determines may be appropriate.
[(c) In the case of an elector who is physically disabled or
ill on or before the first Tuesday prior to a primary or election
or becomes physically disabled or ill after the first Tuesday
prior to a primary or election, such Emergency Application, letter
or other signed document shall contain a supporting affidavit from
his attending physician stating that due to physical disability or
illness said elector was unable to apply for an absentee ballot on
or before the first Tuesday prior to the primary or election or
became physically disabled or ill after that period.
(d) In the case of an elector who is necessarily absent
because of the conduct of his business, duties or occupation under
the unforeseen circumstances specified in subsections (a.1) and
(a.2), such Emergency Application, letter or other signed document
shall contain a supporting affidavit from such elector stating
that because of the conduct of his business, duties or occupation
said elector will necessarily be absent from the municipality of
his residence on the day of the primary or election which fact was
not and could not reasonably be known to said elector on or before
the first Tuesday prior to the primary or election.]
Section 1302.2. Approval of Application for Absentee Ballot.-(a) The county board of elections, upon receipt of any
application filed by a qualified elector not required to be
registered under preceding section 1301, shall ascertain from the
information on such application, district register or from any
other source that such applicant possesses all the qualifications
of a qualified elector other than being registered or enrolled. If
the board is satisfied that the applicant is qualified to receive
an official absentee ballot, the application shall be marked
approved such approval decision shall be final and binding except
that challenges may be made only on the ground that the applicant
did not possess qualifications of an absentee elector. Such
challenges must be made to the county board of elections prior to
[5:00 o'clock P.M. on the first Friday prior to the election.] the
applicable deadline for the absentee ballots to be received, as
provided in section 1308(g). When so approved, the county board of
elections shall cause the applicant's name and residence (and at a
primary, the party enrollment) to be inserted in the Military,
Veterans and Emergency Civilians Absentee Voters File as provided
in section 1302.3, subsection (b): Providing, however, That no

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

35 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

application of any qualified elector in military service shall be
rejected for failure to include on [his] the elector's application
any information if such information may be ascertained within a
reasonable time by the county board of elections.
(b) The county board of elections, upon receipt of any
application filed by a qualified elector who is entitled, under
the provisions of the Permanent Registration Law as now or
hereinafter enacted by the General Assembly, to absentee
registration prior to or concurrently with the time of voting as
provided under preceding section 1301, shall ascertain from the
information on such application or from any other source that such
applicant possesses all the qualifications of a qualified elector.
If the board is satisfied that the applicant is entitled, under
the provisions of the Permanent Registration Law as now or
hereinafter enacted by the General Assembly, to absentee
registration prior to or concurrently with the time of voting and
that the applicant is qualified to receive an official absentee
ballot, the application shall be marked "approved." Such approval
decision shall be final and binding except that challenges may be
made only on the ground that the applicant did not possess the
qualifications of an absentee elector prior to or concurrently
with the time of voting. Such challenges must be made to the
county board of elections prior to [5:00 o'clock P.M. on the first
Friday prior to the election.] the applicable deadline for the
absentee ballots to be received, as provided in section 1308(g).
When so approved, the county board of elections shall cause the
applicant's name and residence (and at a primary, the party
enrollment) to be inserted in the Military, Veterans and Emergency
Civilian Absentee Voters File as provided in section 1302.3
subsection (b).
(c) The county board of elections, upon receipt of any
application of a qualified elector required to be registered under
the provisions of preceding section 1301, shall determine the
qualifications of such applicant by verifying the proof of
identification and comparing the information set forth on such
application with the information contained on the applicant's
permanent registration card. If the board is satisfied that the
applicant is qualified to receive an official absentee ballot, the
application shall be marked "approved." Such approval decision
shall be final and binding, except that challenges may be made
only on the ground that the applicant did not possess the
qualifications of an absentee elector. Such challenges must be
made to the county board of elections prior to [5:00 o'clock P.M.
on the first Friday prior to the election.] the applicable
deadline for the absentee ballots to be received, as provided in
section 1308(g). When so approved, the registration commission
shall cause an absentee voter's temporary registration card to be
inserted in the district register on top of and along with the
permanent registration card. The absentee voter's temporary
registration card shall be in the color and form prescribed in
subsection (e) of this section:
Provided, however, That the duties of the county boards of
elections and the registration commissions with respect to the
insertion of the absentee voter's temporary registration card of
any elector from the district register as set forth in section
1302.2 shall include only such applications and emergency
applications as are received on or before the first Tuesday prior
to the primary or election. In all cases where applications are
received after the first Tuesday prior to the primary or election
and before [five o'clock P. M. on the first Friday prior to] eight
o'clock P.M. on the day of the primary or election, the county
board of elections shall determine the qualifications of such

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

36 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

applicant by verifying the proof of identification and comparing
the information set forth on such application with the information
contained on the applicant's duplicate registration card on file
in the General Register (also referred to as the Master File) in
the office of the Registration Commission and shall cause the name
and residence (and at primaries, the party enrollment) to be
inserted in the Military, Veterans and Emergency Civilian Absentee
Voters File as provided in section 1302.3, subsection (b). [In
addition, the local district boards of elections shall, upon
canvassing the official absentee ballots under section 1308,
examine the voting check list of the election district of said
elector's residence and satisfy itself that such elector did not
cast any ballot other than the one properly issued to him under
his absentee ballot application. In all cases where the
examination of the local district board of elections discloses
that an elector did vote a ballot other than the one properly
issued to him under the absentee ballot application, the local
district board of elections shall thereupon cancel said absentee
ballot and said elector shall be subject to the penalties as
hereinafter set forth.]
(d) In the event that any application for an official absentee
ballot is not approved by the county board of elections, the
elector shall be notified immediately to that effect with a
statement by the county board of the reasons for the disapproval.
For those applicants whose proof of identification was not
provided with the application or could not be verified by the
board, the board shall send notice to the elector with the
absentee ballot requiring the elector to provide proof of
identification with the absentee ballot or the ballot will not be
counted.
(e) The absentee voter's temporary registration card shall be
in duplicate and the same size as the permanent registration card,
in a different and contrasting color to the permanent registration
card and shall contain the absentee voter's name and address and
shall conspicuously contain the words "Absentee Voter." [Such card
shall also contain the affidavit required by subsection (b) of
section 1306.]
(f) Notwithstanding the provisions of this section, a
qualified absentee elector shall not be required to provide proof
of identification if the elector is entitled to vote by absentee
ballot under the Uniformed and Overseas Citizens Absentee Voting
Act (Public Law 99-410, 100 Stat. 924) or by an alternative ballot
under the Voting Accessibility for the Elderly and Handicapped Act
(Public Law 98-435, 98 Stat. 1678).
Section 1302.3. Absentee and Mail-in Electors Files and
Lists.--(a) The county board of elections shall maintain at its
office a file containing the duplicate absentee voter's temporary
registration cards of every registered elector to whom an absentee
ballot has been sent. Such duplicate absentee voter's temporary
registration cards shall be filed by election districts and within
each election district in exact alphabetical order and indexed.
The registration cards and the registration cards under section
1302.3-D so filed shall constitute the Registered Absentee and
Mail-in Voters File for the Primary or Election of (date of
primary or election) and shall be kept on file for a period
commencing the Tuesday prior to the day of the primary or election
until the day following the primary or election or the day the
county board of elections certifies the returns of the primary or
election, whichever date is later. Such file shall be open to
public inspection at all times subject to reasonable safeguards,
rules and regulations.
* * *

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

37 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

(c) Not less than five days preceding the election, the chief
clerk shall prepare a list for each election district showing the
names and post office addresses of all voting residents thereof to
whom official absentee or mail-in ballots shall have been issued.
Each such list shall be prepared in duplicate, shall be headed
"Persons in (give identity of election district) to whom absentee
or mail-in ballots have been issued for the election of (date of
election)," and shall be signed by him not less than four days
preceding the election. He shall post the original of each such
list in a conspicuous place in the office of the county election
board and see that it is kept so posted until the close of the
polls on election day. He shall cause the duplicate of each such
list to be delivered to the judge of election in the election
district in the same manner and at the same time as are provided
in this act for the delivery of other election supplies, and it
shall be the duty of such judge of election to post such duplicate
list in a conspicuous place within the polling place of his
district and see that it is kept so posted throughout the time
that the polls are open. Upon written request, he shall furnish a
copy of such list to any candidate or party county chairman.
Section 1303. Official Absentee Voters Ballots.--* * *
(d) In cases where there is not time to print on said ballots
the names of the various candidates, the county board of elections
shall print special write-in absentee ballots which shall be in
substantially the form of other official absentee ballots except
that such special write-in absentee ballots shall contain blank
spaces only under the titles of such offices in which electors may
insert, by writing or stamping, the names of the candidates for
whom they desire to vote, and in such cases the county board of
elections shall furnish to electors lists containing the names of
all the candidates named in nomination petitions or who have been
regularly nominated under the provisions of this act, for the use
of such electors in preparing their ballots. Special write-in
absentee ballots also shall include all constitutional amendments
and other questions to be voted on by the electors.
(e) The official absentee voter ballot shall state that a
voter who receives an absentee ballot pursuant to section 1301 and
whose ballot is not timely received and who, on election day, is
capable of voting at the appropriate polling place [must void the
absentee ballot and vote in the normal manner at the appropriate
voting place] may only vote on election day by provisional ballot.
Section 1305. Delivering or Mailing Ballots.-* * *
(b) (1) The county board of elections upon receipt and
approval of an application filed by any elector qualified in
accordance with the provisions of section 1301, subsections (i) to
(l), inclusive, shall commence to deliver or mail official
absentee ballots [on] as soon as a ballot is certified and the
ballots are available. While any proceeding is pending in a
Federal or State court which would affect the contents of any
ballot, the county board of elections may await a resolution of
that proceeding but in any event, shall commence to deliver or
mail official absentee ballots not later than the second Tuesday
prior to the primary or election. For those applicants whose proof
of identification was not provided with the application or could
not be verified by the board, the board shall send the notice
required under section 1302.2(d) with the absentee ballot. As
additional applications are received and approved after the time
that the county board of elections begins delivering or mailing
official absentee and mail-in ballots, the board shall deliver or
mail official absentee ballots to such additional electors within
forty-eight hours.

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

38 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

(2) Notwithstanding any other provisions of this act and
notwithstanding the inclusion of a mailing address on an absentee
or mail-in ballot application, a voter who presents the voter's
own application for an absentee or mail-in ballot within the
office of the county board of elections during regular business
hours may request to receive the voter's absentee or mail-in
ballot while the voter is at the office. This request may be made
orally or in writing. Upon presentation of the application and the
making of the request and upon approval under sections 1302.2 and
1302.2-D, the county board of elections shall promptly present the
voter with the voter's absentee or mail-in ballot. If a voter
presents the voter's application within the county board of
elections' office in accordance with this section, a county board
of elections may not deny the voter's request to have the ballot
presented to the voter while the voter is at the office unless
there is a bona fide objection to the absentee or mail-in ballot
application.
* * *
Section 6. Section 1306(a) introductory paragraph and (1) and
(b) of the act are amended and the section is amended by adding a
subsection to read:
Section 1306. Voting by Absentee Electors.--(a) Except as
provided in paragraphs [(1),] (2) and (3), at any time after
receiving an official absentee ballot, but on or before [five
o'clock P.M. on the Friday prior to] eight o'clock P.M. the day of
the primary or election, the elector shall, in secret, proceed to
mark the ballot only in black lead pencil, indelible pencil or
blue, black or blue-black ink, in fountain pen or ball point pen,
and then fold the ballot, enclose and securely seal the same in
the envelope on which is printed, stamped or endorsed "Official
Absentee Ballot." This envelope shall then be placed in the second
one, on which is printed the form of declaration of the elector,
and the address of the elector's county board of election and the
local election district of the elector. The elector shall then
fill out, date and sign the declaration printed on such envelope.
Such envelope shall then be securely sealed and the elector shall
send same by mail, postage prepaid, except where franked, or
deliver it in person to said county board of election.
[(1) Any elector who submits an Emergency Application and
receives an absentee ballot in accordance with section 1302.1(a.2)
or (c) shall mark the ballot on or before eight o'clock P.M. on
the day of the primary or election. This envelope shall then be
placed in the second one, on which is printed the form of
declaration of the elector, and the address of the elector's
county board of election and the local election district of the
elector. The elector shall then fill out, date and sign the
declaration printed on such envelope. Such envelope shall then be
securely sealed and the elector shall send same by mail, postage
prepaid, except where franked, or deliver it in person to said
county board of election.]
* * *
(b) [In the event that any such elector, excepting an elector
in military service or any elector unable to go to his polling
place because of illness or physical disability, entitled to vote
an official absentee ballot shall be in the municipality of his
residence on the day for holding the primary or election for which
the ballot was issued, or in the event any such elector shall have
recovered from his illness or physical disability sufficiently to
permit him to present himself at the proper polling place for the
purpose of casting his ballot, such absentee ballot cast by such
elector shall, be declared void.
Any such elector referred to in this subsection, who is within

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

39 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

the municipality of his residence, must present himself at his
polling place and shall be permitted to vote upon presenting
himself at his regular polling place in the same manner as he
could have voted had he not received an absentee ballot: Provided,
That such elector has first presented himself to the judge of
elections in his local election district and shall have signed the
affidavit on the absentee voter's temporary registration card,
which affidavit shall be in substantially the following form:
I hereby swear that I am a qualified registered elector who has
obtained an absentee ballot, however, I am present in the
municipality of my residence and physically able to present myself
at my polling place and therefore request that my absentee ballot
be voided.
..............................
(Date)
..............................
.............................
(Local Judge of Elections)
(Signature of Elector)
An elector who has received an absentee ballot under the
emergency application provisions of section 1302.1, and for whom,
therefore, no temporary absentee voter's registration card is in
the district register, shall sign the aforementioned affidavit in
any case, which the local judge of elections shall then cause to
be inserted in the district register with the elector's permanent
registration card.]
(1) Any elector who receives and votes an absentee ballot
pursuant to section 1301 shall not be eligible to vote at a
polling place on election day. The district register at each
polling place shall clearly identify electors who have received
and voted absentee ballots as ineligible to vote at the polling
place, and district election officers shall not permit electors
who voted an absentee ballot to vote at the polling place.
(2) An elector who requests an absentee ballot and who is not
shown on the district register as having voted the ballot may vote
by provisional ballot under section 1210(a.4)(1).
(c) Except as provided under 25 Pa.C.S. § 3511 (relating to
receipt of voted ballot), a completed absentee ballot must be
received in the office of the county board of elections no later
than eight o'clock P.M. on the day of the primary or election.
Section 7. Sections 1308 heading, (a), (b), (b.1), (d), (e),
(f), (g)(1), (2), (3), (4) and (5) and (h) and 1309 of the act are
amended to read:
Section 1308. Canvassing of Official Absentee Ballots and
Mail-in Ballots.--(a) The county boards of election, upon receipt
of official absentee ballots in [such] sealed official absentee
ballot envelopes as provided under this article and mail-in
ballots as in sealed official mail-in ballot envelopes as provided
under Article XIII-D, shall safely keep the [same] ballots in
sealed or locked containers until they [distribute same to the
appropriate local election districts in a manner prescribed by the
Secretary of the Commonwealth.
Except as provided in section 1302.1(a.2), the county board of
elections shall then distribute the absentee ballots, unopened, to
the absentee voter's respective election district concurrently
with the distribution of the other election supplies. Absentee
ballots shall be canvassed immediately and continuously without
interruption until completed after the close of the polls on the
day of the election in each election district. The results of the
canvass of the absentee ballots shall then be included in and
returned to the county board with the returns of that district.
Except as provided in section 1302.1(a.2) and subsection (g), no

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

40 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

absentee ballot shall be counted which is received in the office
of the county board of election later than five o'clock P.M. on
the Friday immediately preceding the primary or November
election.] are to be canvassed by the county board of
elections. An absentee ballot, whether issued to a civilian,
military or other voter during the regular or emergency
application period, shall be canvassed in accordance with
subsection (g). A mail-in ballot shall be canvassed in accordance
with subsection (g).
(b) Watchers shall be permitted to be present when the
envelopes containing official absentee ballots and mail-in ballots
are opened and when such ballots are counted and recorded.
[(b.1) In all election districts in which electronic voting
systems are used, absentee ballots shall be opened at the election
district, checked for write-in votes in accordance with section
1113-A and then either hand-counted or counted by means of the
automatic tabulation equipment, whatever the case may be.]
(d) Whenever it shall appear by due proof that any absentee
elector or mail-in elector who has returned his ballot in
accordance with the provisions of this act has died prior to the
opening of the polls on the day of the primary or election, the
ballot of such deceased elector shall be rejected by the
canvassers but the counting of the ballot of an absentee elector
or a mail-in elector thus deceased shall not of itself invalidate
any nomination or election.
[(e) At such time the local election board shall then further
examine the declaration on each envelope not so set aside and
shall compare the information thereon with that contained in the
"Registered Absentee Voters File," the absentee voters' list and
the "Military Veterans and Emergency Civilians Absentee Voters
File." If the local election board is satisfied that the
declaration is sufficient and the information contained in the
"Registered Absentee Voters File," the absentee voters' list and
the "Military Veterans and Emergency Civilians Absentee Voters
File" verifies his right to vote, the local election board shall
announce the name of the elector and shall give any watcher
present an opportunity to challenge any absentee elector upon the
ground or grounds (1) that the absentee elector is not a qualified
elector; or (2) that the absentee elector was within the
municipality of his residence on the day of the primary or
election during the period the polls were open, except where he
was in military service or except in the case where his ballot was
obtained for the reason that he was unable to appear personally at
the polling place because of illness or physical disability; or
(3) that the absentee elector was able to appear personally at the
polling place on the day of the primary or election during the
period the polls were open in the case his ballot was obtained for
the reason that he was unable to appear personally at the polling
place because of illness or physical disability. Upon challenge of
any absentee elector, as set forth herein the local election board
shall mark "challenged" on the envelope together with the reason
or reasons therefor, and the same shall be set aside for return to
the county board unopened pending decision by the county board and
shall not be counted. All absentee ballots not challenged for any
of the reasons provided herein shall be counted and included with
the general return of paper ballots or voting machines, as the
case may be as follows. Thereupon, the local election board shall
open the envelope of every unchallenged absentee elector in such
manner as not to destroy the declaration executed thereon. All of
such envelopes on which are printed, stamped or endorsed the words
"Official Absentee Ballot" shall be placed in one or more
depositories at one time and said depository or depositories well

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

41 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

shaken and the envelopes mixed before any envelope is taken
therefrom. If any of these envelopes shall contain any extraneous
marks or identifying symbols other than the words "Official
Absentee Ballot," the envelopes and the ballots contained therein
shall be set aside and declared void. The local election board
shall then break the seals of such envelopes, remove the ballots
and record the votes in the same manner as district election
officers are required to record votes. With respect to the
challenged ballots, they shall be returned to the county board
with the returns of the local election district where they shall
be placed unopened in a secure, safe and sealed container in the
custody of the county board until it shall fix a time and place
for a formal hearing of all such challenges and notice shall be
given where possible to all absentee electors thus challenged and
to every attorney, watcher or candidate who made such challenge.
The time for the hearing shall not be later than seven (7) days
after the date of said challenge. On the day fixed for said
hearing, the county board shall proceed without delay to hear said
challenges and, in hearing the testimony, the county board shall
not be bound by technical rules of evidence. The testimony
presented shall be stenographically recorded and made part of the
record of the hearing. The decision of the county board in
upholding or dismissing any challenge may be reviewed by the court
of common pleas of the county upon a petition filed by any person
aggrieved by the decision of the county board. Such appeal shall
be taken, within two (2) days after such decision shall have been
made, whether reduced to writing or not, to the court of common
pleas setting forth the objections to the county board's decision
and praying for an order reversing same. Pending the final
determination of all appeals, the county board shall suspend any
action in canvassing and computing all challenged ballots
irrespective of whether or not appeal was taken from the county
board's decision. Upon completion of the computation of the
returns of the county, the votes cast upon the challenged official
absentee ballots shall be added to the other votes cast within the
county.]
(f) Any person challenging an application for an absentee
ballot [or], an absentee ballot, an application for a mail-in
ballot or a mail-in ballot for any of the reasons provided in this
act shall deposit the sum of ten dollars ($10.00) in cash with the
[local election] county board, [in cases of challenges made to the
local election board and with the county board in cases of
challenges made to the county board for which he shall be issued a
receipt for each challenge made,] which sum shall only be refunded
if the challenge is sustained or if the challenge is withdrawn
within five (5) days after the primary or election. If the
challenge is dismissed by any lawful order then the deposit shall
be forfeited. [All deposit money received by the local election
board shall be turned over to the county board simultaneously with
the return of the challenged ballots.] The county board shall
deposit all deposit money in the general fund of the county.
Notice of the requirements of subsection (b) of section 1306
shall be printed on the envelope for the absentee ballot or mailin ballot.
(g) (1) (i) An absentee ballot cast by any absentee elector
as defined in section 1301(a), (b), (c), (d), (e), (f), (g) and
(h) [which is received in the office of the county board of
elections after five o'clock P.M. on the Friday immediately
preceding the election and no later than five o'clock P.M. on the
seventh day following an election] shall be canvassed in
accordance with this subsection if [the absentee ballot is
postmarked no later than the day immediately preceding the

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

42 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

election.] the ballot is cast, submitted and received in
accordance with the provisions of 25 Pa.C.S. Ch. 35 (relating to
uniform military and overseas voters).
(ii) An absentee ballot cast by any absentee elector as
defined in section 1301(i), (j), (k), (l), (m) and (n), an
absentee ballot under section 1302(a.3) or a mail-in ballot cast
by a mail-in elector shall be canvassed in accordance with this
subsection if the absentee ballot or mail-in ballot is received in
the office of the county board of elections no later than eight
o'clock P.M. on the day of the primary or election.
(2) The county board of elections shall meet [on the eighth
day following the election to canvass] no earlier than the close
of polls on the day of the election and no later than the third
day following the election to begin canvassing the absentee
ballots and mail-in ballots received under this subsection and
subsection (h)(2). The canvass shall continue through the eighth
day following the election. One authorized representative of each
candidate in an election and one representative from each
political party shall be permitted to remain in the room in which
the absentee ballots and mail-in ballots are canvassed.
Representatives shall be permitted to challenge any absentee
elector or mail-in elector in accordance with the provisions of
paragraph (3).
(3) When the county board meets to canvass absentee ballots
and mail-in ballots under paragraph (2), the board shall examine
the declaration on the envelope of each ballot not set aside under
subsection (d) and shall compare the information thereon with that
contained in the "Registered Absentee and Mail-in Voters File,"
the absentee voters' list and/or the "Military Veterans and
Emergency Civilians Absentee Voters File," whichever is
applicable. If the county board has verified the proof of
identification as required under this act and is satisfied that
the declaration is sufficient and the information contained in the
"Registered Absentee and Mail-in Voters File," the absentee
voters' list and/or the "Military Veterans and Emergency Civilians
Absentee Voters File" verifies his right to vote, the county board
shall announce the name of the elector and shall give any
candidate representative or party representative present an
opportunity to challenge any absentee elector or mail-in elector
upon the ground or grounds: (i) that the absentee elector or mailin elector is not a qualified elector; or [(ii) that the absentee
elector was within the municipality of his residence on the day of
the primary or election during the period the polls were open,
except where he was in the military service or except in the case
where his ballot was obtained for the reason that he was unable to
appear personally at the polling place because of illness or
physical disability; or] (iii) that the absentee elector was able
to appear personally at the polling place on the day of the
primary or election during the period the polls were open in the
case his ballot was obtained for the reason that he was unable to
appear personally at the polling place because of illness or
physical disability. Upon challenge of any absentee elector, as
set forth herein, the board shall mark "challenged" on the
envelope together with the reasons therefor, and the same shall be
set aside unopened pending final determination of the challenge
according to the procedure described in paragraph (5).
(4) All absentee ballots and mail-in ballots not challenged
for any of the reasons provided in paragraph (3) shall be counted
and included with the returns of the applicable election district
as follows[.]:
(i) The county board shall open the envelope of every
unchallenged absentee elector and mail-in elector in such manner

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

43 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

as not to destroy the declaration executed thereon.
(ii) If any of the envelopes on which are printed, stamped or
endorsed the words "Official Absentee Ballot" or "Official Mail-in
Ballot" contain any extraneous marks or identifying symbols, the
envelopes and the ballots contained therein shall be set aside and
declared void.
(iii) The county board shall then break the seals of such
envelopes, remove the ballots and record the votes.
(5) With respect to the challenged ballots, they shall be
placed unopened in a secure, safe and sealed container in the
custody of the county board until it shall fix a time and place
for a formal hearing of all such challenges, and notice shall be
given where possible to all absentee electors and mail-in electors
thus challenged and to every individual who made a challenge. The
time for the hearing shall not be later than five (5) days after
the date of the challenge. On the day fixed for said hearing, the
county board shall proceed without delay to hear said challenges,
and, in hearing the testimony, the county board shall not be bound
by the Pennsylvania Rules of Evidence. The testimony presented
shall be stenographically recorded and made part of the record of
the hearing.
* * *
(h) For those absentee ballots or mail-in ballots for which
proof of identification has not been received or could not be
verified:
[(1) If the proof of identification is received and verified
by the county board of elections prior to the distribution of the
absentee ballots to the local election districts, then the county
shall distribute the absentee ballots for which proof of
identification is received and verified, along with the other
absentee ballots, to the absentee voter's respective election
district. If the county board of elections does not receive or is
not able to verify the proof of identification for an elector
prior to the absentee ballots' being sent to the appropriate local
election districts, the county board shall keep the absentee
ballot and follow the procedures set forth in paragraph (2) or
(3), whichever is applicable.]
(2) If the proof of identification is received and verified
[after the absentee ballots have been distributed to the
appropriate local election districts, but] prior to the sixth
calendar day following the election, then the county board of
elections shall canvass the absentee ballots and mail-in ballots
under this subsection in accordance with subsection (g)(2)[,
unless the elector appeared to vote at the proper polling place
for the purpose of casting a ballot, then the absentee ballot cast
by that elector shall be declared void].
(3) If an elector fails to provide proof of identification
that can be verified by the county board of elections by the sixth
calendar day following the election, then the absentee ballot or
mail-in ballot shall not be counted.
* * *
Section 1309. Public Records.--(a) All official absentee
ballots, files, applications for such ballots and envelopes on
which the executed declarations appear, and all information and
lists are hereby designated and declared to be public records and
shall be safely kept for a period of two years, except that no
proof of identification shall be made public, nor shall
information concerning a military elector be made public which is
expressly forbidden by the Department of Defense because of
military security.
(b) For each election, the county board shall maintain a
record of the following information, if applicable, for each

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

44 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

elector who makes application for an absentee ballot:
(1) The elector's name and voter registration address.
(2) The date on which the elector's application is received by
the county board.
(3) The date on which the elector's application is approved or
rejected by the county board.
(4) The date on which the county board mails or delivers the
absentee ballot to the elector.
(5) The date on which the elector's completed absentee ballot
is received by the county board.
(c) The county board shall compile the records listed under
subsection (b) and make the records publicly available upon
request within forty-eight hours.
Section 8. The act is amended by adding an article to read:
ARTICLE XIII-D
VOTING BY QUALIFIED MAIL-IN ELECTORS
Section 1301-D. Qualified mail-in electors.
(a) General rule.--The following individuals shall be entitled
to vote by an official mail-in ballot in any primary or election
held in this Commonwealth in the manner provided under this
article:
(1) Any qualified elector who is not eligible to be a
qualified absentee elector under Article XIII.
(2) (Reserved).
(b) Construction.--The term "qualified mail-in elector" shall
not be construed to include a person not otherwise qualified as a
qualified elector in accordance with the definition in section
102(t).
Section 1302-D. Applications for official mail-in ballots.
(a) General rule.--A qualified elector under section 1301-D
may apply at any time before any primary or election for an
official mail-in ballot in person or on any official county board
of election form addressed to the Secretary of the Commonwealth or
the county board of election of the county in which the qualified
elector's voting residence is located.
(b) Content.--The following shall apply:
(1) The qualified elector's application shall contain the
following information:
(i) Date of birth.
(ii) Length of time a resident of voting district.
(iii) Voting district, if known.
(iv) Party choice in case of primary.
(v) Name.
(2) A qualified elector shall, in addition, specify the
address to which the ballot is to be sent, the relationship
where necessary and other information as may be determined by
the Secretary of the Commonwealth.
(3) When an application is received by the Secretary of
the Commonwealth it shall be forwarded to the proper county
board of election.
(c) Signature required.--Except as provided in subsection (d),
the application of a qualified elector under section 1301-D for an
official mail-in ballot in any primary or election shall be signed
by the applicant.
(d) Signature not required.--If any elector entitled to a
mail-in ballot under this section is unable to sign the
application because of illness or physical disability, the elector
shall be excused from signing upon making a statement which shall
be witnessed by one adult person in substantially the following
form:
I hereby state that I am unable to sign my application for
a mail-in ballot without assistance because I am unable to

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

45 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

write by reason of my illness or physical disability. I
have made or have received assistance in making my mark in
lieu of my signature.
(Mark)
(Date)
(Complete Address of Witness)
(Signature of Witness)
(e) Numbering.--The county board of elections shall number, in
chronological order, the applications for an official mail-in
ballot, which number shall likewise appear on the official mail-in
ballot for the qualified elector. The numbers shall appear legibly
and in a conspicuous place but, before the ballots are
distributed, the number on the ballot shall be torn off by the
county board of election. The number information shall be
appropriately inserted and become a part of the Registered
Absentee and Mail-in Voters File provided under section 1302.3.
(f) Form.--Application for an official mail-in ballot shall be
on physical and electronic forms prescribed by the Secretary of
the Commonwealth. The application shall state that a voter who
receives and votes a mail-in ballot under section 1301-D shall not
be eligible to vote at a polling place on election day. The
physical application forms shall be made freely available to the
public at county board of elections, municipal buildings and at
other locations designated by the Secretary of the Commonwealth.
The electronic application forms shall be made freely available to
the public through publicly accessible means. No written
application or personal request shall be necessary to receive or
access the application forms. Copies and records of all completed
physical and electronic applications for official mail-in ballots
shall be retained by the county board of elections.
(g) Permanent mail-in voting list.-(1) Any qualified registered elector may request to be
placed on a permanent mail-in ballot list file. A mail-in
ballot application shall be mailed to every person otherwise
eligible to receive a mail-in ballot application by the first
Monday in February each year, so long as the person does not
lose the person's voting rights by failure to vote as otherwise
required by this act. A mail-in ballot application mailed to a
voter under this section, which is completed and timely
returned by the voter, shall serve as an application for any
and all primary, general or special elections to be held in the
remainder of that calendar year and for all special elections
to be held before the third Monday in February of the
succeeding year.
(2) The Secretary of the Commonwealth may develop an
electronic system through which all qualified electors may
apply for a mail-in ballot and request permanent mail-in voter
status under this section, provided the system is able to
capture a digitized or electronic signature of the applicant. A
county board of elections shall treat an application or request
received through the electronic system as if the application or
request had been submitted on a paper form or any other format
used by the county.
Section 1302.1-D. Date of application for mail-in ballot.
(a) General rule.--Applications for mail-in ballots shall be
received in the office of the county board of elections not
earlier than 50 days before the primary or election, except that
if a county board of elections determines that it would be
appropriate to the county board of elections' operational needs,
any applications for mail-in ballots received more than 50 days
before the primary or election may be processed before that time.
Applications for mail-in ballots shall be processed if received

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

46 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

not later than five o'clock P.M. of the first Tuesday prior to the
day of any primary or election.
(b) Early applications.--In the case of an elector whose
application for a mail-in ballot is received by the office of the
county board of elections earlier than 50 days before the primary
or election, the application shall be held and processed upon
commencement of the 50-day period or at such earlier time as the
county board of elections determines may be appropriate.
Section 1302.2-D. Approval of application for mail-in ballot.
(a) Approval process.--The county board of elections, upon
receipt of any application of a qualified elector under section
1301-D, shall determine the qualifications of the applicant by
verifying the proof of identification and comparing the
information provided on the application with the information
contained on the applicant's permanent registration card. The
following shall apply:
(1) If the board is satisfied that the applicant is
qualified to receive an official mail-in ballot, the
application shall be marked "approved."
(2) The approval decision shall be final and binding,
except that challenges may be made only on the grounds that the
applicant did not possess the qualifications of a mail-in
elector.
(3) Challenges must be made to the county board of
elections prior to the applicable deadline for the mail-in
ballots to be received, as provided in section 1308(g).
(4) When approved, the registration commission shall cause
a mail-in voter's temporary registration card to be inserted in
the district register on top of and along with the permanent
registration card.
(5) The mail-in voter's temporary registration card shall
be in the color and form prescribed under subsection (d).
(b) Duties of county boards of elections and registration
commissions.--The duties of the county boards of elections and the
registration commissions with respect to the insertion of the
mail-in voter's temporary registration card of any elector from
the district register as provided under this section shall include
only the applications as are received on or before the first
Tuesday prior to the primary or election.
(c) Notice.--In the event that an application for an official
mail-in ballot is not approved by the county board of elections,
the elector shall be notified immediately with a statement by the
county board of the reasons for the disapproval. For applicants
whose proof of identification was not provided with the
application or could not be verified by the board, the board shall
send notice to the elector with the mail-in ballot requiring the
elector to provide proof of identification with the mail-in ballot
or the ballot will not be counted.
(d) Temporary registration card.--The mail-in voter's
temporary registration card shall be in duplicate and the same
size as the permanent registration card, in a different and
contrasting color to the permanent registration card and shall
contain the mail-in voter's name and address and shall
conspicuously contain the words "Mail-in Voter."
Section 1302.3-D. Mail-in electors files and lists.
The county board of elections shall maintain at its office a
file containing the duplicate mail-in voter's temporary
registration cards of every registered elector to whom a mail-in
ballot has been sent. The duplicate mail-in voter's temporary
registration cards shall be filed by election districts and within
each election district in exact alphabetical order and indexed.
The registration cards filed shall be included in the Registered

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

47 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

Absentee and Mail-in Voters File for the Primary or Election of
(date of primary or election) under section 1302.3(a).
Section 1303-D. Official mail-in elector ballots.
(a) General rule.--In election districts in which ballots are
used, the ballots for use by mail-in voters under this act shall
be the official ballots printed in accordance with sections 1002
and 1003.
(a.1) Duties of county boards of elections.--The county board
of elections, when detaching the official ballots for mail-in
voters, shall be required to indicate on the stub of each detached
ballot the name of the applicant to which that precise ballot is
being sent. The county board of elections shall also remove the
numbered stub from each ballot and shall print, stamp or endorse
in red color on the official ballots the words, "Official Mail-in
Ballot." The ballots shall be distributed by a board as provided
under this section.
(b) Preparation of ballots.--In election districts in which
voting machines are used and in election districts in which paper
ballots are used, the county board of elections in that election
district will not print official mail-in ballots in accordance
with sections 1002 and 1003. The ballots for use by mail-in voters
under this section shall be prepared sufficiently in advance by
the county board of elections and shall be distributed by the
boards as provided under this act. The ballots shall be marked
"Official Mail-in Ballot" but shall not be numbered and shall
otherwise be in substantially the form for ballots required by
Article X, which form shall be prescribed by the Secretary of the
Commonwealth.
(c) Use of ballot cards.--In election districts in which
electronic voting systems are utilized, the mail-in ballot may be
in the form of a ballot card which shall be clearly stamped on the
ballot card's face "Mail-in Ballot."
(d) Special write-in mail-in ballots.--In cases where there is
not time to print on the ballots the names of the various
candidates, the county board of elections shall print special
write-in mail-in ballots which shall be in substantially the form
of other official mail-in ballots, except that the special writein mail-in ballots shall contain blank spaces only under the
titles of the offices in which electors may insert by writing or
stamping the names of the candidates for whom they desire to vote,
and in those cases, the county board of elections shall furnish to
electors lists containing the names of all the candidates named in
nomination petitions or who have been regularly nominated under
the provisions of this act, for the use of the electors in
preparing their ballots. Special write-in mail-in ballots shall
include all constitutional amendments and other questions to be
voted on by the electors.
(e) Notice.--The official mail-in voter ballot shall state
that a voter who receives a mail-in ballot under section 1301-D
and whose mail-in ballot is not timely received may only vote on
election day by provisional ballot.
Section 1304-D. Envelopes for official mail-in ballots.
(a) Additional envelopes.--The county boards of election shall
provide two additional envelopes for each official mail-in ballot
of a size and shape as shall be prescribed by the Secretary of the
Commonwealth, in order to permit the placing of one within the
other and both within the mailing envelope. On the smaller of the
two envelopes to be enclosed in the mailing envelope shall be
printed, stamped or endorsed the words "Official Mail-in Ballot,"
and nothing else. On the larger of the two envelopes, to be
enclosed within the mailing envelope, shall be printed the form of
the declaration of the elector and the name and address of the

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

48 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

county board of election of the proper county. The larger envelope
shall also contain information indicating the local election
district of the mail-in voter.
(b) Form of declaration and envelope.--The form of declaration
and envelope shall be as prescribed by the Secretary of the
Commonwealth and shall contain, among other things, a statement of
the elector's qualifications, together with a statement that the
elector has not already voted in the primary or election.
(c) Mailing envelope.--The mailing envelope addressed to the
elector shall contain the two envelopes, the official mail-in
ballot, lists of candidates, when authorized by section 1303-D(b),
the uniform instructions in form and substance as prescribed by
the Secretary of the Commonwealth and nothing else.
(d) Notice.--Notice of the requirements under section 1306-D
shall be printed on the envelope for the mail-in ballot.
Section 1305-D. Delivering or mailing ballots.
The county board of elections, upon receipt and approval of an
application filed by a qualified elector under section 1301-D,
shall commence to deliver or mail official mail-in ballots as
soon as a ballot is certified and the ballots are available. While
any proceeding is pending in a Federal or State court which would
affect the contents of any ballot, the county board of elections
may await a resolution of that proceeding but in any event, shall
commence to deliver or mail official absentee ballots not later
than the second Tuesday prior to the primary or election. For
applicants whose proof of identification was not provided with the
application or could not be verified by the board, the board shall
send the notice required under section 1302.2-D(c) with the mailin ballot. As additional applications are received and approved,
the board shall deliver or mail official mail-in ballots to the
additional electors within 48 hours.
Section 1306-D. Voting by mail-in electors.
(a) General rule.--At any time after receiving an official
mail-in ballot, but on or before eight o'clock P.M. the day of the
primary or election, the mail-in elector shall, in secret, proceed
to mark the ballot only in black lead pencil, indelible pencil or
blue, black or blue-black ink, in fountain pen or ball point pen,
and then fold the ballot, enclose and securely seal the same in
the envelope on which is printed, stamped or endorsed "Official
Mail-in Ballot." This envelope shall then be placed in the second
one, on which is printed the form of declaration of the elector,
and the address of the elector's county board of election and the
local election district of the elector. The elector shall then
fill out, date and sign the declaration printed on such envelope.
Such envelope shall then be securely sealed and the elector shall
send same by mail, postage prepaid, except where franked, or
deliver it in person to said county board of election.
(a.1) Signature.--Any elector who is unable to sign the
declaration because of illness or physical disability, shall be
excused from signing upon making a declaration which shall be
witnessed by one adult person in substantially the following form:
I hereby declare that I am unable to sign my declaration
for voting my mail-in ballot without assistance because I
am unable to write by reason of my illness or physical
disability. I have made or received assistance in making my
mark in lieu of my signature.
(Mark)
(Date)
(Complete Address of Witness)
(Signature of Witness)
(b) Eligibility.-(1) Any elector who receives and votes a mail-in ballot

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

49 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

under section 1301-D shall not be eligible to vote at a polling
place on election day. The district register at each polling
place shall clearly identify electors who have received and
voted mail-in ballots as ineligible to vote at the polling
place, and district election officers shall not permit electors
who voted a mail-in ballot to vote at the polling place.
(2) An elector who requests a mail-in ballot and who is
not shown on the district register as having voted may vote by
provisional ballot under section 1210(a.4)(1).
(c) Deadline.--Except as provided under 25 Pa.C.S. § 3511
(relating to receipt of voted ballot), a completed mail-in ballot
must be received in the office of the county board of elections no
later than eight o'clock P.M. on the day of the primary or
election.
Section 1307-D. Public records.
(a) General rule.--All official mail-in ballots, files,
applications for ballots and envelopes on which the executed
declarations appear and all information and lists are designated
and declared to be public records and shall be safely kept for a
period of two years, except that no proof of identification shall
be made public, nor shall information concerning a military
elector be made public which is expressly forbidden by the
Department of Defense because of military security.
(b) Record.--For each election, the county board shall
maintain a record of the following information, if applicable, for
each elector who makes application for a mail-in ballot:
(1) The elector's name and voter registration address.
(2) The date on which the elector's application is
received by the county board.
(3) The date on which the elector's application is
approved or rejected by the county board.
(4) The date on which the county board mails or delivers
the mail-in ballot to the elector.
(5) The date on which the elector's completed mail-in
ballot is received by the county board.
(c) Compilation.--The county board shall compile the records
listed under subsection (b) and make the records publicly
available upon request within 48 hours.
Section 1308-D. Violation of provisions relating to mail-in
voting.
(a) Penalties.--Except as provided under subsection (b), a
person who violates any of the provisions of this act relating to
mail-in voting shall, unless otherwise provided, be subject to the
penalties provided under section 1850.
(b) Persons not qualified as mail-in voters.--A person who
knowingly assists another person who is not a qualified mail-in
voter in filling out a mail-in ballot application or mail-in
ballot commits a misdemeanor of the third degree.
Section 9. Section 1405 of the act is amended to read:
Section 1405. Manner of Computing Irregular Ballots.--The
county board, in computing the votes cast at any primary or
election, shall compute and certify votes cast on irregular
ballots exactly as such names were written, stamped[, affixed to
the ballot by sticker,] or deposited [or affixed] in or on
receptacles for that purpose, and as they have been so returned by
the election officers. In districts in which paper ballots or
ballot cards are electronically tabulated, stickers or labels may
not be used to mark ballots. A vote cast by means of a sticker or
label affixed to a ballot or ballot card shall be void and may not
be counted. In the primary the Secretary of the Commonwealth shall
not certify the votes cast on irregular ballots for any person for
a National office including that of the President of the United

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

50 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

States, United States Senator and Representative in Congress; or
for any State office including that of Governor and Lieutenant
Governor, Auditor General, State Treasurer, Senator and
Representative in the General Assembly, justices and judges of
courts of record or for any party office including that of
delegate or alternate delegate to National conventions and member
of State committee unless the total number of votes cast for said
person is equal to or greater than the number of signatures
required on a nomination petition for the particular office. In
the primary the county board shall not certify the votes cast on
irregular ballots for any person for a justice of the peace,
constable, National, State, county, city, borough, town, township,
ward, school district, election or local party office unless the
total number of votes cast for said person is equal to or greater
than the number of signatures required on a nomination petition
for the particular office.
Section 10. The Secretary of the Commonwealth shall prepare
and disseminate information to the public regarding the changes to
the voting procedures under this act.
Section 11. Sections 1, 2, 3, 3.2, 4, 5, 5.1, 6, 7, 8, 9 and
12 of this act are nonseverable. If any provision of this act or
its application to any person or circumstance is held invalid, the
remaining provisions or applications of this act are void.
Section 12. Repeals are as follows:
(1) The General Assembly declares that the repeal under
paragraph (2) is necessary to effectuate the addition of
section 1231 of the act.
(2) 25 Pa.C.S. § 1326 is repealed.
(3) The General Assembly declares that the repeal under
paragraph (4) is necessary to effectuate the addition of
section 1232 of the act.
(4) 25 Pa.C.S. § 1330 is repealed.
(5) The General Assembly declares that the repeal under
paragraph (6) is necessary to effectuate the addition of
section 1233 of the act.
(6) 25 Pa.C.S. § 1602(a)(1) is repealed.
Section 13. The following apply:
(1) This section applies to the amendment or addition of
the following provisions of the act:
(i) Section 102.
(ii) section 1003(a).
(iii) Section 1007(b).
(iv) Section 1107.
(v) Section 1110.
(vi) Section 1107-A.
(vii) Section 1109-A.
(viii) Section 1112-A(a).
(ix) Section 1216(d).
(x) Section 1222(a) and (b).
(xi) Section 1223.
(xii) Section 1231.
(xiii) Section 1232.
(xiv) Section 1233.
(xv) Section 1302.
(xvi) Section 1302.1.
(xvii) Section 1302.2.
(xviii) Section 1305.
(xix) Section 1306.
(xx) Section 1308.
(xxi) Article XIII-D.
(2) The Pennsylvania Supreme Court has exclusive
jurisdiction to hear a challenge to or to render a declaratory

11/28/2020, 8:02 PM

Act of Oct. 31, 2019,P.L. 552, No. 77 Cl. 25 - PENNSYLVANIA E...

51 of 51

https://www.legis.state.pa.us//WU01/LI/LI/US/HTM/2019/0/0077....

judgment concerning the constitutionality of a provision
referred to in paragraph (1). The Supreme Court may take action
it deems appropriate, consistent with the Supreme Court
retaining jurisdiction over the matter, to find facts or to
expedite a final judgment in connection with such a challenge
or request for declaratory relief.
(3) An action under paragraph (2) must be commenced within
180 days of the effective date of this section.
Section 14. This act shall apply to elections held on or after
April 28, 2020.
Section 15. This act shall take effect as follows:
(1) The addition of section 207 of the act shall take
effect in 180 days.
(2) The amendment of section 908 of the act shall take
effect in 60 days.
(3) The remainder of this act shall take effect
immediately.
APPROVED--The 31st day of October, A.D. 2019.
TOM WOLF

11/28/2020, 8:02 PM

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

DEMOCRATIC NATIONAL COMMITTEE,
ET AL.
v.
WISCONSIN STATE LEGISLATURE, ET
AL.
No. denied an application to vacate the
lower courts stay of a District Court

ballots to be received in Wisconsin. The Court
today denies the applications and maintains the
Seventh Circuit's stay of the District Court's order.
I agree with the Court's decision to deny the
applications, and I write separately to explain
why.
Page 2

SUPREME COURT OF THE UNITED
STATES

I
For three alternative and independent
reasons, I conclude that the District Court's
injunction was unwarranted.

October 26, 2020
KAVANAUGH, J., concurring
ON APPLICATION TO VACATE STAY
JUSTICE KAVANAUGH, concurring
denial of application to vacate stay.

in

Approximately
30
States,
including
Wisconsin, require that absentee ballots be
received by election day in order to be counted.
Like most States, Wisconsin has retained that
deadline for the November 2020 election,
notwithstanding the COVID-19 pandemic. In
advance of the November election, however, a
Federal District Court in Wisconsin unilaterally
changed the State's deadline for receipt of
absentee ballots. Citing the pandemic, the court
extended the deadline for receipt of absentee
ballots by six days—from election day, November
3, to November 9, so long as the ballots are
postmarked on or before election day, November
3.
The Seventh Circuit stayed the District
Court's injunction, ruling that the District Court
had violated this Court's precedents in two
fundamental ways: first, by changing state
election rules too close to an election; and second,
by usurping the state legislature's authority to
either keep or make changes to state election
rules in light of the pandemic.
Applicants here ask that we vacate the
Seventh Circuit's stay and reinstate the District
Court's order extending the deadline for absentee

First, the District Court changed Wisconsin's
election rules too close to the election, in
contravention of this Court's precedents. This
Court has repeatedly emphasized that federal
courts ordinarily should not alter state election
laws in the period close to an election—a principle
often referred to as the Purcell principle. See
Purcell v. Gonzalez, 549 U. S. 1 (2006) (per
curiam); see also Merrill v. People First of Ala.,
ante, p. ___, (Merrill II); Andino v. Middleton,
ante, p. ___; Merrill v. People First of Ala., 591
U. S. ___ (2020) (Merrill I); Clarno v. People
Not Politicians, 591 U. S. ___ (2020); Little v.
Reclaim Idaho, 591 U. S. ___ (2020); Republican
National Committee v. Democratic National
Committee, 589 U. S. ___ (2020) (per curiam)
(RNC).
The Court's precedents recognize a basic
tenet of election law: When an election is close at
hand, the rules of the road should be clear and
settled. That is because running a statewide
election is a complicated endeavor. Lawmakers
initially must make a host of difficult decisions
about how best to structure and conduct the
election. Then, thousands of state and local
officials and volunteers must participate in a
massive coordinated effort to implement the
lawmakers' policy choices on the ground before
and during the election, and again in counting the
votes afterwards. And at every step, state and
local officials must communicate to voters how,
when, and where they may cast their ballots

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

through in-person voting on
absentee voting, or early voting.

election

day,

Even seemingly innocuous late-in-the-day
judicial alterations to state election laws can
interfere with administration of an election and
cause unanticipated consequences. If a court
alters election laws near an election, election
administrators must first understand the court's
injunction,
Page 3
then devise plans to implement that late-breaking
injunction, and then determine as necessary how
best to inform voters, as well as state and local
election officials and volunteers, about those lastminute changes. It is one thing for state
legislatures to alter their own election rules in the
late innings and to bear the responsibility for any
unintended consequences. It is quite another
thing for a federal district court to swoop in and
alter carefully considered and democratically
enacted state election rules when an election is
imminent.
That important principle of judicial restraint
not only prevents voter confusion but also
prevents election administrator confusion—and
thereby protects the State's interest in running an
orderly, efficient election and in giving citizens
(including the losing candidates and their
supporters) confidence in the fairness of the
election. See Purcell, 549 U. S., at 4-5; Crawford
v. Marion County Election Bd., 553 U. S. 181, 197
(2008) (plurality opinion). The principle also
discourages last-minute litigation and instead
encourages litigants to bring any substantial
challenges to election rules ahead of time, in the
ordinary litigation process. For those reasons,
among others, this Court has regularly cautioned
that a federal court's last-minute interference
with
state
election
laws
is
ordinarily
inappropriate.
In this case, however, just six weeks before
the November election and after absentee voting
had already begun, the District Court ordered
several changes to Wisconsin's election laws,

including a change to Wisconsin's deadline for
receipt of absentee ballots. Although the District
Court's order was well intentioned and thorough,
it
nonetheless
contravened
this
Court's
longstanding precedents by usurping the proper
role of the state legislature and rewriting state
election laws in the period close to an election.
Applicants retort that the Purcell principle
precludes an appellate court—such as the Seventh
Circuit here—from overturning a district court's
injunction of a state election
Page 4
rule in the period close to an election. That
argument defies common sense and would turn
Purcell on its head. Correcting an erroneous lower
court injunction of a state election rule cannot
itself constitute a Purcell problem. Otherwise,
appellate courts could never correct a latebreaking lower court injunction of a state election
rule. That obviously is not the law. To be sure, it
would be preferable if federal district courts did
not contravene the Purcell principle by rewriting
state election laws close to an election. But when
they do, appellate courts must step in. See, e.g.,
Andino, ante, p. ___; RNC, 589 U. S., at ___
(slip op., at 3).
Second, even apart from the late timing, the
District Court misapprehended the limited role of
the federal courts in COvID-19 cases. This Court
has consistently stated that the Constitution
principally entrusts politically accountable state
legislatures, not unelected federal judges, with the
responsibility to address the health and safety of
the people during the COVID-19 pandemic.
The COVID-19 pandemic has caused the
deaths of more than 200,000 Americans, and it
remains a serious threat, including in Wisconsin.
The virus poses a particular risk to the elderly and
to those with certain pre-existing conditions. But
federal judges do not possess special expertise or
competence about how best to balance the costs
and benefits of potential policy responses to the
pandemic, including with respect to elections. For
that reason, this Court's cases during the

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

pandemic have adhered to a basic jurisprudential
principle: When state and local officials
"'undertake[] to act in areas fraught with medical
and scientific uncertainties,' their latitude 'must
be especially broad.'" Andino, ante, at 2
(KAVANAUGH, J., concurring in grant of
application for stay). It follows "that a State
legislature's decision either to keep or to make
changes to election rules to address COVID-19
ordinarily 'should not be subject to secondguessing by an unelected federal judiciary, which
lacks the background, competence, and expertise
to assess public

tradeoffs involved in changing or retaining
election deadlines, or other election rules, in light
of public health conditions in a particular State is
primarily the responsibility of state legislatures
and falls outside the competence of federal courts.

Page 5

consin's legislature has not done so, unlike the
South Carolina legislature in Andino, for example.
But the Wisconsin State Legislature's decision not
to modify its election rules in light of the
pandemic is itself a policy judgment worthy of the
same judicial deference that this Court afforded
the South Carolina legislature in Andino, ante, p.
___. In short, state legislatures, not federal
courts, primarily decide whether and how to
adjust election rules in light of the pandemic.

health and is not accountable to the people.'" Ibid.
(some internal quotation marks omitted). As the
Seventh Circuit rightly explained, "the design of
electoral procedures is a legislative task,"
including during the pandemic. Democratic
National Committee v. Bostelmann, ___ F. 3d
___, ___ (Oct. 8, 2020).
Over the last seven months, this Court has
stayed numerous federal district court injunctions
that second-guessed state legislative judgments
about whether to keep or make changes to
election rules during the pandemic. See Merrill II,
ante, p. ___; Andino, ante, p. ___; Merrill I, 591
U. S. ___; Clarno, 591 U. S. ___; Little, 591 U. S.
___; RNC, 589 U. S. ___.
To be sure, in light of the pandemic, some
state legislatures have exercised their Article I, §4,
authority over elections and have changed their
election rules for the November 2020 election. Of
particular relevance here, a few States such as
Mississippi no longer require that absentee
ballots be received before election day. See, e.g.,
Miss. Code Ann. §23-15-637 (2020). Other States
such as Vermont, by contrast, have decided not to
make changes to their ordinary election-deadline
rules, including to the election-day deadline for
receipt of absentee ballots. See, e.g., Vt. Stat.
Ann., Tit. 17, §2543 (2020). The variation in state
responses reflects our constitutional system of
federalism. Different state legislatures may make
different choices. Assessing the complicated

Applicants respond that this principle of
deference to state legislatures applies only when a
state legislature has affirmatively made some
changes, but not others, to the election code in
light of COVID-19. And they say that WisPage 6

Third, the District Court did not sufficiently
appreciate the significance of election deadlines.
This Court has long recognized that a State's
reasonable deadlines for registering to vote,
requesting absentee ballots, submitting absentee
ballots, and voting in person generally raise no
federal constitutional issues under the traditional
Anderson-Burdick balancing test. See Anderson
v. Celebrezze, 460 U. S. 780 (1983); Burdick v.
Takushi, 504 U. S. 428 (1992).
To state the obvious, a State cannot conduct
an election without deadlines. It follows that the
right to vote is not substantially burdened by a
requirement that voters "act in a timely fashion if
they wish to express their views in the voting
booth." Burdick, 504 U. S., at 438. For the same
reason, the right to vote is not substantially
burdened by a requirement that voters act in a
timely fashion if they wish to cast an absentee
ballot. Either way, voters need to vote on time. A
deadline is not unconstitutional merely because of
voters' "own failure to take timely steps" to ensure
their franchise. Rosario v. Rockefeller, 410 U. S.

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

752, 758 (1973). Voters who, for example, show
up to vote at midnight after the polls close on
election night do not have a right to demand that
the State nonetheless count their votes. Voters
who submit their absentee ballots after the State's
deadline similarly do not have a right to demand
that the State count their votes.
For important reasons, most States, including
Wisconsin, require absentee ballots to be received
by election day, not

ballots be received by election day do so for
weighty reasons that warrant judicial respect.
Federal courts have no business disregarding
those state interests simply because the federal
courts believe that later deadlines would be
better.
That constitutional analysis of election
deadlines still applies in the pandemic. After all,
during the pandemic, a State still cannot conduct
an election without deadlines. And the States that
require absentee ballots to be received

Page 7
Page 8
just mailed by election day. Those States want to
avoid the chaos and suspicions of impropriety
that can ensue if thousands of absentee ballots
flow in after election day and potentially flip the
results of an election. And those States also want
to be able to definitively announce the results of
the election on election night, or as soon as
possible thereafter. Moreover, particularly in a
Presidential election, counting all the votes
quickly can help the State promptly resolve any
disputes, address any need for recounts, and
begin the process of canvassing and certifying the
election results in an expeditious manner. See 3
U. S. C. §5. The States are aware of the risks
described by Professor Pildes: "[L]ate-arriving
ballots open up one of the greatest risks of what
might, in our era of hyperpolarized political
parties and existential politics, destabilize the
election result. If the apparent winner the
morning after the election ends up losing due to
late-arriving ballots, charges of a rigged election
could explode." Pildes, How to Accommodate a
Massive Surge in Absentee Voting, U. Chi. L. Rev.
Online (June 26, 2020) (online source archived at
www.supremecourt.gov). The "longer after
Election Day any significant changes in vote totals
take place, the greater the risk that the losing side
will cry that the election has been stolen." Ibid.
One may disagree with a State's policy choice
to require that absentee ballots be received by
election day. Indeed, some States require only
that absentee ballots be mailed by election day.
See, e.g., W. Va. Code Ann. §3-3-5(g)(2) (Lexis
2020). But the States requiring that absentee

by election day still have strong interests in
avoiding suspicions of impropriety and
announcing final results on or close to election
night.
To be sure, more people are voting absentee
during the pandemic. But the State of Wisconsin
has repeatedly instructed voters to request and
mail their ballots well ahead of time, and the State
has taken numerous steps to accommodate the
increased number of absentee ballots. Moreover,
the State now has some experience to draw upon
when administering an election during the
pandemic.
Wisconsin
conducted
primary
elections in April and August, and has
incorporated the lessons from those experiences
into its extensive planning for the November
election. See Wisconsin Elections Commission,
April 7, 2020 Absentee voting Report 24 (May 15,
2020)
(online
source
archived
at
www.supremecourt.gov). And that planning has
paid off so far: For the November election, more
than a million Wisconsin voters have already
voted by absentee ballot.
In attempting to justify the District Court's
injunction, Applicants also rely on this Court's
decision in April regarding the Wisconsin primary
election. They claim that the Court there
approved the District Court's change of the
deadline for receipt of absentee ballots in the
primary election, so long as the ballots were
postmarked by election day. RNC, 589 U. S. ___.
That assertion is incorrect. In that case, this Court

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

explicitly stated that the District Court's lastminute extension of the deadline for receipt of
absentee ballots was "not challenged in this
Court." Id., at ___ (slip op., at 1).

run elections during a pandemic. But over the last
several months, this Court has consistently
rejected that federal-judges-know-best vision of
election administration.

In sum, the District Court's injunction was
unwarranted
for
three
alternative
and
independent reasons: The District Court changed
the state election laws too close to the election. It
misapprehended the limited role of federal courts
in COVID-19 cases. And it did not sufficiently
appreciate

The dissent does not fully come to grips with
the destabilizing consequences of its analysis,
saying that the facts may differ in other States.
But the key facts underlying the District Court's
injunction are similar in other States: the
existence of the virus and its effects on election
workers, voters, mail systems, and in-person
voting. The dissent's claim that its reasoning
would not necessarily invalidate the absenteeballot deadlines of approximately 30 other States
therefore rings hollow.

Page 9
the significance of election deadlines.1
II
The dissent rejects all three of the above
conclusions and applies the ordinary AndersonBurdick balancing test for analyzing state election
rules. In the dissent's view, the District Court
permissibly concluded that the benefits of the
State's deadline for receipt of absentee ballots are
outweighed by the burdens of the deadline on
voters. In light of the three alternative and
independent conclusions outlined above, I do not
think that we may conduct that kind
Page 10
of open-ended balancing test in this case. But
even on its own terms, the dissent's balancing
analysis is faulty, in my respectful view.
Start by considering the implications of the
dissent's analysis. In reinstating the District
Court's order extending Wisconsin's deadline for
receipt of absentee ballots, the dissent's approach
would necessarily invalidate (or at least call into
question) the laws of approximately 30 States for
the upcoming election and compel all of those
States to accept absentee ballots received after
election day. The dissent's de facto green light to
federal courts to rewrite dozens of state election
laws around the country over the next two weeks
seems to be rooted in a belief that federal judges
know better than state legislators about how to

Turning to the dissent's balancing analysis,
the dissent does not sufficiently appreciate the
necessity of deadlines in elections, and does not
sufficiently account for all the steps that
Wisconsin has already taken to help voters meet
those deadlines.
The dissent claims that the State's electionday deadline for receipt of absentee ballots will
"disenfranchise" some Wisconsin voters. But that
is not what a reasonable election deadline does.
This Court has long explained that a State's
election deadline does not disenfranchise voters
who
Page 11
are capable of meeting the deadline but fail to do
so. See Rosario, 410 U. S., at 757-758. In other
words, reasonable election deadlines do not
"disenfranchise" anyone under any legitimate
understanding of that term. And the dissent
cannot plausibly argue that the absentee-ballot
deadline imposed—and still in place as of today—
in most of the States is not a reasonable one.
Those voters who disregard the deadlines or who
fail to take the state-prescribed steps for meeting
the deadlines may have to vote in person. But no
one is disenfranchised by Wisconsin's reasonable
and commonplace deadline for receiving absentee
ballots. Indeed, more than one million Wisconsin

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

voters have already requested, received, and
returned their absentee ballots.
To help voters meet the deadlines, Wisconsin
makes it easy to vote absentee and has taken
several extraordinary steps this year to inform
voters that they should request and return
absentee ballots well before election day.
For starters, as the Seventh Circuit aptly
noted, Wisconsin has "lots of rules" that "make
voting easier than do the rules of many other
states." Luft v. Evers, 963 F. 3d 665, 672 (2020).
Wisconsin law allows voters to vote absentee
without an excuse, no questions asked. Wis. Stat.
§6.85 (2017-2018). Registered voters may request
an absentee ballot by mail, e-mail, online, or fax.
Wisconsin Elections Commission, Absentee
Voting, https://elections.wi.gov/voters/absentee.
Since August, moreover, the Wisconsin
Elections Commission has been regularly
reminding voters of the need to act early so as to
avoid backlogs and potential mail delays. See,
e.g., Wisconsin Elections Commission, Wisconsin
Voting Deadlines and Facts for November 2020
(Aug.
20,
2020),
http://elections.wi.gov/node/7039. In August
and September, for example, Wisconsin's chief
elections official explicitly urged voters not to wait
to request a ballot: "It takes time for Wisconsin
clerks to process your request. Then it may take
up to seven days for you to receive your ballot in

Returning an absentee ballot in Wisconsin is
also easy. To begin with, voters can return their
completed absentee ballots by mail. But absentee
voters who do not want to rely on the mail have
several other options. Until election day, voters
may, for example, hand-deliver their absentee
ballots to the municipal clerk's office or other
designated site, or they may place their absentee
ballots in a secure absentee ballot drop box. Some
absentee ballot drop boxes are located outdoors,
either for drive-through or walk-up access, and
some are indoors at a location like a municipal
clerk's office. Memorandum from M. Wolfe,
Administrator of the Wisconsin Elections
Commission, et al. to All Wisconsin Election
Officials (Aug. 19, 2020) (online source archived
at www.supremecourt.gov). The Wisconsin
Elections Commission has made federal grant
money available to local municipalities to
purchase additional absentee ballot drop boxes to
accommodate expanded absentee voting.
Alternatively, absentee voters may vote "inperson absentee" beginning two weeks before
election day. Wis. Stat. §6.86(1)(b). A Wisconsin
voter who votes "in-person absentee" fills out an
absentee ballot in person at a municipal clerk's
office or other designated location before election
day. Some municipalities have created drive-up
absentee voting sites to allow voters to vote "inperson absentee" without leaving their cars. See,
e.g., City of Madison Clerk's Office, In-Person
Absentee voting Hours and Locations

Page 12

Page 13

the mail. It can then take another seven days for
your ballot to be returned by mail." Wisconsin
Elections Commission, Wisconsin Mails voting
Information to Registered Voters (Sept. 3, 2020),
http://elections.wi.gov/node/7077.

(online
source
www.supremecourt.gov).

Perhaps most importantly, in early
September, Wisconsin decided to leave little to
chance and mailed every registered voter in the
State who had not already requested an absentee
ballot (2.6 million of Wisconsin's registered
voters) an absentee ballot application, as well as
information about how to vote absentee. Ibid.

archived

at

Finally, on election day, a voter may drop off
an absentee ballot at a polling place until 8:00
p.m. Memorandum from M. Wolfe, Administrator
of the Wisconsin Elections Commission, to
Wisconsin Municipal Clerks (Mar. 31, 2020)
(online
source
archived
at
www.supremecourt.gov).
In sum, as the Governor of Wisconsin
correctly said back in March as the COVID-19

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

crisis broke: "The good news is that absentee
voting in Wisconsin is really easy." Marley, The
Deadline to Request an Absentee Ballot in
Wisconsin Is Friday. Here's How You Do It.,
Milwaukee Journal Sentinel, Mar. 13, 2020
(online
source
archived
at
www.supremecourt.gov).
The current statistics for the November
election bear out the Governor's statement that
absentee voting in Wisconsin is "really easy." In
huge and unprecedented numbers, Wisconsin
voters have already taken advantage of the State's
generous absentee voting procedures for the
November election. As of October 26, 2020, the
Wisconsin Elections Commission has mailed
1,706,771 absentee ballots to Wisconsin voters.
And it has already received back from voters
1,344,535 completed absentee ballots. Wisconsin
Elections Commission, Absentee Ballot Report—
November 3, 2020 General Election (Oct. 26,
2020), https://elections.wi.gov/node/7207.
As those statistics suggest, the dissent's
charge that Wisconsin has disenfranchised
absentee voters is not tenable. As the Seventh
Circuit explained, the "district court did not find
that any person who wants to avoid voting in
person on Election Day would be unable to cast a
ballot in Wisconsin by planning ahead and taking
advantage of the opportunities allowed by state
law." Bostelmann, ___ F. 3d, at ___.
The dissent insists, however, that "tens of
thousands" and perhaps even 100,000 votes will
not be counted if we do not reinstate the District
Court's extension of the deadline. Post, at 3
(opinion of KAGAN, J.). The District Court
arrived
Page 14
at the same prediction, but it was a prediction, not
a finding of fact. Indeed, the District Court did not
include this prediction in the facts section of its
opinion. Democratic National Committee v.
Bostelmann, ___ F. Supp. 3d ___, ___ (WD
Wis., Sept. 21, 2020). For its part, the dissent
makes the same prediction by looking at the

number of absentee ballots that arrived after the
primary election day in April. But in the April
primary, the received-by deadline had been
extended to allow receipt of absentee ballots after
election day. The dissent's statistic tells us
nothing about how many voters might miss the
deadline when voters know that the ballots must
be received by election day. To take an analogy:
How many people would file their taxes after
April 15 if the filing deadline were changed to
April 21? Lots. That fact tells us nothing about
how many people would file their taxes after April
15 if the deadline remained at April 15.
The dissent also seizes on the fact that
Wisconsin law allows voters to request absentee
ballots until October 29, five days before election
day. But the dissent does not grapple with the
good reason why the State allows such late
requests. The State allows those late requests for
ballots because it wants to accommodate late
requesters who still want to obtain an absentee
ballot so that they can drop it off in person and
avoid lines at the polls on election day. No one
thinks that voters who request absentee ballots as
late as October 29 can both receive the ballots and
mail them back in time to be received by election
day. As we stated in April, "even in an ordinary
election, voters who request an absentee ballot at
the deadline for requesting ballots . . . will usually
receive their ballots on the day before or day of
the election." RNC, 589 U. S., at ___ (slip op., at
3). Rather, those late requesters would, after
receiving the ballots, necessarily have to drop
their absentee ballots off in person at one of the
designated locations. In short, Wisconsin
provides an option to request absentee ballots
until October 29
Page 15
for voters who decide relatively late in the game
that they would prefer to avoid lines at the polls
on election day.
The dissent's October 29-based argument
falls short for another reason as well: The
dissent's approach would actually penalize
Wisconsin for being too generous with its

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

absentee voting regime. Under the dissent's
theory, if Wisconsin had just set a more
restrictive deadline for voters to request absentee
ballots—say, two weeks before election day—there
presumably would not be a constitutional
problem with the State's election-day deadline for
receipt of absentee ballots. But it makes little
sense to penalize Wisconsin for accommodating
voters and making it easier for them to vote
absentee and avoid lines on election day.
The
dissent's
rhetoric
of
"disenfranchisement" is misplaced for still
another reason. As the dissent uses that term, the
dissent's
own
position
would
itself
"disenfranchise" voters. What about voters who
request an absentee ballot after October 29? What
about voters who mail their ballots after
November 3? What about voters who mail their
ballots by November 3 but whose ballots arrive
after November 9? Even if we reinstated the
District Court's order as the dissent would have us
do, those votes would not count. The dissent's
position would itself therefore "disenfranchise"
some voters, at least as the dissent uses the term.
All of which simply shows that the dissent's
rhetoric of disenfranchisement is mistaken.
The dissent responds that I am just
disagreeing with the facts found by the District
Court. Not so. I do not disagree with any of the
relevant historical facts that the District Court
found and that the dissent highlights. The dissent,
for example, calls attention to the District Court's
finding that nearly two million Wisconsin voters
in this election are likely to request mail ballots. I
agree.
Indeed,
the
Wisconsin
Elections
Commission has already sent nearly that number
of absentee ballots to voters who have requested
Page 16
them. The dissent notes that the influx of ballots
has imposed a serious burden on some local
election offices. I agree. The dissent points out
that the District Court found that ballots can
sometimes take two weeks to be sent and
returned in light of Postal Service delays. I agree.
The dissent highlights that the pandemic has

gotten worse, not better, in Wisconsin over the
last few weeks. I agree. And the dissent notes that
the in-person voting option can pose a health risk
to elderly and ill voters. I agree; I am fully aware
of and sensitive to that reality.
Contrary to the dissent's attempt to
characterize our disagreement as factual, the facts
in this case are largely undisputed. I have zero
disagreement with the dissent on the question of
whether COVID-19 is a serious problem. It is.
Instead, I disagree with some of the District
Court's and the dissent's speculative predictions
about how the voting process might unfold with
an election-day deadline for receipt of absentee
ballots. And I disagree with the District Court's
and the dissent's legal analysis of whether, given
the agreed-upon facts, the State has done enough
to protect the right to vote under the Constitution
and this Court's precedents, given the necessity of
having election deadlines.
In short, I agree with the dissent that COVID19 is a serious problem. But you need deadlines to
hold elections— there is just no wishing away or
getting around that fundamental point. And
Wisconsin's deadline is the same as that in 30
other States and is a reasonable deadline given all
the circumstances.
To be clear, in every election a voter who
requests an absentee ballot, particularly a voter
who waits until the last moments to request an
absentee ballot, might not receive a ballot in time
to mail it back in, or in some cases may not
receive a ballot until after election day. Or in some
cases, a voter may mail a completed ballot, but it
may get delayed
Page 17
and arrive too late to be counted.2 Indeed, in 2012
and 2016, the States rejected more than 70,000
ballots in each election because the ballots missed
the deadlines. U. S. Election Assistance
Commission, 2012 Election Administration and
Voting Survey 42 (2013); U. S. Election Assistance
Commission, 2016 Election Administration and
Voting Survey 11, 25 (2017). But moving a

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

deadline would not prevent ballots from arriving
after the newly minted deadline any more than
moving first base would mean no more close
plays. And more to the point, the fact that some
ballots will be late in any system with deadlines
does not make Wisconsin's widely used deadline
facially unconstitutional. See Crawford, 553 U. S.,
at 202-203.
Put another way, the relevant question is not
whether any voter would ever miss the deadlines.
After all, in every deadline case, the answer would
always be yes, and no election deadline would
ever be permissible. The proper question under
the Constitution is whether the deadline is
reasonable under the circumstances. See Rosario,
410 U. S., at 760. Again, Wisconsin's deadline is
the same as that in about 30 other States for the
November election and is reasonable, for the
reasons I have explained.
In any event, if a Wisconsin voter does not
receive an absentee ballot in time to cast it, the
voter still has the option of voting in person. And
Wisconsin, like many other States, demonstrated
in the April and August primary elections that it
can run an in-person election in a way that is
reasonably safe for Wisconsin voters, with socially
distanced
Page 18
lines, mask requirements, and sanitizing
protocols. The District Court acknowledged that
in-person voting can be done "safely" again in
November "if the majority of votes are cast in
advance, sufficient poll workers, polling places,
and PPE are available, and social distancing and
masking protocols are followed." Bostelmann,
___ F. Supp. 3d, at ___. If a voter requests a
ballot at the last minute—long after the State has
told voters that they should request ballots—and
if that voter does not receive a ballot by election
day, the voter still has the option of voting in
person. That said, the better option, as Wisconsin
has repeatedly announced, is for voters who wish
to vote absentee to request and submit their
ballots well ahead of time. That is what tens of
millions of voters across America—including

more than one million voters in Wisconsin—have
already done.
***
For those reasons, I concur in the denial of
the applications to vacate the stay.
-------Footnotes:
A federal court's alteration of state election
laws such as Wisconsin's differs in some respects
from a state court's (or state agency's) alteration
of state election laws. That said, under the U. S.
Constitution, the state courts do not have a blank
check to rewrite state election laws for federal
elections. Article II expressly provides that the
rules for Presidential elections are established by
the States "in such Manner as the Legislature
thereof may direct." §1, cl. 2 (emphasis added).
The text of Article II means that "the clearly
expressed intent of the legislature must prevail"
and that a state court may not depart from the
state election code enacted by the legislature.
Bush v. Gore, 531 U. S. 98, 120 (2000)
(Rehnquist, C. J., concurring); see Bush v. Palm
Beach County Canvassing Bd., 531 U. S. 70, 7678 (2000) (per curiam); McPherson v. Blacker,
146 U. S. 1, 25 (1892). In a Presidential election,
in other words, a state court's "significant
departure from the legislative scheme for
appointing Presidential electors presents a federal
constitutional question." Bush v. Gore, 531 U. S.,
at 113 (Rehnquist, C. J., concurring). As Chief
Justice Rehnquist explained in Bush v. Gore, the
important federal judicial role in reviewing statecourt decisions about state law in a federal
Presidential election "does not imply a disrespect
for state courts but rather a respect for the
constitutionally prescribed role of state
legislatures. To attach definitive weight to the
pronouncement of a state court, when the very
question at issue is whether the court has actually
departed from the statutory meaning, would be to
abdicate our responsibility to enforce the explicit
requirements of Article II." Id., at 115.
1.

Democratic Nat'l Comm. v. Wis. State Legislature (2020)

The dissent here questions why the federal
courts would have a role in that kind of case. Post,
at 11, n. 6 (opinion of KAGAN, J.). The answer to
that question, as the unanimous Court stated in
Bush v. Palm Beach County Canvassing Bd., and
as Chief Justice Rehnquist persuasively explained
in Bush v. Gore, is that the text of the Constitution
requires federal courts to ensure that state courts
do not rewrite state election laws.
In Wisconsin, a voter can track his or her
ballot online. MyVote Wisconsin, Track My
Ballot,
https://myvote.wi.gov/enus/TrackMyBallot. If a voter is concerned that the
ballot may not be received in time, the voter can
cancel the absentee ballot and request a new one
or vote in person, as long as the voter meets the
deadlines set by the municipality for doing so,
which typically fall a few days before election day.
Memorandum from M. Wolfe, Administrator of
the Wisconsin Elections Commission, to
Wisconsin County Clerks et al. (Oct. 19, 2020)
(online
source
archived
at
www.supremecourt.gov).
2.

--------

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE, DOUGHERTY, WECHT, MUNDY, JJ.

PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:

COUNTY BOARD OF ELECTIONS;
COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] - 2

ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS

PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

OPINION

JUSTICE BAER

DECIDED: September 17, 2020

In October 2019, the General Assembly of the Commonwealth of Pennsylvania
enacted Act 77 of 2019, which, inter alia, created for the first time in Pennsylvania the
opportunity for all qualified electors to vote by mail, without requiring the electors to
demonstrate their absence from the voting district on Election Day, 25 P.S. §§ 3150.113150.17. The Pennsylvania Democratic Party and several Democratic elected officials
and congressional candidates, some in their official capacity and/or as private citizens
(collectively, “Petitioner”), filed the instant action, initially in the Commonwealth Court, in
the form of a petition for review seeking declaratory and injunctive relief relating primarily
to five issues of statutory interpretation involving Act 77 and the Election Code, 25 P.S.

[J-96-2020] - 3

§§ 2600-3591.1 This Court exercised Extraordinary Jurisdiction to address these issues
and to clarify the law of this Commonwealth in time for the 2020 General Election. 2
I. FACTS AND PROCEDURAL HISTORY
On July 10, 2020, Petitioner filed its petition for review in the Commonwealth Court
against Secretary of the Commonwealth Kathy Boockvar (“Secretary”) and all 67 county
election boards (“Boards”).3 In its petition, Petitioner requested that the Commonwealth
Court issue declaratory and injunctive relief “so as to protect the franchise of absentee
and mail-in voters.” Petition for Review (“Petition”), 7/10/2020, at 5.4

1

The caption reflects the Secretary of the Commonwealth Kathy Boockvar as filing the
petition before the Court based upon her application for extraordinary review, which this
Court granted. Regardless, as noted, we now refer to the plaintiffs in the underlying
lawsuit as “Petitioner” and, as noted infra, Secretary Boockvar as “Secretary.”
2

Pursuant to 42 Pa.C.S. § 726, this Court
may, on its own motion or upon petition of any party, in any matter pending
before any court or magisterial district judge of the Commonwealth involving
an issue of immediate public importance, assume plenary jurisdiction of
such matter at any stage thereof and enter a final order or otherwise cause
right and justice to be done.

3

At the time Petitioner filed its petition, an action filed by Donald J. Trump for President,
Inc., the Republican National Committee (“RNC”), and several Republican congressional
candidates and electors (collectively, “Republican Party”) against the Secretary and the
Boards was pending in the U.S. District Court for the Western District of Pennsylvania.
In that case, the Republican Party alleged federal and state constitutional violations
stemming from the recent implementation of no excuse mail-in voting under Act 77. The
specific issues raised by the Republican Party in the federal action are, to some extent,
the mirror image of the issues raised by Petitioner in the case sub judice.
4

Concurrently, Petitioner filed both an Application for Special Relief in the Nature of an
Expedited Motion for Alternative Service and an Application for an Expedited Discovery
Schedule and Evidentiary Hearing, to which several responses were filed. On July 15,
2020, the Commonwealth Court denied Petitioner’s request for alternative service. On
July 30, 2020, the Commonwealth Court, inter alia, granted in part and denied in part
Petitioner’s application for an expedited discovery schedule and evidentiary hearing. In
this order, the Commonwealth Court set forth specific deadlines for responsive pleadings.

[J-96-2020] - 4

Specifically, Petitioner raised several discrete issues for the Commonwealth
Court’s consideration, which are discussed in more detail infra. Briefly, in Count 1,
Petitioner requested declaratory relief to confirm that Act 77 permits Boards “to provide
secure, easily accessible locations as the Board deems appropriate, including, where
appropriate, mobile or temporary collection sites, and/or drop-boxes for the collection of
mail-in ballots.” Id. at 47, ¶ 165. Additionally, Petitioner sought an injunction requiring
the Boards to “evaluate the particular facts and circumstances in their jurisdictions and
develop a reasonable plan … to ensure the expedient return of mail-in ballots.” Id. at
¶ 166.
In Count 2, Petitioner sought an injunction to “lift the deadline in the Election Code
across the state to allow any ballot postmarked by 8:00 p.m. on Election Night to be
counted if it is received by the Boards” by 5:00 p.m. on Tuesday, November 10, which is
the deadline for ballots to be received under the Federal Uniformed and Overseas
Citizens Absentee Voting Act (“UOCAVA”).5 Id. at 50, ¶ 178. In the alternative, Petitioner
posited that the Commonwealth Court could, with a few caveats, “enjoin the Counties to
extend a more tailored ballot extension deadline to the date that is 21 days after the
particular voter’s ballot is mailed by the county[.]” Id. at ¶ 179.
In Count 3, Petitioner highlighted that the “procedure for mail-in ballots often leads
to minor errors, which result in many ballots being rejected and disenfranchising voters
who believe they have exercised their right to vote.” Id. at 51, ¶ 186. In anticipation of
these expected errors, Petitioner again sought an injunction requiring Boards that have
knowledge of an incomplete or incorrectly filled out ballot and the elector’s contact

5

The UOCAVA delineates, inter alia, the process and procedure in which overseas voters
and voters in the uniformed services receive absentee ballots for federal elections. See
generally 52 U.S.C. §§ 20301-20311.

[J-96-2020] - 5

information to contact the elector and provide them “the opportunity to cure the facial
defect until the UOCAVA deadline.” Id. at 52, ¶ 187.
In Count 4, Petitioner requested a declaration that there is no statutory authority to
set aside an absentee or mail-in ballot solely for failure to place it into the official election
ballot envelope (hereinafter referred to as the “secrecy envelope”), as well as an
injunction prohibiting any “naked ballots,” which are otherwise without error, from being
invalidated.6 Id. at 54, ¶ 198-199. A “naked ballot” refers to an official mail-in ballot that
is not placed in the secrecy envelope before mailing.
Finally, in Count 5, Petitioner sought a declaration that the “Election Code’s poll
watcher residency requirement does not violate the United States Constitution’s First and
Fourteenth Amendments, its Equal Protection Clause, or the Equal Protection and Free
and Equal Elections Clauses of the Pennsylvania Constitution.” Id. at 55, ¶ 207.
On August 13, 2020, the Secretary filed an Answer and New Matter to the petition.
In addition, twenty of the named Boards filed answers with new matter, fourteen of the
Boards filed answers, and nine of the Boards filed preliminary objections.7 Requests to
intervene were filed by Donald J. Trump for President, Inc., the Republican Party of
Pennsylvania, and the RNC, as well as Joseph B. Scarnati III, President Pro Tempore,
and Jake Corman, Majority Leader of the Pennsylvania Senate, in opposition to the
petition.

The Common Cause Pennsylvania, The League of Women Voters of

6

As explained more fully below, upon receipt of an official mail-in ballot, the mail-in elector
is to mark the ballot in secret, and then fold the ballot, enclose, and securely seal the
same in the secrecy envelope provided. 25 P.S. § 3150.16(a). The secrecy envelope
“shall then be placed in the second one, on which is printed the form of declaration of the
elector, and the address of the elector’s county board of election and the local election
district of the elector.” Id.
On August 27, 2020, Petitioner filed its: (1) Answer to the Secretary’s New Matter; (2)
Answer to the new matter filed by various Boards; and (3) an omnibus memorandum of
law opposing the preliminary objections filed by several Boards.
7

[J-96-2020] - 6

Pennsylvania, The Black Political Empowerment Project (“B-PEP”), Make the Road
Pennsylvania, a project of Make the Road States (“Make the Road PA”), Patricia M.
DeMarco, Danielle Graham Robinson, and Kathleen Wise filed a joint application to
intervene as co-petitioners.
On August 16, 2020, the Secretary filed an application asking this Court to exercise
extraordinary jurisdiction over Petitioner’s petition for review.8 Highlighting, inter alia, the
two major political parties’ “diametric positions” on the interpretation of several Act 77
provisions and the fast-approaching 2020 General Election, the Secretary asserted that
“[t]he exercise of extraordinary jurisdiction by this Court is the only means available to
resolve these disputes without disrupting the election.”

Secretary’s Application for

Extraordinary Relief, 8/16/2020, at 14-16. On August 19, 2020, Petitioner filed an Answer
to the Secretary’s application, noting that it had no objection to this Court exercising its
extraordinary jurisdiction.9

8

In her application, the Secretary informed this Court that she had filed a motion in the
aforementioned federal action urging the District Court to abstain from rendering a
decision pursuant to R.R. Comm’n of Tex. v. Pullman, 312 U.S. 496 (1941) (explaining
that, where appropriate, a federal court may abstain from deciding a case to permit a
state court the opportunity to resolve a state law question). Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 17. This motion was later granted. See Trump for
President, Inc., 2020 WL 4920952, at *21 (W.D. Pa. 2020).
9

In addition, on August 18, 2020, Bucks, Chester, Montgomery, and Philadelphia County
Boards of Election filed an Answer in Support of the Secretary’s application. Likewise,
on August 19, 2020, Armstrong, Bedford, Blair, Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna, Lawrence, Lebanon, Montour, Northumberland,
Venango, and York County Boards of Election also filed an answer joining the Secretary’s
application. Several of the remaining 67 counties filed no answer letters. On August 20,
2020, answers were filed by the Republican proposed intervenors, as well as proposed
co-petitioners, The Common Cause Pennsylvania, The League of Women Voters of
Pennsylvania, B-PEP, Make the Road PA, Patricia M. DeMarco, Danielle Graham
Robinson, and Kathleen Wise.

[J-96-2020] - 7

Faced with a national election scheduled to occur on November 3, 2020 and
substantial legal issues that required the highest court of Pennsylvania’s analysis and
response to ensure a free and fair election, on September 1, 2020, this Court granted the
Secretary’s Application and set forth a schedule for supplemental briefing and filings. 10
Later, on September 3, 2020, this Court filed an order granting the motions to intervene
filed by the Republican Party of Pennsylvania (hereinafter, “Respondent”) and Joseph B.
Scarnati III, Pennsylvania Senate President Pro Tempore, and Jake Corman, Senate
Majority Leader, representing the Republican Senate Caucus (hereinafter, “Caucus”).
Applications to intervene filed by Donald J. Trump for President, Inc., and the RNC;
Common Cause of Pennsylvania, the League of Women Voters of Pennsylvania, B-PEP,
Make the Road PA, Patricia M. DeMarco, Danielle Graham Robinson, and Kathleen Wise
were denied without prejudice to the parties’ ability to file briefs as amicus curiae pursuant
to Pa.R.A.P. 531.11 The parties have submitted supplemental filings in support of their

10

The Secretary highlighted in her application for extraordinary relief to this Court that
there was insufficient time to engage in full pre-trial proceedings and discovery before
applications for summary relief could be filed. See Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 13-14. In fact, the Secretary explained that because
of all the uncertainties surrounding the case, it was unclear “whether discovery,
dispositive motions, and a hearing were even necessary.” Id. at 14 n.3. She maintained
that Petitioner’s application to expedite discovery and a hearing in Commonwealth Court
was premature. Thus, the Secretary sought extraordinary review of the discrete legal
claims alleged in the lawsuit as if at the summary relief stage of the case. Cognizant of
our authority when exercising extraordinary jurisdiction, this Court granted the Secretary’s
request. See Order dated 9/1/2020. Accordingly, because of the intense time pressure
confronting this Court, we do not address the various procedural filings in the case and,
rather, address only the five discrete legal claims before us. See 42 Pa.C.S. §726 (this
Court may “assume plenary jurisdiction of [any matter pending before any court] at any
stage thereof and enter a final order or otherwise cause right and justice to be done”).
After this Court granted the Secretary’s application and set a schedule for supplemental
filings, Bryan Cutler and Kerry Bennighoff, Speaker and Majority Leader of the
Pennsylvania House of Representatives, respectively, filed an Application to Intervene,
while State Senator Jay Costa, on behalf of the Senate Democratic Caucus filed an
11

[J-96-2020] - 8

respective positions, and this matter is now ripe for disposition of the discrete five legal
issues before us.
II. RELEVANT OVERARCHING PRINCIPLES OF LAW
Generally speaking, each of the five issues presented by Petitioner presents a pure
question of law, over which our standard of review is de novo and our scope of review is
plenary. In re Vencil, 152 A.3d 235, 241 (Pa. 2017). Specifically, in large part, Petitioner
requests relief in the form of declarations of law regarding Act 77 pursuant to the
Declaratory Judgments Act, 42 Pa.C.S. §§ 7531-7541.

Accordingly, we address the

issues presented mindful of the following.
The Declaratory Judgments Act, which is to be liberally construed and
administered, was promulgated to “settle and to afford relief from uncertainty and
insecurity with respect to rights, status, and other legal relations[.]” 42 Pa.C.S. § 7541(a).
Pertinent to the instant matter, this Act provides, in relevant part, that “[a]ny person . . .
whose rights, status, or other legal relations are affected by a statute . . . may have
determined any question of construction or validity arising under the . . . statute . . . and
obtain a declaration of rights, status, or other legal relations thereunder.” 42 Pa.C.S.
§ 7533.12
Application to Intervene, which was later amended to include State Representative Frank
Dermody, on behalf of the House Democratic Caucus. Because of the necessary
expediency of reaching a decision in this case, and given that adequate advocacy has
been provided, these applications, submitted close to this Court’s deadline for
supplemental filings, are denied. In any case, the requests are moot given the issuance
of our decision.
Notably, while Petitioner has styled its requested relief as “injunctive” in reality it seeks
declaratory relief. We will treat its prayers for relief accordingly. In this regard, as noted,
essentially, we are treating the matter as if it is at the summary relief stage. See Hosp. &
Healthsystem Ass'n of Pa. v. Com., 77 A.3d 587, 602 (Pa. 2013) (“An application for
summary relief may be granted if a party’s right to judgment is clear and no material issues
of fact are in dispute.”) (citation omitted). See also Pa.R.A.P. 1532(b) (providing that “[a]t
12

[J-96-2020] - 9

When presented with matters of statutory construction, this Court is guided by
Pennsylvania’s Statutory Construction Act, 1 Pa.C.S. § 1501-1991. Under this Act, “the
object of all statutory construction is to ascertain and effectuate the General Assembly’s
intention.”

Sternlicht v. Sternlicht, 876 A.2d 904, 909 (Pa. 2005) (citing 1 Pa.C.S.

§ 1921(a) (“The object of all interpretation and construction of statutes is to ascertain and
effectuate the intention of the General Assembly”)). When the words of a statute are clear
and unambiguous, “the letter of it is not to be disregarded under the pretext of pursuing
its spirit.” 1 Pa.C.S. § 1921(b); see also Sternlicht, supra. However, when the words of
a statute are not explicit, the General Assembly’s intent is to be ascertained by consulting
a comprehensive list of specific factors set forth in 1 Pa.C.S. § 1921(c).

See also

Pennsylvania Associated Builders & Contractors, Inc. v. Commonwealth Dep’t of Gen.
Servs., 932 A.2d 1271, 1278 (Pa. 2007) (recognizing that when the “words of the statute
are not explicit, the General Assembly’s intent is to be ascertained by considering matters
other than statutory language, like the occasion and necessity for the statute; the
circumstances of its enactment; the object it seeks to attain; the mischief to be remedied;
former laws; consequences of a particular interpretation; contemporaneous legislative
history; and legislative and administrative interpretations”).
Moreover, we recognize that in this Commonwealth, “[e]lections shall be free and
equal; and no power, civil or military, shall at any time interfere to prevent the free exercise
of the right of suffrage.” PA. CONST. art. I, § 5 (hereinafter referred to as the “Free and
Equal Elections Clause”). The broad text of this specific provision “mandates clearly and
unambiguously, and in the broadest possible terms, that all elections conducted in this
Commonwealth must be ‘free and equal.’” League of Women Voters v. Commonwealth,
178 A.3d 737, 804 (Pa. 2018) (emphasis in original). Stated another way, this clause was
any time after the filing of a petition for review in an appellate or original jurisdiction matter,
the court may on application enter judgment if the right of the applicant thereto is clear.”).
[J-96-2020] - 10

“specifically intended to equalize the power of voters in our Commonwealth’s election
process[.]” Id. at 812.
Finally, this Court has previously observed that the purpose and objective of the
Election Code, which contains Act 77, is “[t]o obtain freedom of choice, a fair election and
an honest election return[.]” Perles v. Hoffman, 213 A.2d 781, 783 (Pa. 1965). To that
end, the Election Code should be liberally construed so as not to deprive, inter alia,
electors of their right to elect a candidate of their choice. Id. at 784. With these general
principles in mind, this Court will address in turn each of the five discrete issues presented
by Petitioner.
III. ISSUES
A. COUNT I OF THE PETITION FOR REVIEW
Section 3150.16(a) of the Election Code, 25 P.S. § 3150.16(a), is part of Act 77
and pertinent to several issues in this matter. That statutory provision, which is entitled
“Voting by mail-in electors,” states as follows:
(a) General rule.--At any time after receiving an official mail-in ballot, but
on or before eight o’clock P.M. the day of the primary or election, the mailin elector shall, in secret, proceed to mark the ballot only in black lead pencil,
indelible pencil or blue, black or blue-black ink, in fountain pen or ball point
pen, and then fold the ballot, enclose and securely seal the same in the
envelope on which is printed, stamped or endorsed “Official Election Ballot.”
This envelope shall then be placed in the second one, on which is printed
the form of declaration of the elector, and the address of the elector’s county
board of election and the local election district of the elector. The elector
shall then fill out, date and sign the declaration printed on such envelope.
Such envelope shall then be securely sealed and the elector shall send
same by mail, postage prepaid, except where franked, or deliver it in person
to said county board of election.
25 P.S. § 3150.16(a). The last sentence of this provision is the primary focus of the first
question of law that we will address. The plain language of this sentence allows an elector
to mail her securely sealed envelope containing the elector’s “Official Election Ballot” to

[J-96-2020] - 11

her “county board of election” or, more relevant to this issue, “deliver it in person to said
county board of election.” Id.
In Count I of its petition for review, Petitioner seeks a declaration that a reasonable
interpretation of Section 3150.16(a) of the Election Code permits county boards of
election to provide electors with as many secure and easily accessible locations to deliver
personally their mail-in ballots as each board deems appropriate.13 Petitioner suggests
that these locations can consist of mobile or temporary collection sites and that county
boards of election may utilize secure drop-boxes for the collection of hand-delivered mailin ballots.
Indeed, Petitioner contends that, by enacting Section 3150.16(a) of the Election
Code, the General Assembly clearly and unambiguously intended to provide the various
county boards of election with the option of accepting hand-delivered mail-in ballots at
any location controlled by the boards, not just at the boards’ central offices. In support of
this position, Petitioner points out, inter alia, that pursuant to Section 3151 of the Election
Code, the General Assembly empowered each county board of election to receive “ballot

Under Count I, Petitioner also sought relief “in the form of an affirmative injunction
requiring that county Boards are required to evaluate the particular facts and
circumstances in their jurisdictions and develop a reasonable plan reflecting the needs of
the citizens of the county to ensure the expedient return of mail-in ballots.” Petition at 47,
¶ 166. Petitioner accurately concedes that it must establish a clear right to this relief. Id.
at ¶ 167; see Roberts v. Bd. of Directors of Sch. Dist. of City of Scranton, 341 A.2d 475,
478 (Pa. 1975) (explaining that, “for a mandatory injunction to issue, it is essential that a
clear right to relief in the plaintiff be established”). To the extent that Petitioner continues
to seek injunctive relief in this form, we summarily decline the request, as there simply is
no legal authority that would allow this Court to mandate that the county boards of election
“evaluate the particular facts and circumstances in their jurisdictions and develop a
reasonable plan reflecting the needs of the citizens of the county to ensure the expedient
return of mail-in ballots.” In other words, Petitioner cannot establish a clear right to relief
with regard to their request for a mandatory injunction.
13

[J-96-2020] - 12

boxes and returns” in their offices or “in any such other place as has been designated by
the board.”14 25 P.S. § 3151.
The Secretary builds on Petitioner’s argument.

In so doing, the Secretary

highlights that, in construing Section 3150.16(a) of the Election Code, the Court should
consider that the General Assembly defined “county board” or “board” as meaning “the
county board of elections of any county herein provided for.” 25 P.S. § 2602. According
to the Secretary, this definition clarifies that, for purposes of Section 3150.16(a), “county
board of election” refers to a municipal body, not a physical office or address. In other
words, the Secretary believes that, when this definition is used for purposes of Section
3150.16(a), that Section unambiguously permits voters to deliver mail-in ballots in person
to places designated by county boards of election, other than their respective office
addresses.
In further support of this position, the Secretary asserts that the Election Code
contemplates that county boards of election will operate out of multiple locations. See 25
P.S. § 2645(b) (stating, inter alia, that the “county commissioners or other appropriating
authorities of the county shall provide the county board with suitable and adequate offices
at the county seat, property furnished for keeping its records, holding its public sessions
and otherwise performing its public duties, and shall also provide, such branch offices for
the board in cities other than the county seat, as may be necessary”). Echoing Petitioner’s
argument, the Secretary further suggests that the Election Code anticipates that “ballot
14

Section 3151 of the Election Code states, in full, as follows:
Each county board of elections shall cause its office to remain open, in
charge of one or more members of the board, during the entire duration of
each primary and election, and after the close of the polls, until all the ballot
boxes and returns have been received in the office of the county elections
board, or received in such other place as has been designated by the board.

25 P.S. § 3151.

[J-96-2020] - 13

boxes and returns” may be received “in the office of the county elections board, or
received in such other places as has been designated by the board.” 25 P.S. § 3151.
The Secretary insists that the Election Code is devoid of any language limiting
county boards of election from accepting delivery of mail-in votes solely at their primary
office addresses. In fact, the Secretary takes the position that to hold otherwise would
contravene the plain language of the Election Code. However, assuming arguendo that
this Court deems the Election Code ambiguous on this point, the Secretary advocates
that a reasonable interpretation of the Code nonetheless authorizes county boards of
election to utilize multiple drop-off sites to accept hand-delivered mail-in ballots.
In this regard, the Secretary focuses on the statutory considerations to which this
Court may refer when construing an ambiguous statute, 1 Pa.C.S. § 1921(c), as
described supra. More specifically, the Secretary posits that the General Assembly
enacted Act 77 with the object of increasing the electorate’s participation in the electoral
process by making it easier and more convenient to vote, providing all electors with the
option to mail in their ballots. The Secretary opines that, consistent with this objective,
the General Assembly intended to allow county boards of election to accept handdelivered mail-in ballots at locations besides the boards’ central office addresses. The
Secretary takes the position that, if this Court deems reasonable the various parties’
competing interpretations of the Election Code, then the Court should construe the Code
in favor of the right to vote.
Contrary to the contentions of the Secretary and Petitioner, Respondent submits
that the Election Code prohibits county boards of election from designating locations other
than their established county offices for hand delivery of mail-in ballots. Rather, according
to Respondent, Section 3150.16(a) of the Election Code unambiguously mandates that
an elector must either mail her mail-in ballot to the office address of the county board of

[J-96-2020] - 14

election or deliver that ballot in person to the same office address. Stated differently,
Respondent takes the position that the Election Code requires electors either to place
their mail-in ballots, addressed to their county boards of election, into the United States
Postal Service’s [“USPS”] system or personally to deliver their mail-in ballot to that office.
In further support of this position, Respondent highlights the Election Code’s use
of the word “office” in the “deadline” provision for mail-in votes, Section 3150.16(c), which
states that “a completed mail-in ballot must be received in the office of the county board
of elections no later than eight o’clock P.M. on the day of the primary or election.” 25 P.S.
§ 3150.16(c). Respondent also points out that the Election Code requires that a secure
envelope containing a mail-in ballot have printed upon it “the address of the elector’s
county board of election,” so that “the elector shall send same by mail, postage prepaid,
except where franked, or deliver it in person to said county board of election.” 25 P.S.
§ 3150.16(a). Thus, Respondent believes that, in sum, these statutory directives clearly
indicate that the General Assembly intended that electors either mail or personally deliver
mail-in ballots to the established office addresses of the county boards of election.
Next, Respondent reminds us that the Secretary and Petitioner are asking this
Court to interpret the Election Code to allow voters to deliver their mail-in ballots to
locations that will include unmanned drop-boxes. Respondent contends that Petitioner
and the Secretary fail to articulate where the Election Code mentions “drop-boxes” or
“satellite locations.” Respondent then asserts that, if this Court were to interpret the
Election Code as Petitioner and the Secretary propose, the Court would invalidate an
alleged requirement of Act 77, i.e., the need to deliver mail-in ballots to the established
offices of county boards of election.
In addition, Respondent suggests that the preferred interpretation of the Election
Code advocated by the Secretary and Petitioner permits the individual counties to

[J-96-2020] - 15

implement differing ballot-return regimes. Respondent avers that this outcome would
violate principles of equal protection. In support, Respondent quotes Pierce v. Allegheny
County Bd. of Elections, 324 F.Supp.2d 684, 697 (W.D. Pa. 2003), for the proposition that
“[a] state must impose uniform statewide standards in each county in order to protect the
legality of a citizen’s vote. Anything less implicates constitutional problems under the
equal protection clause of the Fourteenth Amendment.” For these reasons, Respondent
contends that the interpretation of the Election Code posited by Petitioner and the
Secretary must fail.
The primary argument of the Caucus largely tracks that of Respondent, particularly
the contention that the relief proposed by Petitioner and the Secretary would create an
equal protection problem. According to the Caucus, pursuant to the solution offered by
Petitioner and the Secretary, some counties will provide more locations for voters to
deliver their mail-in ballots, while other counties will allow voters to convey their mail-in
ballots solely to the office addresses of the county boards of election. The Caucus views
this possibility as a violation of equal protection.
Notably, in an apparent break from Respondent’s position, subject to its equal
protection argument, the Caucus seems to concede that Pennsylvania law allows county
boards of election to provide for in person delivery of mail-in ballots at more than one
county election board office located within the county’s borders. However, the Caucus
insists that additional offices must comply with various requirements, including those
outlined in Section 2645(b) of the Election Code. See 25 P.S. § 2645(b) (explaining that
“[t]he county commissioners or other appropriating authorities of the county shall provide
the county board with suitable and adequate offices at the county seat, property furnished
for keeping its records, holding its public sessions and otherwise performing its public
duties, and shall also provide, such branch offices for the board in cities other than the

[J-96-2020] - 16

county seat, as may be necessary”). In closing, the Caucus submits that unstaffed dropboxes would not constitute a branch office of a county board of election and are otherwise
not authorized by the Election Code as a method for collecting hand-delivered mail-in
ballots.
Turning to our analysis, we observe that the question before us consists of the
following two-part query regarding the Election Code: Does the Election Code allow a
Pennsylvania voter to deliver her mail-in ballot in person to a location other than the
established office address of her county’s board of election, and if so, what means can
county boards of election utilize to accept hand-delivered mail-in ballots? For the reasons
that follow, we find that the parties’ competing interpretations of the Election Code on this
issue are reasonable, rendering the Code ambiguous as it relates to this query. See A.S.
v. Pennsylvania State Police, 143 A.3d 896, 905-06 (Pa. 2016) (explaining that a “statute
is ambiguous when there are at least two reasonable interpretations of the text”).
In reaching this conclusion, we observe that Section 3150.16(a) of the Election
Code explicitly allows an elector to deliver in person her securely sealed envelope
containing her mail-in ballot “to said county board of election.” 25 P.S. § 3150.16(a). The
Election Code simply defines “county board” or “board” to mean “the county board of
elections of any county herein provided for.” 25 P.S. § 2602(c). Thus, the language used
by the Legislature regarding where a mail-in ballot may be delivered in person is not solely
limited to the official central office of the county board of election, and other sections of
the Election Code permit a board of election to operate outside of its principal office. See,
e.g., 25 P.S. § 2645(b) (stating, inter alia, that the “county commissioners or other
appropriating authorities of the county shall provide the county board with suitable and
adequate offices at the county seat, property furnished for keeping its records, holding its
public sessions and otherwise performing its public duties, and shall also provide, such

[J-96-2020] - 17

branch offices for the board in cities other than the county seat, as may be necessary”).
Therefore, on the one hand, these provisions tend to favor the view of Petitioner and the
Secretary that the General Assembly did not intend to limit voters to delivering personally
their mail-in ballots solely to the established office addresses of their county boards of
election. Rather, as these parties rationally contend, when this definition is utilized for
purposes of construing Section 3150.16(a), that exercise suggests that a voter can hand
deliver her mail-in ballot to any location designated by the county board of election as a
place where the board will accept these ballots.
Alternatively, we recognize that Section 3150.16(a) of the Election Code directs
that an elector may deliver her mail-in ballot in person only to “the county board of
election.”

25 P.S. § 3150.16(a).

As Respondent in particular understandably

emphasizes, neither this statutory language nor any other provision of the Election Code
explicitly empowers a county board of election to establish satellite mail-in ballot collection
facilities or to utilize secure drop-boxes for purposes of accepting hand-delivered mail-in
ballots. These observations, when viewed in the totality of the various arguments, lead
us to conclude that the parties’ competing interpretations are reasonable.
Accordingly, we turn to interpretive principles that govern ambiguous statutes
generally and election matters specifically.

In so doing, we are mindful of the

“longstanding and overriding policy in this Commonwealth to protect the elective
franchise.” Shambach v. Bickhart, 845 A.2d 793, 798 (Pa. 2004) (citations omitted).
Moreover, it is well-settled that, “although election laws must be strictly construed to
prevent fraud, they ordinarily will be construed liberally in favor of the right to vote.” Id.
(internal quotation marks omitted). Indeed, “[o]ur goal must be to enfranchise and not to
disenfranchise [the electorate].” In re Luzerne Cty. Return Bd., 290 A.2d 108, 109 (Pa.
1972). Lastly, in resolving statutory ambiguity, we may consider, inter alia, the occasion

[J-96-2020] - 18

and necessity for, the mischief to be remedied by, and the object to be obtained by the
statute. 1 Pa.C.S. § 1921(c)(1), (3), and (4), respectively.
With all of that said, we need not belabor our ultimate conclusion that the Election
Code should be interpreted to allow county boards of election to accept hand-delivered
mail-in ballots at locations other than their office addresses including drop-boxes. This
conclusion is largely the result of the clear legislative intent underlying Act 77, which
animates much of this case, to provide electors with options to vote outside of traditional
polling places. Section 3150.16(a) of the Election Code undeniably exemplifies this intent
by granting the Pennsylvania electorate the right to vote by way of a mail-in ballot beyond
the circumstances that ordinarily allow this alternative, such as voter absenteeism.
Accordingly, although both Respondent and the Caucus offer a reasonable
interpretation of Section 3150.16(a) as it operates within the Election Code, their
interpretation restricts voters’ rights, as opposed to the reasonable interpretation tendered
by Petitioner and the Secretary. The law, therefore, militates in favor of this Court
construing the Election Code in a manner consistent with the view of Petitioner and the
Secretary, as this construction of the Code favors the fundamental right to vote and
enfranchises, rather than disenfranchises, the electorate.
In light of this conclusion, we will briefly address the equal protection argument of
Respondent and the Caucus. The premise of that argument, as detailed supra, is that, if
this Court interprets the Election Code in a manner that is consistent with the position of
Petitioner and the Secretary, which we have, then the county boards of election will
employ myriad systems to accept hand-delivered mail-in ballots, which allegedly will be
unconstitutionally disparate from one another in so much as some systems will offer more
legal protections to voters than others will provide. However, the exact manner in which
each county board of election will accept these votes is entirely unknown at this point;

[J-96-2020] - 19

thus, we have no metric by which to measure whether any one system offers more legal
protection than another, making an equal protection analysis impossible at this time.
Accordingly, the equal protection argument of Respondent and the Caucus does not alter
our conclusion in this matter.
Thus, for these reasons, this Court declares that the Election Code permits county
boards of election to accept hand-delivered mail-in ballots at locations other than their
office addresses including drop-boxes.15
B. COUNT II OF THE PETITION FOR REVIEW
In its second count, Petitioner presents this Court with an as-applied challenge to
the Election Code’s deadline for receiving ballots (“received-by deadline”), which requires
mail-in and absentee ballots to be returned to Boards no later than 8:00 p.m. on Election
Day, 25 P.S. §§ 3146.6(c), 3150.16(c).

It contends that strict enforcement of this

deadline, in light of the current COVID-19 pandemic and alleged delays in mail delivery
by the USPS, will result in extensive voter disenfranchisement in violation of the
Pennsylvania Constitution’s Free and Equal Elections Clause.
As noted above, the Free and Equal Elections Clause provides that “[e]lections
shall be free and equal; and no power, civil or military, shall at any time interfere to prevent
the free exercise of the right to suffrage.” PA. CONST. art. I, § 5. Petitioner interprets this
provision as forbidding the Boards from interfering with the right to vote by failing to act in
15

We note that the Secretary has issued guidelines in this regard specifying that the
Boards “may provide voters with access to a secure ballot return receptacle.” See
Secretary’s Post-Submission Communication dated 8/24/2020, setting forth the
Secretary’s Absentee and Mail-in Ballot Return Guidance at 1.1. Additionally, and
consistent with the requirement that all votes must be cast by Election Day, these
guidelines specify that: “Authorized personnel should be present at ballot return sites
immediately prior to 8:00 p.m. or at the time the polls should otherwise be closed”; “At
8:00 p.m. on election night, or later if the polling place hours have been extended, all
ballot sites, and drop-boxes must be closed and locked”; and “Staff must ensure that no
ballots are returned to ballot return sites after the close of the polls.” Id. at 3.3.

[J-96-2020] - 20

a timely manner so as to allow electors to participate in the election through mail-in voting.
Petition at 49, ¶ 176.
In support of its as-applied challenge in regard to the upcoming General Election,
Petitioner recounts this Commonwealth’s recent experience during the June Primary. It
emphasizes that, during the Primary, the Boards were inundated with over 1.8 million
requests for mail-in ballots, rather than the expected 80,000 - 100,000, due in large part
to the COVID-19 pandemic, which caused many voters to be wary of congregating in
polling places.

Petitioner’s Brief at 2, 51.

Petitioner asserts that “[t]his crush of

applications created massive disparities in the distribution and return of mail-in ballots.”
Petition at 24, ¶ 70.
It explains that, while some Boards were able to process the requests within the
statutory requirements established by Act 77,16 other boards, especially those in areas
hard-hit by the pandemic, were unable to provide electors with ballots in time for the
electors to return their ballot in accord with the statutory deadline. Petition at 23, ¶ 66.
Indeed, it avers that in Delaware County, thousands of ballots were “not mailed out until
the night” of the Primary, making timely return impossible. Petition at 26, ¶ 77. Bucks
County apparently experienced similar delays.
To remedy this situation, the Election Boards of Bucks and Delaware Counties
sought relief in their county courts.17 Recognizing that the Election Code “implicitly

Act 77, inter alia, requires Boards to verify an applicant’s submitted information to
determine whether the applicant is “qualified to receive an official mail-in ballot.” 25 P.S.
§ 3150.12b(a). After approving an application, the Election Code, as amended by Act 77,
instructs that “the board shall deliver or mail official mail-in ballots to the additional electors
within 48 hours.” 25 P.S. § 3150.15.
16

17

The Election Code grants courts of common pleas the authority to address situations
which arise on the day of a primary or general election, 25 P.S. § 3046. Section 3046
entitled “Duties of common pleas court on days of primaries and elections,” provides:

[J-96-2020] - 21

granted [the courts the] authority to provide relief when there is a natural disaster or
emergency” that threatens to deprive electors of the opportunity to participate in the
electoral process, the Courts of Common Pleas of Bucks and Delaware Counties
extended the deadline for the return of mail-in ballots for seven days, so long as the ballot
was postmarked by the date of the Primary. In re: Extension of Time for Absentee and
Mail-In Ballots to be Received By Mail and Counted in the 2020 Primary Election, No.
2020-02322-37 (C.P. Bucks) (McMaster, J.); see also In re: Extension of Time for
Absentee and Mail-In Ballots to be Received By Mail and Counted in the 2020 Primary
Election, No.-CV 2020-003416 (C.P. Delaware).
Petitioner also observes that voters in six counties received an extension to the
return deadline pursuant to an executive order issued by Governor Wolf, invoking the
Emergency Management Services Code, 35 Pa.C.S. § 7301(c).18 In Executive Order No.
2020-02, Governor Wolf addressed impediments to timely ballot return arising from the
pandemic as well as civil unrest that had arisen immediately before the Primary in the
specified counties following the killing of George Floyd by police officers.

The

impediments included road closures, public transportation disruptions, and curfews. To
combat the potential disenfranchisement of voters, especially in light of the
“unprecedented number” of mail-in ballots due to the pandemic, the Governor extended
During such period said court shall act as a committing
magistrate for any violation of the election laws; shall settle
summarily controversies that may arise with respect to the
conduct of the election; shall issue process, if necessary, to
enforce and secure compliance with the election laws; and
shall decide such other matters pertaining to the election as
may be necessary to carry out the intent of this act.
25 P.S. § 3046.
18

The affected counties were Allegheny, Dauphin, Delaware, Erie, Montgomery, and
Philadelphia.

[J-96-2020] - 22

the received-by deadline for seven days, so long as the ballots were postmarked by the
date of the Primary. Governor Wolf, Executive Order No. 2020-02 (June 1, 2020).
While voters in specified counties benefitted from extensions of time to return their
ballots, Petitioner emphasizes that the Commonwealth Court rejected a request for a
statewide extension of the ballot received-by deadline in Delisle v. Boockvar, 319 M.D.
2020 (Pa. Cmwlth. June 2, 2020) (Memorandum Opinion), favoring instead a county-bycounty remedy. Indeed, while not mentioned by Petitioner, this Court additionally denied
relief to a petitioner seeking a statewide extension of the ballot received-by deadline
weeks before the June Primary, where the petitioner similarly argued for the extension
based upon the overwhelming number of mail-in ballot applications and delays in the
USPS system. Disability Rights Pa. v. Boockvar, No. 83 MM 2020, 2020 WL 2820467
(Pa. May 15, 2020).
In light of the lessons learned from the June Primary, Petitioner asserts that a
statewide remedy is now necessary for the General Election. It suggests that the lack of
a statewide remedy risks an equal protection challenge as only some voters would benefit
from the extended deadline based on their county court’s determination. Petition at 3233, ¶ 105. Moreover, it emphasizes that a statewide order from this Court early in the
election process would reduce voter confusion, as compared to the last-minute countyby-county relief granted during the Primary to address emergency situations. Petitioner’s
Brief at 26-27 n.9.
Petitioner avers that the difficulties encountered by Boards processing the ballot
applications prior to the June Primary will only be exacerbated in the November General
Election. It emphasizes the continued grip of the pandemic, and a potential second wave
of infections, which will result in more electors seeking to exercise their right to vote by
mail. Petition at 49, ¶ 173-175. Additionally, it recognizes the undisputed fact that heavily

[J-96-2020] - 23

contested Presidential elections involve substantially greater voter participation than
largely uncontested primaries, further observing that “[i]t is normal in elections with
significant public attention for there to be a flood of registrations received right before
deadlines.” Petition at 26, ¶ 79. It highlights that the Secretary estimates that 3 million
electors will seek mail-in or absentee ballots for the General Election in contrast to the
1.5 million votes cast by mail at the Primary, and the pre-pandemic assumption of 80,000
- 100,000 absentee and mail-in ballots. Petitioner’s Brief at 51.
Petitioner asserts that the overwhelming demand on the Boards will be
exacerbated by delays in the USPS mail delivery system.

Petitioner observes that

historically the law presumed that a document placed in a mail collection box would be
delivered within three days of placement, rather than the current two to five day delivery
expectation of the USPS. Id. at 50. Petitioner avers that substantial delivery delays have
resulted from a combination of recent operational changes at the USPS and decreased
staffing caused by the pandemic. Id. at 20-21. It emphasizes that the USPS recently
warned that there is a “significant risk” that Pennsylvania voters who submit timely ballot
requests will not have sufficient time to complete and return their ballot to meet the
Election Code’s received-by deadline. Id. at 2-3 (quoting USPS General Counsel and
Executive Vice President Thomas Marshall’s July 29, 2020 letter to the Secretary
(hereinafter “USPS General Counsel’s Letter”), discussed in detail infra).
Petitioner avers that this Court has the authority to act to protect electors’ right to
cast their ballot, as protected by Pennsylvania’s Free and Equal Elections Clause. It
emphasizes that “‘[c]ourt[s] possess broad authority to craft meaningful remedies’ when
‘regulations of law . . . impair the right of suffrage.’” Id. at 48-49 (quoting League of
Women Voters of Pa., 178 A.3d at 809, 822) (alterations in original). It observes that
courts have exercised that authority to provide equitable relief to voters faced with natural

[J-96-2020] - 24

disasters that impede their right to vote.

As an example, Petitioner highlights the

Commonwealth Court’s actions in In re General Election-1985, 531 A.2d 836, 838-39 (Pa.
Cmwlth. 1987), in which the court affirmed a two-week suspension in an election where
severe flooding prevented electors from safely voting due to “circumstances beyond their
control.” Petitioner asserts that Pennsylvania electors in the November General Election
similarly face a threat to their ability to vote due to no fault of their own, but instead due
to a perfect storm combining the dramatic increase in requested ballots due to the COVID19 pandemic and the inability of the USPS to meet the delivery standards required by the
Election Code.
Accordingly, Petitioner asks this Court to grant an injunction ordering the
Respondent to “lift the deadline in the Election Code across the state in a uniform
standard to allow any ballot postmarked by 8 p.m. on Election Night to be counted if it is
received by the deadline for ballots to be received” under the UOCAVA, specifically by
5:00 p.m. on Tuesday, November 10.19 Petition at 50, ¶ 178. Recognizing that the
Secretary recommends a three-day extension, as detailed below, Petitioner counters that
“[a] 7-day extension to the ballot receipt deadline is consistent with the USPS’s
recommendation to the Secretary that voters should mail their ballots to Boards no later
than October 27, 2020,” which is seven days prior to Election Day. Petitioner’s Brief at
53 (referencing USPS General Counsel’s Letter at 2). While it acknowledges that a
seven-day extension could impact other post-election deadlines as discussed infra, it

19

As adopted in Pennsylvania, the UOCAVA provides that military and overseas ballots
will be counted if received by the county board by “5:00 p.m. on the seventh day following
the election,” which this year will be November 10, 2020. 25 Pa.C.S. § 3511.
As an alternative remedy, Petitioner proposes that each ballot could have an
individualized deadline twenty-one days after the specific ballot is mailed by the county,
so long as it is received before the UOCAVA deadline. Petition at 50, ¶ 108, 179.

[J-96-2020] - 25

asserts that this Court has the authority to alter those deadlines to be consistent with the
relief granted in this case. Id. at 55.
As noted, the Secretary sought extraordinary jurisdiction to allow this Court to
resolve the various challenges to the mail-in ballot process in an orderly and timely
fashion before the impending General Election, where she estimates more than three
million Pennsylvanians will exercise their right to vote by mail. Secretary’s Brief at 1. The
Secretary observes that she previously advocated against a similar request for an
extension of the received-by deadline for mail-in and absentee ballots in the Crossey
case. She, however, reassessed her position following receipt of the USPS General
Counsel’s Letter, which she attaches to her Application. Secretary’s Application at 10,
Exhibit A.
Significantly, the USPS General Counsel’s Letter opined that “certain deadlines for
requesting and casting mail-in ballots are incongruous with the Postal Service’s delivery
standards,” providing for 2-5 day delivery for domestic First Class Mail and 3-10 day
delivery for domestic Marketing Mail. USPS General Counsel’s Letter at 1. As the parties
recognize, the Election Code designates October 27, 2020, as the last day for electors to
request a mail-in ballot. 25 P.S. § 3150.12a(a) (“Applications for mail-in ballots shall be
processed if received not later than five o'clock P.M. of the first Tuesday prior to the day
of any primary or election.”). Even if a county board were to process and mail a ballot the
next day by First Class Mail on Wednesday, October 28th, according to the delivery
standards of the USPS, the voter might not receive the ballot until five days later on
Monday, November 2nd, resulting in the impossibility of returning the ballot by mail before
Election Day, Tuesday November 3rd. The USPS General Counsel’s Letter, instead,
advised that voters should mail their ballots no later than October 27, 2020 in order to
meet the received-by deadline. USPS General Counsel’s Letter at 2. “This mismatch

[J-96-2020] - 26

[between the USPS’s delivery standards and the Election Code deadlines] creates a risk
that ballots requested near the deadline under state law will not be returned by mail in
time to be counted under [Pennsylvania’s Election Code].” Id. at 1.
In light of the information contained in the USPS General Counsel’s Letter, the
Secretary concludes that a temporary extension of the Election Code’s received-by
deadline is necessary for the upcoming General Election to ensure a free and equal
election as protected by Article I, Section 5 of the Pennsylvania Constitution. Secretary’s
Application at 27. The Secretary specifically asks that this Court order an extension of
the deadline to allow the counting of any ballot postmarked by Election Day and received
on or before the third day after Election Day, which is November 6, 2020. 20 Id. at 27-28.
The Secretary deems a three-day extension of the deadline, rather than the seven-day
extension sought by Petitioner, to be sufficient to address the potential delay in mailing
while also not disrupting other elements of election administration. Id. at 29.
The Secretary emphasizes that the remedy sought here is not the invalidation of
the Election Code’s received-by deadline, but rather the grant of equitable relief to extend
temporarily the deadline to address “mail-delivery delays during an on-going public health
disaster.” Secretary’s Brief at 18. As no party is seeking the invalidation of the receivedby deadline, the Secretary rejects the suggestion of Respondent and the Caucus that the
remedy would trigger the nonseverability provision of Act 77, reasoning that the Court
would be granting “a temporary short extension to address the exigencies of a natural
She specifically recommends that the Court “order that ballots mailed by voters by 8:00
p.m. on Election Day be counted if they are otherwise valid and received by the county
boards of election by November 6, 2020. Ballots received within this period that lack a
postmark or other proof of mailing, or for which the postmark or other proof of mailing is
illegible, should enjoy a presumption that they were mailed by Election Day.” Secretary’s
Application at 29. We observe that this proposal therefore requires that all votes be cast
by Election Day but does not disenfranchise a voter based upon the absence or illegibility
of a USPS postmark that is beyond the control of the voter once she places her ballot in
the USPS delivery system.
20

[J-96-2020] - 27

disaster” rather than “the invalidation of a statutory deadline.” Id. at 21 (referencing
Section 11 of Act 77 set forth infra). She emphasizes that the statutory deadline would
remain unchanged for future elections.
The Secretary observes that courts have previously granted temporary equitable
relief to address natural disasters, given that neither the Election Code nor the
Constitution “provides any procedure to follow when a natural disaster creates an
emergency situation that interferes with an election.” Id. at 19 (citing In re: General
Election-1985, 531 A.2d at 839).21 She argues that the current pandemic is equivalent to
other natural disasters and that it necessitates the requested extension of the Election
Code’s received-by deadline for mail-in ballots.
In contrast, Respondent contends that Petitioner asks this Court to rewrite the plain
language of Act 77 and to substitute its preferred ballot deadline for the statutory deadline
that resulted from the legislative compromise during the bi-partisan enactment of Act 77.
It emphasizes that this Court “recently reaffirmed [that] the judiciary ‘may not usurp the
province of the legislature by rewriting [statutes].’” Respondent’s Supplemental Brief at
16 (quoting In re Fortieth Statewide Investigating Grand Jury, 197 A.3d 712, 721 (Pa.
2018)).
Judicial restraint, according to Respondent, is especially necessary in regard to
election law, where this Court has long recognized that “[t]he power to regulate elections
is a legislative one, and has been exercised by the General Assembly since the
foundation of the government.” Id. at 17 (quoting Winston v. Moore, 91 A. 520, 522 (Pa.
1914)). Indeed, it observes that the United States Constitution dictates that “[t]he Times,
21

The Secretary observes that other jurisdictions have likewise granted temporary
extensions when faced with natural disasters, such as hurricanes. Secretary’s
Application at 28 (citing Fla. Democratic Party v. Scott, 215 F. Supp. 3d 1250, 1259 (N.D.
Fla. 2016); Georgia Coalition for the Peoples’ Agenda, Inc. v. Deal, 214 F. Supp. 3d 1344,
1345 (S.D. Ga. 2016)).

[J-96-2020] - 28

Places, and Manner of holding Elections for Senators and Representatives, shall be
prescribed in each state by the Legislature thereof,” subject to directives of Congress,
U.S. CONST. art. I, § 4, cl. 1, and that “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct,” electors for President and Vice President. U.S. CONST.
art. II, § 1, cl. 2.22

Respondent highlights special concerns relevant to Presidential

elections, emphasizing that “‘[w]ith respect to a Presidential election,’ state courts must
‘be mindful of the legislature’s role under Article II in choosing the manner of appointing
electors.’” Respondent’s Supplemental Brief at 20 (quoting Bush v. Gore, 531 U.S. 98,
114 (2000) (Rehnquist, C.J., concurring)).
Respondent additionally warns that if this Court were to deem application of the
deadline unconstitutional and substitute a judicially-determined deadline, it would trigger
the nonseverability provision of Act 77, which would invalidate the entirety of the Act,
including all provisions creating universal mail-in voting. Specifically, Section 11 provides:
“Sections 1, 2, 3, 3.2, 4, 5, 5.1, 6, 7, 8, 9 and 12 of this act are nonseverable. If any
provision of this act or its application to any person or circumstances is held invalid, the
remaining provisions or applications of this act are void.” Act 77, § 11. It emphasizes
that this Court has previously deemed nonseverability provisions to be constitutionally
proper and additionally recognized that nonseverability provisions are crucial to the
legislative process as they “may be essential to securing the support necessary to enact
the legislation in the first place.” Respondent’s Supplemental Brief at 18 (citing Stilp v.
Commonwealth, 905 A.2d 918, 978 (Pa. 2006)). Respondent asserts that it is clear that
the severability provision in Act 77 “was intended to preserve the compromise struck” in
the bipartisan enactment. Id. at 19.
22

Respondent further observes that the Pennsylvania Constitution specifically directs the
Legislature to “provide a manner in which, and the time and place at which” a qualified
elector can submit an absentee ballot. PA. CONST. art. VII, § 14(a).

[J-96-2020] - 29

On the merits, Respondent asserts that the plain language of the Election Code
setting the deadline for submission of ballots by 8:00 p.m. on Election Day does not violate
the Free and Equal Elections Clause but instead provides “a neutral, evenhanded rule
that applies to all Pennsylvania voters equally.” Respondent’s Answer to the Secretary’s
Application at 21. It emphasizes that numerous courts, including this Court during the
June Primary, have upheld the application of mail-in deadlines during the COVID-19
pandemic. Respondent’s Supplemental Brief at 24 (citing, inter alia, Disability Rights Pa.
v. Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020)).
Respondent additionally rejects the Secretary’s assertion that the deadline should
be extended based upon the threat of mail delays. It avers that these concerns are
“speculative at best.”

Id. at 25.

Moreover, it contends that “given Pennsylvania’s

unparalleled and generous absentee and mail-in voting period, any voter’s inability to cast
a timely ballot is not caused by the Election Day received-by deadline but instead by their
own failure to take timely steps to effect completion and return of their ballot.” Id. at 2627 (internal citation and quotation marks omitted).
Respondent further supports its argument by attaching to its Supplemental Brief a
declaration of USPS Vice President Angela Curtis, which in turn attaches the statement
provided by Postmaster General Louis DeJoy to the Senate Committee on Homeland
Security and Governmental Affairs on August 21, 2020 and his statement of August 24,
2020, to the House Committee on Oversight and Reform. In his statement, Postmaster
General Louis DeJoy addressed public accusations that the implementation of various
cost-saving reforms had allegedly resulted in delays in mail delivery that threatened the
timely delivery of election mail.
While disputing the validity of the accusations, the Postmaster General provided
the following commitments relating to the delivery of election mail:

[J-96-2020] - 30

[R]etail hours at Post Offices won’t be changed, and mail
processing equipment and blue collection boxes won’t be
removed during this period. No mail processing facilities will
be closed and we have terminated the pilot program that
began in July that expedited carrier departures to their
delivery routes, without plans to extend or expand it. To clear
up any confusion, overtime has, and will continue to be,
approved as needed. Finally, effective October 1, 2020, we
will engage standby resources in all areas of our operations,
including transportation, to satisfy any unforeseen demand for
the election.
Statement of Postmaster General Louis DeJoy provided to Senate Committee on
Homeland Security and Governmental Affairs Hearing of Aug. 21, 2020, at 14; Statement
of Postmaster General Louis DeJoy provided to House Committee on Oversight and
Reform of Aug. 24, 2020, at 14. Respondent emphasizes that Postmaster General DeJoy
also asserted that the “USPS has not changed [its] delivery standards, [its] processing,
[its] rules, or [its] prices for Election Mail[,]” and that it “can, and will, handle the volume
of Election Mail [it] receive[s].” Respondent’s Supplemental Brief at 10.
Finally, Respondent argues that moving the received-by deadline until after
Election Day would undermine the federal designation of a uniform Election Day, as set
forth in three federal statues, specifically 3 U.S.C. § 1 (“The electors of President and
Vice President shall be appointed, in each State, on the Tuesday next after the first
Monday in November, every fourth year succeeding every election of a President and
Vice President”); 2 U.S.C. § 7 (“The Tuesday next after the 1st Monday in November, in
every even numbered year, is established as the day for the election, in each of the States
and Territories of the United States, of Representatives and Delegates to the Congress
commencing on the 3d day of January next thereafter.”); and 2 U.S.C. § 1 (“At the regular
election held in any State next preceding the expiration of the term for which any Senator
was elected to represent such State in Congress is regularly by law to be chosen, a United

[J-96-2020] - 31

States Senator from said State shall be elected by the people thereof for a term
commencing on the 3d day of January next thereafter.”).23
The Caucus also files a brief with this Court arguing against the extension of the
deadline for mail-in votes. It asserts that “[t]here is no constitutional right to vote by mail”
and that states have broad authority to enact regulations to ensure the integrity of its
elections, including mail-in ballots, as was done in Act 77, including by setting a deadline
for the receipt of ballots. Caucus’s Brief at 19.
The Caucus warns that granting an extension of the mail-in ballot received-by
deadline in this case “would have a cascading effect on other election code deadlines,
thereby causing chaos for election officials and confusion for voters.”

Id. at 26. It

observes that the Election Code requires that Boards begin canvassing absentee and
mail-in ballots within three days of Election Day and shall continue through the eighth day
following the Election. Id. at 28 (citing 25 P.S. § 3146.8(g)(2)). Additionally, the Boards
shall submit the unofficial returns to the Secretary on the Tuesday following the Election,
and the Secretary must determine whether a recount is required within nine days of
Election Day, citing 25 P.S. § 3154(f), (g)(2), and the Boards must certify the final results
to the Secretary no later than twenty days after Election Day, citing 25 P.S. § 2642(k). It
additionally asserts that federal law requires all state recounts and challenges to be
“resolved at least 6 days prior to the meeting of electors,” which it asserts this year is
December 14. Caucus’s Brief at 28 n.17 (citing 3 U.S.C. §§ 1, 5). The Caucus therefore
urges this Court to refrain from altering the received-by deadline for mail-in ballots,
asserting that the “requested injunction would override the election deadlines which were
23

In so arguing, Respondent seemingly ignores the fact that allowing the tabulation of
ballots received after Election Day does not undermine the existence of a federal Election
Day, where the proposal requires that ballots be cast by Election Day, similar to the
procedure under federal and state law allowing for the tabulation of military and overseas
ballots received after Election Day.

[J-96-2020] - 32

fully debated and properly enacted by the peoples’ representatives in the Pennsylvania
General Assembly.” Id. at 29.
Unlike other provisions of Act 77 currently before this Court, we are not asked to
interpret the statutory language establishing the received-by deadline for mail-in ballots.
Indeed, there is no ambiguity regarding the deadline set by the General Assembly:
Deadline.--Except as provided under 25 Pa.C.S. § 3511[24]
(relating to receipt of voted ballot), a completed mail-in ballot
must be received in the office of the county board of elections
no later than eight o'clock P.M. on the day of the primary or
election.
25 P.S. § 3150.16(c). Moreover, we are not asked to declare the language facially
unconstitutional as there is nothing constitutionally infirm about a deadline of 8:00 p.m.
on Election Day for the receipt of ballots. The parties, instead, question whether the

24

Section 3511 addresses the timeline for the return of ballots of uniform military and
oversees voters and provides for the counting of such votes if delivered to the county
board by 5 p.m. on the seventh day after Election Day:
§ 3511. Receipt of voted ballot
(a) Delivery governs.--A valid military-overseas ballot cast
under section 3509 (relating to timely casting of ballot) shall
be counted if it is delivered by 5 p.m. on the seventh day
following the election to the address that the appropriate
county election board has specified.
(b) Rule regarding postmarks.--If, at the time of completing
a military-overseas ballot and balloting materials, the voter
has declared under penalty of perjury that the ballot was
timely submitted, the ballot may not be rejected on the basis
that it has a late postmark, an unreadable postmark or no
postmark.
25 Pa.C.S. § 3511.

[J-96-2020] - 33

application of the statutory language to the facts of the current unprecedented situation
results in an as-applied infringement of electors’ right to vote.
In considering this issue, we reiterate that the Free and Equal Elections Clause of
the Pennsylvania Constitution requires that “all aspects of the electoral process, to the
greatest degree possible, be kept open and unrestricted to the voters of our
Commonwealth, and, also, conducted in a manner which guarantees, to the greatest
degree possible, a voter’s right to equal participation in the electoral process for the
selection of his or her representatives in government.” League of Women Voters, 178
A.3d at 804. Nevertheless, we also recognize that “the state may enact substantial
regulation containing reasonable, non-discriminatory restrictions to ensure honest and
fair elections that proceed in an orderly and efficient manner.” Banfield v. Cortes, 110
A.3d 155, 176–77 (Pa. 2015) (internal citation and quotation marks omitted).
As we have recently seen, an orderly and efficient election process can be crucial
to the protection of a voter’s participation in that process. Indeed, the struggles of our
most populous counties to avoid disenfranchising voters while processing the
overwhelming number of pandemic-fueled mail-in ballot applications during the 2020
Primary demonstrates that orderly and efficient election processes are essential to
safeguarding the right to vote. An elector cannot exercise the franchise while her ballot
application is awaiting processing in a county election board nor when her ballot is sitting
in a USPS facility after the deadline for ballots to be received.
We are fully cognizant that a balance must be struck between providing voters
ample time to request mail-in ballots, while also building enough flexibility into the election
timeline to guarantee that ballot has time to travel through the USPS delivery system to
ensure that the completed ballot can be counted in the election. Moreover, we recognize
that the determination of that balance is fully enshrined within the authority granted to the

[J-96-2020] - 34

Legislature under the United States and Pennsylvania Constitutions. See U.S. CONST.
art. I, § 4, cl. 1; id. art. II, § 1, cl. 2.
Nevertheless, we find the Commonwealth Court’s rationale in In re: General
Election-1985 germane to the current challenge to the application of the ballot receivedby deadline. In that case, the court recognized that, while neither the Constitution nor the
Election Code specified “any procedure to follow when a natural disaster creates an
emergency situation that interferes with an election,” courts could look to the direction of
25 P.S. § 3046. In re General Election-1985, 531 A.2d at 839. As noted, Section 3046
provides courts of common pleas the power, on the day of an election, to decide “matters
pertaining to the election as may be necessary to carry out the intent” of the Election
Code, which the Commonwealth Court properly deemed to include providing “an equal
opportunity for all eligible electors to participate in the election process,” which in that
case necessitated delaying the election during a flood. Id.
We have no hesitation in concluding that the ongoing COVID-19 pandemic
equates to a natural disaster. See Friends of Devito v. Wolf, 227 A.3d 872, 888 (Pa.
2020) (agreeing “that the COVID-19 pandemic qualifies as a ‘natural disaster’ under the
Emergency Code”).

Moreover, the effects of the pandemic threatened the

disenfranchisement of thousands of Pennsylvanians during the 2020 Primary, when
several of the Commonwealth’s county election boards struggled to process the flow of
mail-in ballot applications for voters who sought to avoid exposure to the virus. See, e.g.,
Delaware County Board of Elections’ Answer to Petition at 15, ¶ 77 (acknowledging that
it “mailed out thousands of ballots in the twenty-four hour period preceding the election”).
It is beyond cavil that the numbers of mail-in ballot requests for the Primary will be dwarfed
by those applications filed during the upcoming highly-contested Presidential Election in
the midst of the pandemic where many voters are still wary of congregating in crowded

[J-96-2020] - 35

locations such as polling places. We acknowledge that the Secretary has estimated that
nearly three million Pennsylvanians will apply for mail-in applications, in contrast to the
1.5 million cast during the Primary. Secretary’s Brief at 1.
In light of these unprecedented numbers and the near-certain delays that will occur
in Boards processing the mail-in applications, we conclude that the timeline built into the
Election Code cannot be met by the USPS’s current delivery standards, regardless of
whether those delivery standards are due to recent changes in the USPS’s logistical
procedures or whether the standards are consistent with what the General Assembly
expected when it enacted Act 77. In this regard, we place stock in the USPS’s General
Counsel’s expression that his client could be unable to meet Pennsylvania’s statutory
election calendar. General Counsel’s Letter at 2. The Legislature enacted an extremely
condensed timeline, providing only seven days between the last date to request a mail-in
ballot and the last day to return a completed ballot. While it may be feasible under normal
conditions, it will unquestionably fail under the strain of COVID-19 and the 2020
Presidential Election, resulting in the disenfranchisement of voters.
Under our Extraordinary Jurisdiction, this Court can and should act to extend the
received-by deadline for mail-in ballots to prevent the disenfranchisement of voters. We
have previously recognized that, in enforcing the Free and Equal Elections Clause, this
“Court possesses broad authority to craft meaningful remedies when required.” League
of Women Voters, 178 A.3d at 822 (citing PA. CONST., art. V, §§ 1, 2, 10; 42 Pa.C.S. § 726
(granting power to “enter a final order or otherwise cause right and justice to be done”)).
We additionally conclude that voters’ rights are better protected by addressing the
impending crisis at this point in the election cycle on a statewide basis rather than allowing
the chaos to brew, creating voter confusion regarding whether extensions will be granted,

[J-96-2020] - 36

for how long, and in what counties.25 Instead, we act now to allow the Secretary, the
county election boards, and most importantly, the voters in Pennsylvania to have clarity
as to the timeline for the 2020 General Election mail-in ballot process.
After consideration, we adopt the Secretary’s informed recommendation of a threeday extension of the absentee and mail-in ballot received-by deadline to allow for the
tabulation of ballots mailed by voters via the USPS and postmarked by 8:00 p.m. on
Election Day to reduce voter disenfranchisement resulting from the conflict between the
Election Code and the current USPS delivery standards, given the expected number of
Pennsylvanians opting to use mail-in ballots during the pandemic.26 We observe that this
extension provides more time for the delivery of ballots while also not requiring alteration
of the subsequent canvassing and reporting dates necessary for the Secretary’s final
reporting of the election results. In so doing, we emphasize that the Pennsylvania’s
election laws currently accommodate the receipt of certain ballots after Election Day, as
25

We recognize that we rejected a very similar argument presented in Disability Rights
Pennsylvania on May 15, 2020, weeks prior to the Primary. Disability Rights Pa. v.
Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020). At that time, the
potential of voter disenfranchisement was speculative as many unknowns existed relating
to the magnitude of the pandemic, the extent to which voters would seek mail-in
applications, and the ability of Boards to handle the increase. Those uncertainties no
longer exist in light of our experience in the 2020 Primary where thousands of voters
would have been disenfranchised but for the emergency actions of the courts of common
pleas and the Governor.
We likewise incorporate the Secretary’s recommendation addressing ballots received
within this period that lack a postmark or other proof of mailing, or for which the postmark
or other proof of mailing is illegible. Accordingly, in such cases, we conclude that a ballot
received on or before 5:00 p.m. on November 6, 2020, will be presumed to have been
mailed by Election Day unless a preponderance of the evidence demonstrates that it was
mailed after Election Day.
26

We emphasize that voters utilizing the USPS must cast their ballots prior to 8:00 p.m. on
Election Day, like all voters, including those utilizing drop boxes, as set forth supra. We
refuse, however, to disenfranchise voters for the lack or illegibility of a postmark resulting
from the USPS processing system, which is undeniably outside the control of the
individual voter.

[J-96-2020] - 37

it allows the tabulation of military and overseas ballots received up to seven days after
Election Day. 25 Pa.C.S. § 3511. We conclude that this extension of the received-by
deadline protects voters’ rights while being least at variance with Pennsylvania’s
permanent election calendar, which we respect and do not alter lightly, even temporarily.
C. COUNT III OF THE PETITION FOR REVIEW
In Count III of its petition, Petitioner seeks to require that the Boards contact
qualified electors whose mail-in or absentee ballots contain minor facial defects resulting
from their failure to comply with the statutory requirements for voting by mail, and provide
them with an opportunity to cure those defects. More specifically, Petitioner submits that
when the Boards have knowledge of an incomplete or incorrectly completed ballot as well
as the elector’s contact information, the Boards should be required to notify the elector
using the most expeditious means possible and provide the elector a chance to cure the
facial defect up until the UOCAVA deadline of November 10, 2020, discussed supra.
Petitioner bases this claim on its assertion that the multi-stepped process for voting
by mail-in or absentee ballot inevitably leads to what it describes as minor errors, such as
not completing the voter declaration or using an incorrect ink color to complete the ballot.
See 25 P.S. § 3146.6(a) (explaining the process for voting by absentee ballot, which
requires, inter alia, an elector to mark the ballot using only certain writing implements and
ink; and to fill out, date, and sign the declaration printed on the outer envelope); id.
§ 3150.16(a) (explaining the process for voting by mail-in ballot, which imposes the same
requirements). According to Petitioner, these minor oversights result in many ballots
being rejected and disenfranchising voters who believe they have exercised their right to
vote.
Petitioner submits that voters should not be disenfranchised by technical errors or
incomplete ballots, and that the “notice and opportunity to cure” procedure ensures that

[J-96-2020] - 38

all electors who desire to cast a ballot have the opportunity to do so, and for their ballot
to be counted. Petitioner further claims there is no governmental interest in either: (1)
requiring the formalities for the completion of the outside of the mailing envelope to be
finalized prior to mailing as opposed to prior to counting, or (2) rejecting the counting of a
ballot so long as ballots continue to arrive under federal law, which is the UOCAVA
deadline of seven days after Election Day.
As legal support for its position, Petitioner relies upon the Free and Equal Elections
Clause. PA. CONST. art. I, § 5 (“Elections shall be free and equal; and no power, civil or
military, shall at any time interfere to prevent the free exercise of the right of suffrage.”);
see also Winston, 91 A. at 523 (explaining that elections are “free and equal” for
constitutional purposes when, inter alia, “the regulation of the right to exercise the
franchise does not deny the franchise itself, or make it so difficult as to amount to a denial;
and when no constitutional right of the qualified elector is subverted or denied him”). It
further emphasizes that election laws should be construed liberally in favor of voters, and
that “[t]echnicalities should not be used to make the right of the voter insecure.” Appeal
of James, 105 A.2d 64, 65-66 (Pa. 1954). Petitioner also asserts that ballots with minor
irregularities should not be rejected, except for compelling reasons and in rare
circumstances. Id. at 66. Based on these legal principles, as well as this Court’s “broad
authority to craft meaningful remedies” when necessary, League of Women Voters, 178
A.3d at 822, Petitioner claims that the Pennsylvania Constitution and spirit of the Election
Code require the Boards to provide a “notice and opportunity to cure” procedure, and that
this Court has the authority to afford the relief it seeks.
Unlike the other claims asserted herein, the Secretary opposes Petitioner’s request
for relief in this regard. She counters that there is no statutory or constitutional basis for
requiring the Boards to contact voters when faced with a defective ballot and afford them

[J-96-2020] - 39

an opportunity to cure defects. The Secretary further notes that, while Petitioner relies
upon the Free and Equal Elections Clause, that Clause cannot create statutory language
that the General Assembly chose not to provide. See Winston, 91 A. at 522 (noting that
“[t]he power to regulate elections is legislative”).
The Secretary submits that so long as a voter follows the requisite voting
procedures, he or she “will have an equally effective power to select the representative
of his or her choice.” League of Women Voters, 178 A.3d at 809. Emphasizing that
Petitioner presents no explanation as to how the Boards would notify voters or how the
voters would correct the errors, the Secretary further claims that, while it may be good
policy to implement a procedure that entails notice of defective ballots and an opportunity
to cure them, logistical policy decisions like the ones implicated herein are more properly
addressed by the Legislature, not the courts.
Respondent echoes the Secretary’s opposition to Petitioner’s request for relief. 27
Specifically, it reiterates that Petitioner has failed to assert a legal basis to support
imposing a “notice and opportunity to cure” procedure, noting that the Free and Equal
Elections Clause does not enable courts to rewrite the Election Code to align with a
litigant’s notion of good election policy. Respondent emphasizes that “ballot and election
laws have always been regarded as peculiarly within the province of the legislative branch
of government,” Winston, 91 A. at 522, and that to the extent restrictions are burdensome,
relief should be sought in the Legislature. Id. at 525.
Respondent also discusses the practical implications of granting Petitioner’s
request, expressing concern that implementing a “notice and opportunity to cure”
procedure would be a monumental undertaking requiring the expenditure of significant
resources, particularly on the eve of an election. Respondent thus reiterates that the
27

The Caucus does not advance argument on the merits of this issue.

[J-96-2020] - 40

Legislature, not this Court, is the entity best suited to address the procedure proposed by
Petitioner.
Respondent adds that the tardiness of Petitioner’s request is alone a sufficient
basis to deny it and that, in any event, Petitioner cannot show a “plain, palpable and clear
abuse of the [legislative] power which actually infringes on the rights of the electors” with
respect to this claim. Patterson v. Barlow, 60 Pa. 54, 75 (1869). Respondent notes that,
to the contrary, a requirement that voters follow the appropriate procedures when filling
out their ballots easily passes constitutional muster.
Upon review, we conclude that the Boards are not required to implement a “notice
and opportunity to cure” procedure for mail-in and absentee ballots that voters have filled
out incompletely or incorrectly. Put simply, as argued by the parties in opposition to the
requested relief, Petitioner has cited no constitutional or statutory basis that would
countenance imposing the procedure Petitioner seeks to require (i.e., having the Boards
contact those individuals whose ballots the Boards have reviewed and identified as
including “minor” or “facial” defects—and for whom the Boards have contact information—
and then afford those individuals the opportunity to cure defects until the UOCAVA
deadline).
While the Pennsylvania Constitution mandates that elections be “free and equal,”
it leaves the task of effectuating that mandate to the Legislature. Winston, 91 A. at 522.
As noted herein, although the Election Code provides the procedures for casting and
counting a vote by mail, it does not provide for the “notice and opportunity to cure”
procedure sought by Petitioner. To the extent that a voter is at risk for having his or her
ballot rejected due to minor errors made in contravention of those requirements, we agree
that the decision to provide a “notice and opportunity to cure” procedure to alleviate that
risk is one best suited for the Legislature. We express this agreement particularly in light

[J-96-2020] - 41

of the open policy questions attendant to that decision, including what the precise
contours of the procedure would be, how the concomitant burdens would be addressed,
and how the procedure would impact the confidentiality and counting of ballots, all of
which are best left to the legislative branch of Pennsylvania’s government. Thus, for the
reasons stated, the Petitioner is not entitled to the relief it seeks in Count III of its petition.
D. COUNT IV OF THE PETITION FOR REVIEW
In Count IV, Petitioner seeks a declaration that under Act 77, the Boards must
“clothe and count naked ballots,” i.e., place ballots that were returned without the secrecy
envelope into a proper envelope and count them, rather than invalidate them. It further
seeks a preliminary injunction prohibiting the Boards from excluding such ballots from the
canvass.
To understand the nature of a “naked ballot,” as well as Petitioner’s claim that such
ballots are valid and should be counted, we examine the relevant provisions of Act 77.
The Act directs Boards to send to the qualified mail-in elector an official mail-in ballot, the
list of candidates when authorized, the uniform instructions as prescribed by the
Secretary, and two envelopes to be returned to the Boards, as described in detail infra.
25 P.S. § 3150.14(c).
Section 3150.14(a) (“Envelopes for official mail-in ballots”) explains the nature of
the envelopes sent to the mail-in voter. This provision directs the Boards to “provide two
additional envelopes for each official mail-in ballot of a size and shape as prescribed by
the Secretary of the Commonwealth, in order to permit the placing of one within the other
and both within the mailing envelope” addressed to the elector. Id. § 3150.14(a). On the
smaller of the two envelopes to be returned to the Boards shall be printed only the words
“Official Election Ballot.” Id. On the larger envelope shall be printed: (1) “the form of the
declaration of the elector;” (2) the “name and address of the county board of election of

[J-96-2020] - 42

the proper county;” and (3) “information indicating the local election district of the mail-in
voter.” Id.
As noted, Section 3150.16(a) directs the mail-in elector to mark the ballot in secret
with the enumerated ink or lead pencil and then fold the ballot, enclose it, and secure it in
the smaller envelope on which is printed “Official Election Ballot.” 25 P.S. § 3150.16(a).
The statute further directs the mail-in elector to place the smaller envelope into the second
envelope on which is printed the form of declaration of the elector, the elector’s local
election district, and the address of the elector’s county board of election. Id. The statute
next directs the mail-in elector to fill out, date, and sign the declaration printed on the
second envelope, and secure the ballot and send it by mail or deliver it in person to his
or her county board of election. Id. A ballot is “naked” for purposes of this action if the
mail-in elector fails to utilize the smaller envelope on which is printed “Official Election
Ballot,” and, instead, places the official election ballot directly into the second envelope,
upon which is printed the form of declaration of the elector and the address of the elector’s
county board of election.
Act 77 additionally sets forth the procedure by which mail-in ballots are canvassed.
See id. § 3146.8(a) (providing that mail-in ballots “shall be canvassed in accordance with
subsection (g)”). Relevant thereto, the Act directs that mail-in ballots cast by electors who
died prior to Election Day shall be rejected and not counted. Id. § 3146.8(d). Additionally,
the Act provides that mail-in ballots shall be counted as long as: (1) election officials verify
the ballots by comparing the voter’s declaration with the official voting list; and (2) the
ballots are not challenged on the ground that the voter is unqualified to vote.

Id.

§§ 3146.8(g)(4); 3150.12b(a)(2). Notably, Section 3146.8(g)(4)(ii) provides that if any of
the envelopes on which are printed “Official Election Ballot” “contain any text, mark or
symbol which reveals the identity of the elector, the elector’s political affiliation or the

[J-96-2020] - 43

elector’s candidate preference, the envelopes and the ballots contained therein shall be
set aside and declared void.” Id. § 3146.8(g)(4)(ii).
The crux of Petitioner’s position is that although Act 77 directs a mail-in voter to
utilize the secrecy envelope in submitting the mail-in ballot, there is no provision in the
Election Code authorizing the Boards to discard a ballot on grounds that the voter failed
to insert the ballot into the secrecy envelope before returning it to the Boards. Rather,
Petitioner asserts, the statute directs the Boards to reject mail-in ballots only if the mailin elector died prior to Election Day, id. § 3146.8(d), the ballot is unverified or challenged
on grounds that the mail-in voter was unqualified to vote, id. § 3146.8(g)(4), or the ballot
is returned in an “Official Election Ballot” envelope that contains “any text, mark or symbol
which reveals the identity of the elector, the elector’s political affiliation or the elector’s
candidate preference.” Id. § 3146.8(g)(4)(ii). Petitioner concludes that the failure to place
the ballot in a secrecy envelope does not fall within these enumerated statutory grounds
which would result in an invalid mail-in ballot.
Moreover, Petitioner emphasizes that the General Assembly was aware of how to
invalidate ballots for lack of a secrecy envelope, as it expressly did so in another provision
of the Election Code regarding provisional ballots. See id. § 3050(a.4)(5)(ii)(C) (providing
that a “provisional ballot shall not be counted if: . . . a provisional ballot envelope does not
contain a secrecy envelope”).28 Had the General Assembly intended to invalidate mailin ballots on this basis, Petitioner submits, the Legislature would have included a similar
provision in Act 77, but chose not to do so.
Absent statutory authority directing the Boards to invalidate a ballot based
exclusively on the lack of a secrecy envelope, Petitioner contends that the refusal to
28

A provisional ballot is a ballot cast by an individual who claims to be properly registered
and eligible to vote at the election district, but whose name does not appear on the district
register and whose registration cannot be determined. 25 P.S. § 3050(a.4)(1).

[J-96-2020] - 44

canvass and count ballots cast without a secrecy envelope violates the Election Code, as
well as the rights of electors to have their vote counted under the Free and Equal Elections
Clause. It posits that rather than disenfranchising the voter in contravention of these
edicts, the Boards could take corrective measures to protect privacy, such as placing the
naked ballot inside a replacement secrecy envelope before canvassing.
Accordingly, Petitioner requests a declaration that naked ballots must be counted,
as well as injunctive relief requiring Boards to undertake reasonable measures to protect
the privacy of naked ballots cast by mail-in electors.
The Secretary’s position aligns with Petitioner on this issue as she agrees that the
counting of naked ballots is permitted by the Election Code and furthers the right to vote
under the Free and Equal Elections Clause and the First and Fourteenth Amendments to
the United States Constitution.29
The Secretary contends that the secrecy envelope procedure set forth in Section
3150.16(a) is merely directory, and that this Court’s longstanding precedents establish
that ballots should not be disqualified based upon the failure to follow directory provisions.
See Bickhart, 845 A.3d at 803 (holding that although the Election Code provides that an
elector may cast a write-in vote for any person not printed on the ballot, a write-in vote for
a candidate whose name, in fact, appears on the ballot is not invalid where there is no

The Secretary’s position herein is consistent with the directive that the Department of
State distributed to the counties on May 28, 2020, indicating that there is no statutory
requirement nor any authority for setting aside an absentee or mail-in ballot exclusively
because the voter forgot to insert it into the official election ballot envelope. See Exhibit
B to Petition, Directive of Deputy Secretary for Elections and Commissions Jonathan M.
Marks to the county election directors, May 28, 2020. The directive further indicated that
“[t]o preserve the secrecy of such ballots, the board of elections in its discretion may
develop a process by which the members of the pre-canvass or canvass boards insert
these ballots into empty official ballot envelopes or privacy sleeves until such time as they
are ready to be tabulated.” Id. See also Exhibit J to Petition, Guidance for Missing Official
Election Ballot Envelopes.
29

[J-96-2020] - 45

evidence of fraud and the voter’s intent is clear); Wieskerger Appeal, 290 A.2d 108, 109
(Pa. 1972) (holding that the elector’s failure to mark the ballot with the statutorily
enumerated ink color does not render the ballot invalid unless there is a clear showing
that the ink was used for the purpose of making the ballot identifiable or otherwise
indicating fraud).
The Secretary further opines that no fraud arises from counting naked ballots,
considering that the naked ballot remains sealed in an envelope and the sealed ballot is
certified by the elector. Accordingly, the Secretary concludes that no voter should be
disenfranchised for failing to place his or her mail-in ballot in the secrecy envelope before
returning it to the Boards.
In response, Respondent argues that the statutory language of Section
3150.16(a), providing that the mail-in elector “shall . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped or endorsed ‘Official Election Ballot,’”
is clear and constitutes a mandatory requisite to casting a mail-in ballot, and having that
ballot counted. It relies on In re Canvass of Absentee Ballots of Nov. 4, 2003 Gen.
Election, 843 A.2d 1223 (Pa. 2004) (“Appeal of Pierce”), where this Court held that the
use of the term “shall” in Section 3146.6(a) of the Election Code, providing that the elector
“shall” send an absentee ballot or deliver the ballot in person, carries a mandatory
meaning, thereby precluding third parties from hand-delivering absentee ballots to county
election boards, and invalidating those ballots that were hand-delivered by a third party.
Respondent submits that Section 3150.16(a) requires the same invalidation of ballots
where the mandatory statutory requisite of enclosing the ballot in a secrecy envelope is
ignored.
Respondent observes that the Election Code further directs election officials to “set
aside and declare[] void” a ballot whose secrecy envelope contains “any text, mark, or

[J-96-2020] - 46

symbol which reveals the identity of the elector, the elector’s political affiliation or the
elector’s candidate preference.” 25 P.S. § 3146.8(g)(4)(ii). Citing Appeal of Weiskerger,
supra, it argues that the purpose of this provision is to prevent the disclosure of the
elector’s identity. Respondent posits that a ballot unclothed by a secrecy envelope and
placed directly in the outer envelope also discloses the elector’s identity because the
outer envelope contains the elector’s signed declaration. Thus, it concludes, Section
3146.8(g)(4)(ii) requires invalidation of any ballot contained in an envelope that reveals
the identity of the voter, regardless of whether that envelope is a secrecy envelope or an
outer envelope. To hold to the contrary, Respondent argues, would violate Article VII,
Section 4 of the Pennsylvania Constitution, which provides, in relevant part, that “secrecy
in voting shall be preserved.” PA. CONST. art. VII, § 4.30
Respondent discounts the Secretary’s suggestion that because there is no fraud
involved in the submission of a naked ballot, the ballot should be counted. The secrecy
envelope provision of the statute, in Respondent’s view, advances the distinct
constitutional interest of protecting the sanctity of the ballot by preventing the ballot from
disclosing the elector’s identity. The significance of this interest, it submits, distinguishes
this matter from cases involving noncompliance with minor procedural demands set forth
in the Election Code, such as the color of ink used to mark a ballot or the listing of a writein candidate whose name already appears on the ballot.

Accordingly, Respondent

requests that we deny Petitioner’s request for declaratory and injunctive relief.
The Caucus reiterates all of the arguments expressed by Respondent. It contends
that in addition to violating voter secrecy, the counting of naked ballots raises the concern
of voter fraud. It contends that when a ballot arrives at the county election board without
Article VII, Section 4 (“Method of elections; secrecy in voting”) states, in full, that “[a]ll
elections by the citizens shall be by ballot or by such other method as may be prescribed
by law: Provided, That secrecy in voting be preserved.” PA CONST. art. VII, § 4.
30

[J-96-2020] - 47

the protective shield of a sealed privacy envelope, the election official cannot guarantee
that the ballot travelled from the voter’s hand to the county election board without
compromise. It argues that there is no way for the election official to verify that the vote
was accurately recorded, because the mere act of ascertaining the voter’s identity from
the elector’s declaration may violate the secrecy protections of Article VII, Section 4. The
Caucus concludes that the only way to be certain that no fraud has taken place is to reject
all naked ballots.
Turning now to our analysis, we observe that, in determining the propriety of naked
ballots, we must ascertain the General Assembly’s intention by examining the statutory
text of the secrecy envelope provision to determine whether it is mandatory or directory,
as that will govern the consequences for non-compliance. See JPay, Inc. v. Dep’t of Corr.
& Governor's Office of Admin., 89 A.3d 756, 763 (Pa. Cmwlth. 2014) (internal citation
omitted) (observing that “[w]hile both mandatory and directory provisions of the
Legislature are meant to be followed, the difference between a mandatory and directory
provision is the consequence for non-compliance: a failure to strictly adhere to the
requirements of a directory statute will not nullify the validity of the action involved”).
Upon careful examination of the statutory text, we conclude that the Legislature
intended for the secrecy envelope provision to be mandatory. We respectfully reject the
contentions of Petitioner and the Secretary that because the General Assembly did not
delineate a remedy narrowly linked to the mail-in elector’s failure to utilize a secrecy
envelope, the language of the Election Code is directory, and an elector’s violation of the
command inconsequential.
As noted, Section 3150.16(a) provides:
[The mail-in elector] shall, in secret, . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped or endorsed “Official
Election Ballot.” This envelope shall then be placed in the second one, on
which is printed the form of declaration of the elector, and the address of

[J-96-2020] - 48

the elector’s county board of election and the local election district of the
elector.
Id.
This statutory text must be read in pari materia31 with Subsection 3146.8(g)(4)(ii),
which also speaks directly to secrecy envelopes, providing:
If any of the envelopes on which are printed, stamped or endorsed the
words ‘Official Election Ballot’ contain any text, mark or symbol which
reveals the identity of the elector, the elector’s political affiliation or the
elector’s candidate preference, the envelopes and the ballots contained
therein shall be set aside and declared void.
25 P.S. § 3146.8(g)(4)(ii).
These provisions make clear the General Assembly’s intention that, during the
collection and canvassing processes, when the outer envelope in which the ballot arrived
is unsealed and the sealed ballot removed, it should not be readily apparent who the
elector is, with what party he or she affiliates, or for whom the elector has voted. The
secrecy envelope properly unmarked and sealed ensures that result, unless it is marked
with identifying information, in which case that goal is compromised. Whatever the
wisdom of the requirement, the command that the mail-in elector utilize the secrecy
envelope and leave it unblemished by identifying information is neither ambiguous nor
unreasonable.

31

Section 1932 of our Statutory Construction Act, “Statutes in pari materia,” provides:
(a) Statutes or parts of statutes are in pari materia when they relate to the
same persons or things or to the same class of persons or things.
(b) Statutes in pari materia shall be construed together, if possible, as one
statute.

1 Pa.C.S. § 1932.

[J-96-2020] - 49

As noted cogently by Respondent, this case is distinguishable from those cases
relied upon by the Secretary, which deemed mandatory language merely directory and
without consequence. For example, in Bickhart, 845 A.2d at 795, the Court declined to
invalidate a write-in vote cast for a candidate who was named on the ballot proper. In
reaching that conclusion, the Court observed that “ballots containing mere minor
irregularities should only be stricken for compelling reasons,” noting that marking a ballot
is an imprecise process, the focus of which is upon the “unmistakable registration of the
voter’s will in substantial conformity to the statutory requirements.” Bickhart, 845 A.2d at
798-99 (internal quotation marks and citations omitted).
Similarly, in Appeal of Weiskerger, supra, this Court declined to invalidate a ballot
based upon the “minor irregularity” that it was completed in the wrong color of ink. The
statute at issue provided: “Any ballot that is marked in blue, black or blue-black ink . . .
shall be valid and counted.” 290 A.2d at 109 (citing 25 P.S. § 3063). Thus, the only
mandatory direction it provided was for the canvassers who receive the ballots, not the
electors who prepared them. In providing that ballots completed in the right color must
be counted, the Legislature neither stated nor implied that ballots completed in a different
color must not be counted. Neither statutory provision at issue in Bickhart nor Weiskerger
contained anything analogous to the directive at issue in this case, which involves secrecy
in voting protected expressly by Article VII, Section 4 of this Court’s state charter.
As posited by Respondent, most analogous to the instant case is our decision in
Appeal of Pierce. There, we held that the Election Code’s “in-person” ballot delivery
requirement, see 25 P.S. § 3146.6, was mandatory, and that votes delivered by third
persons must not be counted. The provision in question unambiguously provided that

[J-96-2020] - 50

“the elector shall send [the absentee ballot] by mail, postage [prepaid], except where
franked, or deliver it in person to [said county] board of election.” Appeal of Pierce, 843
A.2d at 1231 (quoting 25 P.S. § 3146.6(a)). The parties seeking to ensure that votes
delivered by third parties would be counted cited Weiskerger and its flexibility with respect
to “minor irregularities.”
This Court, however, was unpersuaded and declined the invitation to interpret
“shall” as anything less than mandatory. Moreover, the Court rejected precisely the same
reasoning for interpreting “shall” as directory that Petitioner and the Secretary offer in this
case. As in the instant case, the provision of the Election Code at issue in Appeal of
Pierce did not expressly provide for voiding a ballot delivered by someone other than the
voter. Nevertheless, we held that to construe the in-person requirement “as merely
directory would render its limitation meaningless and, ultimately, absurd.” Id. at 1232.
The Court further distinguished Weiskerger and its safe harbor for “minor irregularities,”
noting that the in-person requirement served the salutary purpose of “limit[ing] the number
of third persons who unnecessarily come in contact with the ballot[,] . . . provid[ing] some
safeguard that the ballot was filled out by the actual voter, . . . and that once the ballot
has been marked by the actual voter in secret, no other person has the opportunity to
tamper with it.” Id. The provision thus served the spirit of the Code, “which requires that
a voter cast his ballot alone, and that it remain secret and inviolate.” Id.
Petitioner and the Secretary attempt to distinguish Appeal of Pierce by
emphasizing that there was no statutory provision in that case that was inconsistent with
the judicially inferred remedy, such as the provisional ballot secrecy envelope provision
in this case.

They assert that here, by contrast, the Legislature has directed the

[J-96-2020] - 51

disqualification of provisional ballots not enclosed in the secrecy envelope, and of mail-in
ballots with certain markings on the secrecy envelope, rendering its silence with regard
to omitted secrecy envelopes for mail-in ballots all the more conspicuous.
The clear thrust of Appeal of Pierce, however, is that, even absent an express
sanction, where legislative intent is clear and supported by a weighty interest like fraud
prevention, it would be unreasonable to render such a concrete provision ineffective for
want of deterrent or enforcement mechanism. What we learn from that decision is that
violations of the mandatory statutory provisions that pertain to integral aspects of the
election process should not be invalidated sub silentio for want of a detailed enumeration
of consequences.
We must in all instances assume that the General Assembly does not intend a
statute to be interpreted in a way that leads to an absurd or unreasonable result. See 1
Pa.C.S. § 1922(1) (“In ascertaining the intention of the General Assembly in the
enactment of a statute the following presumptions . . . may be used: (1) That the General
Assembly does not intend a result that is absurd, impossible of execution or
unreasonable.”).

The result proffered by Petitioner and the Secretary is no more

reasonable than that which the Court in Appeal of Pierce found untenable. The Court in
Appeal of Pierce viewed a textual mandate pertaining to fraud prevention and ballot
secrecy as signaling the Legislature’s intent that its violation would require voiding the
ballot, notwithstanding no statutory provision to that effect. To avoid an absurd result, it
inferred that intent from nothing more than the provision itself.
We reach the same result here. It is clear that the Legislature believed that an
orderly canvass of mail-in ballots required the completion of two discrete steps before

[J-96-2020] - 52

critical identifying information on the ballot could be revealed. The omission of a secrecy
envelope defeats this intention. Moreover, in providing for the disqualification of mail-in
ballots that arrive in secrecy envelopes that bear markings identifying the elector, the
elector’s party affiliation, or the elector’s vote, all categories of information that appear on
the ballot itself, the Legislature signaled beyond cavil that ballot confidentiality up to a
certain point in the process is so essential as to require disqualification. Thus, we find
that our holding in Appeal of Pierce leads to the inescapable conclusion that a mail-in
ballot that is not enclosed in the statutorily-mandated secrecy envelope must be
disqualified.
Accordingly, we hold that the secrecy provision language in Section 3150.16(a) is
mandatory and the mail-in elector’s failure to comply with such requisite by enclosing the
ballot in the secrecy envelope renders the ballot invalid.
E. COUNT V OF THE PETITION FOR REVIEW
In Count V of its petition, Petitioner seeks a declaration specifying that the poll
watcher residency requirement, found in Section 2687(b) of the Election Code, 25 P.S.
§2687(b), does not violate state or federal constitutional rights.32 Petition at 55, ¶ 207.
The Secretary concurs with Petitioner in this regard.
The Election Code permits candidates and political parties to appoint “poll
watchers” to monitor the integrity of the voting process.33 “Each watcher so appointed

32

Specifically, Petitioner maintains that the poll watcher residency requirement does not
violate the United States Constitution’s First Amendment, the Fourteenth Amendment,
the Equal Protection Clause, or the Equal Protection and Free and Equal Elections
Clauses of the Pennsylvania Constitution.
33

Section 2687(a) provides:

[J-96-2020] - 53

must be a qualified registered elector of the county in which the election district for which
the watcher was appointed is located.” 25 P.S. § 2687(b). This provision, in full, specifies:
Each watcher so appointed must be a qualified registered elector of
the county in which the election district for which the watcher was appointed
is located. Each watcher so appointed shall be authorized to serve in the
election district for which the watcher was appointed and, when the watcher
is not serving in the election district for which the watcher was appointed, in
any other election district in the county in which the watcher is a qualified
registered elector: Provided, That only one watcher for each candidate at
primaries, or for each party or political body at general, municipal or special
elections, shall be present in the polling place at any one time from the time
that the election officers meet prior to the opening of the polls under section
1208 until the time that the counting of votes is complete and the district
register and voting check list is locked and sealed, and all watchers in the
room shall remain outside the enclosed space. It shall not be a requirement
that a watcher be a resident of the election district for which the watcher is
appointed. After the close of the polls and while the ballots are being
counted or voting machine canvassed, all the watchers shall be permitted
to be in the polling place outside the enclosed space. Each watcher shall
be provided with a certificate from the county board of elections, stating his
name and the name of the candidate, party or political body he represents.
Watchers shall be required to show their certificates when requested to do
so. Watchers allowed in the polling place under the provisions of this act,
shall be permitted to keep a list of voters and shall be entitled to challenge
any person making application to vote and to require proof of his
qualifications, as provided by this act. During those intervals when voters
are not present in the polling place either voting or waiting to vote, the judge
of elections shall permit watchers, upon request, to inspect the voting check
list and either of the two numbered lists of voters maintained by the county
board: Provided, That the watcher shall not mark upon or alter these official

Each candidate for nomination or election at any election shall be entitled
to appoint two watchers for each election district in which such candidate is
voted for. Each political party and each political body which had nominated
candidates in accordance with the provisions of this act, shall be entitled to
appoint three watchers at any general, municipal or special election for each
election district in which the candidates of such party or political body are to
be voted for. Such watchers shall serve without expense to the county.
25 P.S. § 2687(a).

[J-96-2020] - 54

election records. The judge of elections shall supervise or delegate the
inspection of any requested documents.
25 P.S. § 2687(b) (footnote omitted).
Petitioner observes that the General Assembly enacted the current poll watcher
residency requirement in 2004 and that no changes were made to this requirement in Act
77. Petitioner asserts that this provision does not suffer from any constitutional infirmities
and notes that the provision has been upheld as constitutional by the federal District Court
for the Eastern District of Pennsylvania in Republican Party of Pennsylvania v. Cortés,
218 F. Supp. 3d 396 (E.D. Pa. 2016), discussed further below.
The Secretary likewise maintains that the poll watcher residency requirement is
constitutional. The Secretary notes that the United States Supreme Court in Anderson v.
Calabrezza, 460 U.S. 780 (1983), recognized the importance of States in regulating
elections. There, the Court stated,
We have recognized that, ‘as a practical matter, there must be a substantial
regulation of elections if they are to be fair and honest and if some sort of
order, rather than chaos, is to accompany the democratic processes.’
Id. at 788 (citing Storer v. Brown, 415 U.S. 724, 730, (1974)). In this regard, the Secretary
observes that the Election Code provides a comprehensive scheme of regulations for
voting and elections in the Commonwealth.

The Secretary maintains that these

regulatory interests are generally considered sufficient to justify reasonable,
nondiscriminatory restrictions on elections. Id.; see also Timmons v. Twin Cities Area
New Party, 520 U.S. 351, 358 (1997) (specifying that “[s]tates may, and inevitably must,
enact reasonable regulations of parties, elections, and ballots to reduce election- and
campaign-related disorder”).
Regarding the provisions in the Election Code requiring that poll watchers be
qualified registered electors from the county in which they serve, like Petitioner, the

[J-96-2020] - 55

Secretary observes that although this Court has not previously addressed the question of
whether this requirement is constitutional, the federal District Court for the Eastern District
of Pennsylvania has done so and rejected a constitutional challenge to the poll watcher
residency requirement in Cortés, supra.
Specifically, there, the District Court considered a constitutional challenge to
Section 2687(b) of the Election Code by the respondent here. Respondent claimed that
the poll watcher residency requirement found at Section 2687(b), requiring poll watchers
to reside in the county in which they serve, is violative of its Fourteenth Amendment rights
to due process and equal protection and their rights to free speech and association under
the First Amendment.
The District Court rejected these claims, noting first, that the regulation does not
violate due process or equal protection. The court observed that serving as a poll watcher
does not implicate a fundamental constitutional right, like the right to vote, but rather, is a
right conferred by statute. Id. at 408. Additionally, the court found that because the state’s
regulation of the qualifications of who may serve as a poll watcher does not burden one’s
voting rights or any other constitutional right, the state imposing the regulation need only
cite a rational basis for the regulation to be upheld. Id. (citing Donatelli v. Mitchell, 2 F.3d
508, 514 & n.10 (3d Circ. 1993) (declining to apply intermediate scrutiny standards
because the plaintiffs’ fundamental rights were not burdened by state law)); and Voting
for Am., Inc. v. Andrade, 488 Fed.Appx. 890, 899 (5th Cir. 2012) (applying rational basis
review as opposed to an intermediate balancing test because state election law did not
implicate or burden specific constitutional rights). In this regard, the court concluded as
follows:
There is a rational basis for Section 2678(b)’s requirement that poll
watchers be qualified electors in the county in which they work. The
Secretary notes that in 1937, the General Assembly enacted a countybased scheme to manage elections within the state, and consistent with that

[J-96-2020] - 56

scheme the legislature endeavored to allow county election officials to
oversee a manageable portion of the state in all aspects of the process,
including in credentialing poll watchers. In short, Pennsylvania opted to
design a county-by-county system of elections; in doing so it ensured as
much coherency in this patchwork system as possible. To that end it
ensured that participants in the election--voters and watchers alike--were
qualified electors in the relevant county. The legislature’s decision to allow
county election officials to credential only poll watchers from their own
county is rationally related to the state’s interest in maintaining its countyrun election system; each county election official is tasked with managing
credentials for a discrete part of the state’s population. As the Secretary’s
counsel noted at the hearing, the legislature chose to ‘draw the lines’ at the
county level, something entirely rational in fashioning a scheme for a state
as large as Pennsylvania.
Cortés, 218 F.Supp. 3d at 409.
The District Court, likewise, rejected Respondent’s claims that Section 2687
violates the First Amendment. The court first noted that courts have found that “poll
watching is not incidental to” the right of free association and has “no distinct First
Amendment protection.” Id. at 414 (citing Cotz v. Mastroeni, 476 F.Supp.2d 332, 364
(S.D. N.Y. 2007); and Dailey v. Hands, No. 14-00423, 2015 WL 1293188, at *5 (S.D. Ala.
Mar. 23, 2015) (“[P]oll watching is not a fundamental right protected by the First
Amendment.”)). Moreover, the court found that poll watchers do not engage in core
political speech while completing their duties. Id. at 415. Rather, the court observed that
“when a poll watcher reports incidents of violations, he is performing a public function
delegated by the state.” Id. (citing Flagg Bros., Inc. v. Brooks, 436 U.S. 149, 158 (1978)
(stating that “[w]hile the Constitution protects private rights of association and advocacy
with regard to the election of public officials, [the Supreme Court] cases make it clear that
the conduct of the elections themselves is an [e]xclusively public function.”)). Thus, the
District Court found that the Commonwealth’s county poll watcher residency requirement
did not implicate poll watchers’ private rights of association or advocacy and, therefore,
did not violate the First Amendment.

[J-96-2020] - 57

Respondent again maintains that the poll watcher residency requirement set forth
in the Election Code is unconstitutional.34 First, Respondent maintains that Cortés is
distinguishable from this matter because of the procedural posture and the timing of that
case. Specifically, Respondent emphasizes the fact that in Cortés it sought a preliminary
injunction eighteen days before the general election and that on this basis the court found
the request for relief to be untimely. Thus, it contends that the court’s further discussion
of the constitutionality of the poll watcher residency requirement was dicta.
Additionally, Respondent argues that the court in Cortés, like the Secretary here,
gave short shrift to the Commonwealth’s obligation to safeguard the electorate from voter
fraud, noting that “every voter in a federal . . . election, whether he votes for a candidate
with little chance of winning or for one with little chance of losing, has a right under the
Constitution to have his vote fairly counted, without its being distorted by fraudulently cast
votes.” Respondent’s Brief at 45 (citing Anderson v. United States, 417 U.S. 211, 227
(1974)). Respondent maintains that due to the distribution of voters throughout the
Commonwealth, the county residency requirement makes it difficult for both political
parties to identify poll watchers in all precincts. Thus, it asserts that, in the absence of
poll watchers, “fraud can flourish.”

Id. at 46.

Respondent further argues that with

Pennsylvania moving to an entirely new election regime under Act 77, with alleged
increased opportunities for ballot fraud and tampering, the need for poll watchers is
heightened.
Turning to the merits, initially, regarding Respondent’s assertion that the District
Court’s discussion of the constitutionality of the poll watcher residency requirement
constitutes dicta because the court found the claims there to be untimely, we note that

34

The Caucus does not advocate in favor of finding the poll watcher residency
requirement unconstitutional.

[J-96-2020] - 58

although that court pointed out that the emergent nature of Respondent’s claims
amounted to a “judicial fire drill” based on their late filing, the court opined further that the
relief sought “would be inappropriate for a number of reasons, not the least of which is
that at this late hour courts should not disrupt an impending election ‘absent a powerful
reason for doing so.’” Cortés, 218 F.Supp.3d. at 405 (citation omitted). The court then
went on to analyze the merits of the constitutional claims asserted and denied relief.
Accordingly, it appears the court made its decision on multiple bases, including the merits
as well as the timing of the claims. Moreover, regardless of the status of the District
Court’s determination of the constitutional issues presented there, we find its analysis
persuasive and agree with its reasoning in upholding the constitutionality of the poll
watcher residency requirement.
The “times, places and manner” of conducting elections generally falls to the
states. U.S. CONST. art. I, § 4 (providing that “the Times, Places and Manner of holding
Elections…shall be prescribed in each State by the Legislature thereof”). Pennsylvania
has enacted a comprehensive code of election laws pursuant to its authority to regulate
its elections.

The General Assembly, in enacting its comprehensive scheme, has

required that any person serving as a poll watcher for a particular candidate or party be
a resident of the county in which she serves in her position. 25 P.S. § 2687(b).
This provision is a legislative enactment which enjoys the presumption that the
General Assembly did not intend to violate constitutional norms, “in part because there
exists a judicial presumption that our sister branches take seriously their constitutional
oaths.” Stilp v. Commonwealth, 905 A.2d 918, 938–39 (Pa. 2006); see also 1 Pa.C.S.
§1922(3).

Accordingly, a statute is presumed to be valid, and will be declared

unconstitutional only if it is shown to be “clearly, palpably, and plainly [violative of] the

[J-96-2020] - 59

Constitution.” West Mifflin Area School District v. Zahorchak, 4 A.3d 1042, 1048 (Pa.
2010).
In analyzing whether a state election law violates the constitution, courts must first
examine the extent to which a challenged regulation burdens one’s constitutional rights.
Burdick v. Takushi, 504 U.S. 428, 434 (1992). Upon determining the extent to which
rights are burdened, courts can then apply the appropriate level of scrutiny needed to
examine the propriety of the regulation. See id. (indicating that “the rigorousness of our
inquiry into the propriety of a state election law depends upon the extent to which a
challenged regulation burdens First and Fourteenth Amendment rights”).
Where a state election regulation imposes a “severe” burden on a plaintiff’s right
to vote, strict scrutiny applies and requires that the regulation is “narrowly drawn to
advance a state interest of compelling importance.” Id. When a state election law
imposes only “reasonable, nondiscriminatory restrictions,” upon the constitutional rights
of voters, an intermediate level of scrutiny applies, and “the State’s important regulatory
interests are generally sufficient to justify” the restrictions. See Id. (upholding Hawaii’s
ban on write-in voting in the primary where doing so places a minimal burden on one’s
voting right and supports the state’s interest in supporting its ballot access scheme).
Where, however, the law does not regulate a suspect classification (race, alienage, or
national origin) or burden a fundamental constitutional right, such as the right to vote, the
state need only provide a rational basis for its imposition. See Donatelli, 2 F.3d at 510 &
515.
In examining the constitutionality of the poll watcher residency provision at issue
here, we conclude, as the District Court in Cortés concluded, that it imposes no burden
on one’s constitutional right to vote and, accordingly, requires only a showing that a
rational basis exists to be upheld. In this regard, as the District Court aptly noted, there

[J-96-2020] - 60

is no individual constitutional right to serve as a poll watcher; rather, the right to do so is
conferred by statute. Cortés, 218 F.Supp.3d at 408. Additionally, courts have indicated
that “poll watching is not incidental to” the right of free association and, thus, “has no
distinct First Amendment protection.” Cotz, 476 F.Supp.2d at 364. Finally, poll watching
does not implicate core political speech. Cortés, 218 F.Supp.3d at 415.
As the poll watcher county residency requirement does not burden one’s
constitutional voting rights, the regulation need only be shown to satisfy a rational basis
for its imposition.

Again, as the District Court aptly recounted, from its inception,

Pennsylvania has envisioned a county-based scheme for managing elections within the
Commonwealth. Consistent therewith, the Legislature has endeavored to allow county
election officials to oversee and manage their portion of the state in all aspects of the
election process, including credentialing poll watchers.

Given that Pennsylvania’s

General Assembly chose a county-based scheme for conducting elections, it is
reasonable that the Legislature would require poll watchers, who serve within the various
counties of the state, to be residents of the counties in which they serve. Thus, there is
a clear rational basis for the county poll watcher residency requirement, and we
determine, therefore, that this requirement should be upheld.
Respondent does not claim that poll watching involves a fundamental
constitutional right or that a level of scrutiny other than rational basis needs to be shown
regarding the regulation of poll watcher qualifications. Instead, Respondent claims that
poll watchers are vital to protect against voter fraud and that because of the distribution
of voters throughout Pennsylvania, the residency requirement makes it difficult to identify
poll watchers in all precincts.

While Respondent asserts the greater need for poll

watchers because of heightened election fraud involving mail-in voting, these claims are

[J-96-2020] - 61

unsubstantiated and are specifically belied by the Act 35 report issued by the Secretary
on August 1, 2020, concerning mail in voting in the Primary Election, finding:
[D]ata provided by the counties reinforces numerous independent studies
that conclude that mail ballot fraud is exceedingly rare, and it demonstrates
that the errors that occurred [in the Primary Election] accounted for a very
small fraction of the nearly 1.5 million absentee and mail-in ballots
requested and cast by voters.
Pennsylvania 2020 Primary Election Act 35 of 2020 Report at 39; Appendix to Petitioner’s
Brief, Exhibit F. Moreover, Respondent’s speculative claim that it is “difficult” for both
parties to fill poll watcher positions in every precinct, even if true, is insufficient to
transform the Commonwealth’s uniform and reasonable regulation requiring that poll
watchers be residents of the counties they serve into a non-rational policy choice.
Based on the foregoing, we conclude that the poll watcher residency requirement
does not violate the state or federal constitutions.35 Accordingly, we grant the relief
sought by Petitioner in their petition for review and declare the poll watcher residency
requirement set forth in Section 2687(b) of the Election Code, 25 P.S. § 2687(b), to be
constitutional.
IV. CONCLUSION
Based on our disposition of all of the claims set forth above, we grant relief on the
claims set forth in Counts I, II, and V of the Democratic Party’s petition for review as
follows and hold that: (Count I) the Election Code permits county boards of election to
collect hand-delivered mail-in ballots at locations other than their office addresses
including drop-boxes as indicated herein, see supra. at 20 n. 15; (Count II) a three-day
extension of the absentee and mail-in ballot received-by deadline is adopted such that

35

Respondent has not asserted that the Pennsylvania Constitution offers greater
protection under the circumstances presented. Thus, for purposes of our review, we treat
them as co-extensive.

[J-96-2020] - 62

ballots mailed by voters via the United States Postal Service and postmarked by 8:00
p.m. on Election Day , November 3, 2020, shall be counted if they are otherwise valid and
received by the county boards of election on or before 5:00 p.m. on November 6, 2020;
ballots received within this period that lack a postmark or other proof of mailing, or for
which the postmark or other proof of mailing is illegible, will be presumed to have been
mailed by Election Day unless a preponderance of the evidence demonstrates that it was
mailed after Election Day; (Count V) the poll watcher residency requirement set forth in
Section 2687(b) of the Election Code, 25 P.S. § 2687(b), is constitutional. Also, for the
reasons set forth herein, we deny the relief sought in Count III and IV of the petition for
review.
Justices Todd, Dougherty, and Wecht join the opinion.
Chief Justice Saylor and Justice Mundy join Parts I, II, and III(C), (D) and (E) of
the opinion.
Justice Donohue joins Parts I, II, and III(A), III(C), III(D) and III(E) of the opinion.
Justice Wecht files a concurring opinion.
Chief Justice Saylor files a concurring and dissenting opinion in which Justice
Mundy joins.
Justice Donohue files a concurring and dissenting opinion in which Chief Justice
Saylor and Justice Mundy join Part II.

[J-96-2020] - 63

[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:

COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] [MO: Baer, J.] - 2

OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS

PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING OPINION

JUSTICE WECHT

DECIDED: September 17, 2020

I join the learned Majority’s Opinion in full. “No right is more precious in a free
country than that of having a voice in the election of those who make the laws under
which, as good citizens, we must live. Other rights, even the most basic, are illusory if
the right to vote is undermined.”1 As the Supreme Court of the United States has
explained, the right to vote comprises not just “the right of qualified voters within a state

1

Wesberry v. Sanders, 376 U.S. 1, 17 (1964).

[J-96-2020] [MO: Baer, J.] - 3

to cast their ballots,” but also the right “to have their ballots counted.” 2

In our

Commonwealth, the franchise is guaranteed by the Free and Equal Elections Clause of
the Pennsylvania Constitution, which commands: “Elections shall be free and equal; and
no power, civil or military, shall at any time interfere to prevent the free exercise of the
right of suffrage.”3

The history of that clause, which predates the United States

Constitution and has no federal counterpart, evinces the intent of its framers that it be
given “the broadest interpretation, one which governs all aspects of the electoral
process.”4
Expounding upon the contours of the guarantee of free and equal suffrage
contained within the Constitution of Kentucky, which was modeled on our own organic
charter, the Kentucky Supreme Court observed that, “when any substantial number of
legal voters are, from any cause, denied the right to vote, the election is not free and
equal, in the meaning of the Constitution.”5
[T]his constitutional provision admits of no evasions or exceptions. No
amount of good intention or good faith can be allowed to defeat its purpose
or its meaning. When the question arises, the single inquiry will be: Was
the election free and equal, in the sense that no substantial number of
persons entitled to vote and who offered to vote were denied the privilege? 6

2

United States v. Classic, 313 U.S. 299, 314, 315 (1941); accord United States v.
Mosley, 238 U.S. 383, 386 (1915).
3

PA. CONST. art. I, § V.

4

League of Women Voters of Pa. v. Pa., 178 A.3d 737, 809 (Pa. 2018); see Winston
v. Moore, 91 A. 520, 523 (Pa. 1914).
5

Wallbrecht v. Ingram, 175 S.W. 1022, 1026 (Ky. 1915).

6

Id. at 1027.

[J-96-2020] [MO: Baer, J.] - 4

Although the conditions that might infringe the franchise are too manifold to enumerate,
when we are satisfied that a violation of the right has occurred or is likely to occur, “our
Court possesses broad authority to craft meaningful remedies when required.”7
“Confidence in the integrity of our electoral processes is essential to the functioning
of our participatory democracy.”8 To that end, we recognized in League of Women Voters
that “[a] broad and robust interpretation” of the Free and Equal Elections Clause could
restore the public’s confidence in the redistricting process by “guard[ing] against the risk
of unfairly rendering votes nugatory.”9 The same easily could be said of an election
scheduled in the wake—or midst—of a natural disaster, civil unrest, or other emergency,
where systemic disruptions in basic government services like mail delivery—upon which
the machinery of our election system relies more than ever with the advent of broad mailin voting—can be demonstrated or reasonably anticipated.10

Indeed, the “adverse

consequences” occasioned by a dysfunctional electoral process that threatens to
disenfranchise a broad swath of the electorate are no less pernicious than those of
partisan gerrymandering. Left unabated, each threatens to “discourag[e] voters from

7

League of Women Voters, 178 A.3d at 822 (citing PA. CONST. art. V, §§ 1, 2, 10);
see Reynolds v. Sims, 377 U.S. 533, 566 (1964) (“[A] denial of constitutionally protected
rights demands judicial protection; our oath and our office require no less of us.”).
8

Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per curiam).

9

League of Women Voters, 178 A.3d at 814.

See In re General Election-1985, 531 A.2d 836, 839 (Pa. Cmwlth. 1987) (“To
permit an election to be conducted where members of the electorate could be deprived
of their opportunity to participate because of circumstances beyond their control . . . would
be inconsistent with the purpose of the election laws.”).
10

[J-96-2020] [MO: Baer, J.] - 5

participating in the electoral process because they have come to believe” that their vote
will not count through no fault of their own.11
In determining whether present systemic disruptions in government services are
well-documented in this Commonwealth, we need look no further than the recent
Congressional testimony of Postmaster General Louis DeJoy.

Appearing before

committees of the United States House and Senate, DeJoy acknowledged that “[a]
substantial portion of [mail] delays are related to COVID.”12 Highlighting the acute effects
of the pandemic on mail delays within Pennsylvania, DeJoy explained:
As the coronavirus cases throughout the country have expanded it has had
an impact on our employee availability. And in the urban areas that are
hotspots—the averages don’t play out what the real picture is like in areas
like Philadelphia, where employee availability is significantly below normal
run rates.13
Lacking any materially contradictory evidence, we have no reason to doubt the accuracy
of DeJoy’s testimony on these points. While the Postal Service may be able to prioritize
election mail to mitigate these concerns, they cannot alter the laws of time and space.
The extraordinary circumstances under which this year’s quadrennial presidential
election must be contested manifestly justify an equitable remedy modifying the received-

11

League of Women Voters, 178 A.3d at 814; cf. Working Families Party v.
Commonwealth, 209 A.3d 270, 306-07 (Pa. 2019) (Wecht, J., concurring and dissenting)
(“The Free and Equal Elections Clause is compromised where the regulatory approach
adopted by the legislature has the well-documented effect of . . . depressing voter
enthusiasm and participation.”).
12

Examining the Finances and Operations of the United States Postal Service During
COVID-19 and Upcoming Elections: Hearing Before the S. Homeland Security Comm.,
116th Cong. (Aug. 21, 2020).
13

Protecting the Timely Delivery of Mail, Medicine, and Mail-in Ballots: Hearing
Before the H. Oversight & Gov’t Reform Comm., 116th Cong. (Aug. 24, 2020).

[J-96-2020] [MO: Baer, J.] - 6

by deadline for absentee and mail-in ballots to account for these exigencies and to ensure
that no unnecessary impediments to each citizen’s exercise of the franchise be interposed
that reasonably can be avoided. Having determined that the convergence of a once-ina-century pandemic and unprecedented operational delays in United States Postal
Service delivery capacity threatens to undermine the integrity of our general election, this
force majeure necessitates relief.
I endorse the Majority’s narrowly-tailored remedy, which extends the received-by
deadline by just three days to compensate for projected mail-delivery delays of similar
duration.

Extrapolating from the Department of State’s primary election data, that

timeframe should capture the vast majority of late-arriving ballots that were deposited with
the Postal Service on or in the few days before Election Day. That approach also will
minimize the number of voters denied the franchise simply for mailing their votes based
upon long-trusted, but presently unrealistic expectations about the speed of the post,
while minimizing any subsequent delay in the tallying of votes and avoiding any material
disruption to the sequence of events that follow in the weeks following a national election.
While I join the Majority’s resolution of Count III, I do so subject to the belief that it
is limited to the particular concerns litigated and the lack of any proposal regarding a
practicable manner of relieving the problem alleged. In my view, today’s ruling should be
understood to extend no farther than to ballot defects that are capable of objective
assessment pursuant to uniform standards14—a qualification that captures all of the
defects Petitioners seek the opportunity to cure in this case.

See PA. CONST. art. VII, § 6 (“All laws regulating the holding of elections by the
citizens . . . shall be uniform throughout the State.”); Kuznik v. Westmoreland Cty. Bd. of
14

[J-96-2020] [MO: Baer, J.] - 7

For example, the failure to “fill out, date and sign the declaration printed on” the
ballot return envelope, as required by 25 P.S. § 3150.16(a), is a deficiency that can be
readily observed. Absent some proof that the enforcement of such a uniform, neutrally
applicable election regulation will result in a constitutionally intolerable ratio of rejected
ballots, I detect no offense to the Free and Equal Elections Clause. Moreover, Petitioners
propose only an amorphous standard that would permit electors to cure “minor” defects
and omissions; they supply no judicially manageable criteria for distinguishing “minor”
defects from “major” ones that could be adopted on a statewide basis, nor do they
propose a process to facilitate the opportunity to cure that they seek that can be
implemented and fairly administered in every voting district in the Commonwealth in the
weeks between now and the general election. So long as the Secretary and the county
boards of elections provide electors with adequate instructions for completing the
declaration of the elector—including conspicuous warnings regarding the consequences
for failing strictly to adhere—pre-deprivation notice is unnecessary.
But I view these issues as distinct from circumstances in which a ballot’s validity
turns on subjective assessments, such as signature mismatches assessed by poll
workers with no training or expertise in matching signatures. The enforcement of such
requirements presents risks of inconsistency and arbitrariness that may implicate
constitutional guarantees not raised in this case, including due process and equal
protection principles. Signature comparison is a process fraught with the risk of error and

Comm’rs, 902 A.2d 476, 490 (Pa. 2006) (“We have held that ‘to be uniform in the
constitutional sense . . . a law [regulating the holding of elections] must treat all persons
in the same circumstances alike.’”) (quoting Kerns v. Kane, 69 A.2d 383, 393 (Pa. 1949)).

[J-96-2020] [MO: Baer, J.] - 8

inconsistent application, especially when conducted by lay people.15 While this case
offers no challenge to such inherently subjective bases for disqualifying ballots, I do not
view today’s Opinion as foreclosing the possibility of relief in a future case seeking the
opportunity to address circumstances in which a subjective, lay assessment of voter
requirements as to which reasonable minds might differ stands between the elector and
the tabulating machine.
We would not write on a blank slate in this regard. These concerns have been
recognized by numerous tribunals in recent years, and various courts have granted relief
on similar grounds, including three federal courts in the last few weeks alone.16 Those

15

Cf. United States v. Starzecpyzel, 880 F.Supp. 1027, 1046 (S.D.N.Y. 1995) (noting
the risk of “natural variations” in handwriting and citing factors such as “disease,
intoxication and the passage of time,” and citing a putative handwriting expert as
observing that “[s]ome people have a lot of individuality present in their writing and other
people do not”).
16

See, e.g., Ariz. Dem. Party v. Hobbs, CV-20-01143-PHX-DLR (D. Ariz. Sept. 10,
2020); Richardson v. Tex. Sec. of State, SA-19-cv-00963-OLG (W.D. Tex. Sept. 8, 2020);
Frederick v. Lawson, 1:19-cv-01959-SEB-MDJ, ___ F. Supp. 3d ___, 2020 WL 4882696
(S.D. Ind. Aug. 20, 2020); see also League of Un. Latin Am. Citizens of Iowa v. Pate, Polk
Cty. CVCV056403, 2018 WL 3946147, at *1 (Iowa Aug. 10, 2018) (enjoining use of
signature-matching provisions in Iowa’s Election Code); Martin v. Kemp, 341 F. Supp. 3d
1326 (N.D. Ga. 2018) (enjoining enforcement of Georgia statute permitting rejection of
absentee ballots and ballot applications due to alleged signature mismatch), emergency
motion for stay of injunction pending appeal denied, Georgia Muslim Voter Project v.
Kemp, 918 F.3d 1262 (11th Cir. 2019); Saucedo v. Gardner, 335 F. Supp. 3d 202, 222
(D. N.H. 2018) (holding that New Hampshire’s signature-match requirement for absentee
ballots was facially unconstitutional under the Fourteenth Amendment); Florida Dem.
Party v. Detzner, 4:16cv607-MW/CAS, 2016 WL 6090943, at *9 (N.D. Fla. Oct. 16, 2016)
(striking down Florida’s mail-in ballot signature match law as violative of the Fourteenth
Amendment); Zessar v. Helander, 05 C 1917, 2006 WL 642646, at *10 (N.D. Ill. 2006)
(finding that the Illinois Election Code provisions requiring signature comparisons on
absentee ballots violated voters’ due process rights); La Follette v. Padilla, CPF-17515931, 2018 WL 3953766, at *3 (Cal. Super. Ct. Mar. 5, 2018) (holding that California
Election Code ballot signature-mismatch provision facially violates due process);
cf. Susie Armitage, Handwriting Disputes Cause Headaches for Some Absentee Voters,
ProPublica
(Nov. 5, 2018),
www.propublica.org/article/handwriting-disputes-cause-

[J-96-2020] [MO: Baer, J.] - 9

courts have found that the administrative burden of a notice-and-cure remedy is
outweighed by the threat to the fundamental rights of voters whose ballots otherwise
would not be counted.
While one might hope that the General Assembly would revisit the issue and
consider furnishing such a procedure on its own initiative, this Court has the prerogative
to address this problem if it proves worthy upon closer examination. As a “state court
with the power to assure uniformity,” we have the authority, and indeed the obligation, to
direct the canvassing of absentee and mail-in ballots in a manner that satisfies “the
rudimentary requirements of equal treatment and fundamental fairness” when we find a
palpable failure to meet those constitutional thresholds.17 Regardless, Petitioners do not
bring a discrete challenge to the Commonwealth’s prescribed processes for examining
the validity of signatures on ballot envelopes, so resolution of that question must wait.18
Turning finally to Count IV, I agree wholeheartedly with the Majority’s analysis. I
write separately to underscore that this case illustrates most consequentially the potential
for mischief, albeit well-meaning, when we are called upon to question the “true” meaning
of the General Assembly’s contextually ambiguous use of the word “shall.” In my view,

headaches-for-some-absentee-voters (discussing legal challenges to signature-match
laws).
17

Bush v. Gore, 531 U.S. 98, 109 (2000) (per curiam).

18

During the pendency of this appeal, Secretary Boockvar issued a guidance
document that, in furtherance of “consistency across the 67 counties,” instructs election
officials that “[t]he Pennsylvania Election Code does not authorize the county board of
elections to set aside returned absentee or mail-in ballots based solely on signature
analysis by the county board of elections.” Guidance Concerning Examination of
Absentee and Mail-In Ballot Return Envelopes at 3 (Sept. 11, 2020) www.dos.pa.gov/
VotingElections/OtherServicesEvents/Documents/Examination%20of%20Absentee%20
and%20Mail-In%20Ballot%20Return%20Envelopes.pdf.

[J-96-2020] [MO: Baer, J.] - 10

there are times when this Court has done so gratuitously. But far more frequently, this
unfortunate circumstance is foisted upon us by the choices made by the General
Assembly during the often tortuous drafting process,
The difficulty inherent in that enterprise, and concomitantly the risk that we will
misconstrue legislative intent, is clear. In searching for methods to remove the guesswork
from such situations, Pennsylvania courts have labored mightily but in vain to fashion a
coherent organizing principle for determining when the legislature meant “you may” when
it said “you must.”
For example, the Superior Court once suggested that the distinction inheres in “the
effect of non-compliance . . . . A provision is mandatory when failure to follow it renders
the proceedings to which it relates illegal and void; it is directory when the failure to follow
it does not invalidate the proceedings.”19

But where the court considers the

consequences of a failure to perform a task stated in mandatory language, this distinction
is nonsensical: we cannot gauge the effect of non-compliance simply by asking what the
effect of non-compliance is. In Bell v. Powell, we proposed an equally confounding
alternative:
[Shall] may be construed to mean ‘may’ when no right or benefit to any one
depends on its imperative use, when no advantage is lost, when no right is
destroyed, when no benefit is sacrificed, either to the public or to any
individual, by giving it that construction, or when it is absolutely necessary
to prevent irreparable mischief, or to construe a direction so that it shall not
interfere with vested rights, or conflict with the proper exercise of power by
either of the fundamental branches of government . . . .20

19

Borough of Pleasant Hills v. Carroll, 125 A.2d 466, 469 (Pa. Super. 1956) (en
banc) (emphasis in original).
20

Commonwealth ex rel. Bell v. Powell, 94 A. 746, 748 (Pa. 1915) (cleaned up).

[J-96-2020] [MO: Baer, J.] - 11

This impenetrable passage suggests nothing to me so much as that we are free to do
whatever we want only when what we do does not matter.
To be sure, there may be value in legislating in both mandatory and directory
terms. But no benefit is served by, nor is there any excuse for, rendering the distinction
opaque with critical omissions, such as the failure to specify a specific consequence for
failing to adhere to a particular mandate—especially where, as in the case of naked
ballots, the legislature did so for closely related, if not constructively identical, correlative
statutory provisions.

The General Assembly must endeavor always to distinguish

between what it intends to be mandatory and what directory, in its words or by clear and
necessary inference. When it fails to do so, courts are left to bend unclear texts toward
whatever ends that they believe to be consonant with legislative intent, but with little or
no contemporaneous insight into whether they have done so successfully. When the
General Assembly does not choose its words carefully according to their intended effect,
it leaves courts with no choice but to sharpen what the drafters made dull.
For this Court’s part, if we are to maintain a principled approach to statutory
interpretation that comports with the mandate of our Statutory Construction Act, if we are
to maximize the likelihood that we interpret statutes faithfully to the drafters’ intended
effect, we must read mandatory language as it appears, and we must recognize that a
mandate without consequence is no mandate at all. If the result, at times, is that the
Court imposes a more doctrinaire result than the legislature intended, that body has the
tools at its disposal to ensure that the same mistake does not recur.

[J-96-2020] [MO: Baer, J.] - 12

[J-96-2020][M.O. - Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:

COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020][M.O. - Baer, J.] - 2

OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS

PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING AND DISSENTING OPINION

CHIEF JUSTICE SAYLOR

DECIDED: September 17, 2020

I join Parts I, II, and III(C), (D) and (E) of the majority opinion, and I respectfully
dissent relative to Parts III(A) and (B), concerning the approval of unmanned drop boxes
and the extension of the deadline for receiving mail-in ballots.
With regard to drop boxes, I agree with Respondent and the Caucus that the
statutory option for a voter to deliver a mail-in ballot “in person to said county board of
election” contemplates in-person delivery to a manned, office location.

25 P.S.

§3150.16(a). Although another provision of the Election Code contemplates receipt of
“ballot boxes and returns . . . in such other place as has been designated by the board”
on Election Day, id. §3151, no analogous provision applies to the submission by voters
of individual ballots. Moreover, the legislative policy to restrain aggregated handling of

[J-96-2020][M.O. - Baer, J.] - 3

mail-in ballots by third parties is manifest, see, e.g., id. §3150.16(a) (requiring the elector
to mail or deliver a ballot), and the enforceability of this policy is weakened by the use of
non-statutory, unmanned drop boxes. This, to me, this suggests against a permissive
interpretation of the Election Code.
Relative to the deadline for receiving mail-in ballots, I join Part II of Justice
Donohue’s concurring and dissenting opinion, as this most closely hews to the express
legislative intent that the election be concluded by 8:00 p.m. on election night.
Finally, although the majority decision appears to be designed to accommodate
only ballots actually mailed on Election Day or before, the majority does not so much as
require a postmark. Particularly in combination with the allowance of drop boxes, this
substantially increases the likelihood of confusion, as well as the possibility that votes will
be cast after 8:00 p.m. on Election Day, thus greatly undermining a pervading objective
of the General Assembly.

Justice Mundy joins this concurring and dissenting opinion.

[J-96-2020][M.O. - Baer, J.] - 4

[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] [MO: Baer, J.] - 2

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS

PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING AND DISSENTING OPINION

JUSTICE DONOHUE

DECIDED: September 17, 2020
I.

I join the Majority’s opinion as to Parts I, II, and III(A), III(C), III(D) and III(E).
II.
With respect to Part III(B), I agree that Petitioners are entitled to relief, but I
distance myself from the Majority’s analysis to reach this conclusion as well as the specific
relief granted. Petitioners base their request for relief on the infringement of the rights
afforded by Article 1, Section 5 of the Pennsylvania Constitution, our Free and Equal
Elections Clause.1 In my mind, the issue must be framed as an as-applied challenge,

1

Article I, Section 5 of the Pennsylvania Constitution provides as follows:

[J-96-2020] [MO: Baer, J.] - 3

during the duration of the COVID-19 public health crisis and current USPS service
standards, to the constitutionality of Sections 3150.12a(a) and 3150.16(c) of Act 77, which
respectively set the last date on which voters may request mail-in ballots and the deadline
for when ballots must be received by county boards of elections. With deference to my
learned colleagues, I believe that this issue should have been decided in a case in this
Court’s original jurisdiction under Act 77, Michael Crossey et al, v. Kathy Bookckvar, et
al., No. 108 MM 2020, where the claims likewise were based on the Free and Equal
Elections clause and in which this Court ordered the creation of a complete evidentiary
record to determine whether the petitioners there had met their high burden to prove the
existence of a constitutional injury entitling them to relief.
Despite invoking an as-applied constitutional challenge in the present case,
Petitioners and the Secretary (as in Crossey) seek equitable relief in the form of an order
permitting non-compliance with the received-by provision in Act 77 (Section 3150.16(c))
during the COVID-19 pandemic. I am not as comfortable as the Majority with the ability
of this Court to exercise equitable powers in election matters.2

Because they are

Elections shall be free and equal; and no power, civil or
military, shall at any time interfere to prevent the free exercise
of the right of suffrage.
Pa. Const., art. 1, § 5.
2

Section 3046 of the Election Code provides courts of common pleas with authority, with
some latitude, to make rulings on Election Day to secure compliance with the election
laws. 25 P.S. § 6046. Specifically, a judge or judges from each county will remain in
session on Election Day to “act as a committing magistrate for any violation of the election
laws; shall settle summarily controversies that may arise with respect to the conduct of
the election; shall issue process, if necessary, to enforce and secure compliance with the
election laws; and shall decide such other matters pertaining to the election as may be
necessary to carry out the intent of this act.” Id. The Commonwealth Court relied on
Section 3046 in deciding In re General Election-1985, 531 A.2d 836 (Pa. Commw. 1987)

[J-96-2020] [MO: Baer, J.] - 4

inherently political, elections are appropriately regulated by the political branch. In re
Guzzardi, 99 A.3d 381, 385 (Pa. 2014). As such, out of respect for legislatures and for
the sake of regularity and orderliness in the election process, the supreme courts of our
sister states have routinely held that courts cannot exercise equitable powers to mitigate
harsh results in derogation of legislative requirements for strict compliance with electionrelated deadlines. Butts v. Bysiewicz, 5 A.3d 932, 947 (Conn. 2010) (“Equity only applies
in the absence of a specific statutory mandate.”); see also Martin v. Secretary of State,
755 N.W.2d 153, 154 (Mich. 2008); Smith v. Kiffmeyer, 721 N.W.2d 912, 914–15 (Minn.
2006); Andrews v. Secretary of State, 200 A.2d 650, 651 (Md. 1964). Following the leads
of these courts, in 2014, this Court denied equitable relief to a litigant in an election case,
holding as follows:
[T]he judiciary should act with restraint, in the election arena,
subordinate to express statutory directives. Subject to
constitutional limitations, the Pennsylvania General Assembly
may require such practices and procedures as it may deem
necessary to the orderly, fair, and efficient administration of
public elections in Pennsylvania.
At least where the
Legislature has attached specific consequences to particular
actions or omissions, Pennsylvania courts may not mitigate
the legislatively prescribed outcome through recourse to
equity.
Guzzardi, 99 A.3d at 385. The Court recently reaffirmed our decision in Guzzardi.
Reuther v. Delaware Cty. Bureau of Elections, 205 A.3d 302, 308-09 (Pa. 2019).

(in light of a flood occurring on election day, the court of common pleas had the authority
to suspend voting in certain districts until the emergency was over), appeal denied, 544
A.2d 963 (Pa. 1988).
The Majority relies on In re General Election-1985 to support our broad equitable powers
to act in this case despite the limitations in Section 3046.

[J-96-2020] [MO: Baer, J.] - 5

Without the availability of equitable relief, it is my view that Petitioners are entitled
to relief only in the context of an as-applied constitutional challenge.

Specifically,

Petitioners must prove that in light of the existing circumstances, the short seven-day
timeframe established by Sections 3150.12a(a) and 3150.16(c) of Act 77 provides
insufficient time for a voter to request a mail-in ballot (by October 27, 2020) and return it
to a county board of elections by the statutorily set received-by date (8:00 p.m. on Election
Day, November 3, 2020), so that the vote is counted. Such a constitutional challenge
requires a plain showing of injury.

“There is a presumption that lawfully enacted

legislation is constitutional. Should the constitutionality of legislation be challenged, the
challenger must meet the burden of rebutting the presumption of constitutionality by a
clear, palpable and plain demonstration that the statute violates a constitutional
provision.” Yocum v. Commw. of Pennsylvania Gaming Control Bd., 161 A.3d 228, 238
(Pa. 2017).
In Crossey, the petitioners produced sufficient evidence to meet this high “clear,
palpable and plain” burden of proof. Given the deadlines set for the request of and
subsequent return of ballots, considered in light of the pandemic and current lagging
USPS service standards (which are highly unlikely to improve significantly before Election
Day), the evidence in Crossey established that there is a strong likelihood that voters who
wait until the last day to apply for a mail-in or absentee ballot will be disenfranchised, as
their mail-in ballots will not be delivered by Election Day and thus will not be counted.
Thus, the short seven-day window set forth in Sections 3150.12a(a) and 3150.16(c) of
Act 77 constitutes an interference with the free exercise of the right to vote as guaranteed
by our Free and Equal Elections Clause. The evidentiary linchpin for establishing the

[J-96-2020] [MO: Baer, J.] - 6

unconstitutionality of the seven-day time frame was correspondence from Thomas J.
Marshall, General Counsel and Executive Vice President for the USPS, to Secretary
Boockvar dated July 29, 2020 advising that the current service standards for delivery of
First Class Mail is two to five days, and cautioning that Pennsylvania’s application and
return deadlines for mail-in ballots are such that despite prompt actions by voters, the
ballots may “not be returned in time to be counted.” The letter was accepted into evidence
in Crossey and was further supported by the testimony of the Deputy Postmaster at the
time the correspondence was crafted.
The existence of the constitutional injury suffered by virtue of adherence to the
statutory deadlines for request and return of ballots is illustrated in the following chart,
which incorporates the fact of receipt by the board of elections of an application on the
statutory deadline of October 27, 2020.

It also assumes that the application is

immediately processed and a ballot mailed to the voter within forty-eight hours of receipt
of the application.3 I further take into account that mail is processed by USPS but not
delivered on Sundays. All computations are based on the use of First-Class Mail:
DATE
BALLOT
MAILED
BY
BOARD

DELIVERY
TIME (in
days)

Thursday,
10/29/2020

2

DATE
BALLOT IS
RECEIVED
BY VOTER

DATE
BALLOT IS
MAILED
BACK BY
VOTER
Saturday,
10/31/2020

DELIVERY
TIME (in
days)

DATE BALLOT IS
RECEIVED BY
BOARD

BALLOT
RECEIVED
IN TIME TO
BE
COUNTED?

2

Monday, 11/2/2020

YES

3

Tuesday, 11/3/2020

YES

3

In this regard, we note that 25 P.S. § 3150.15 provides that county boards of elections
must deliver the ballots to the voters within forty-eight hours after approval of the
application. See 25 P.S. § 3150.15 (“As additional applications are received and
approved, the board shall deliver or mail official mail-in ballots to the additional electors
within 48 hours.”).

[J-96-2020] [MO: Baer, J.] - 7

Saturday,
10/31/2020

Saturday,
10/31/2020

Monday,
11/2/2020

Monday,
11/2/2020

3-4

Monday,
11/2/2020

Monday,
11/2/2020

5

Tuesday,
11/3/2020

Monday,
11/2/2020

Tuesday,
11/3/2020
Wednesday,
11/4/2020

4

Wednesday,
11/4/2020

NO

5

Thursday, 11/5/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday, 11/5/2020

NO

4

Friday, 11/6/2020

NO

5

Saturday, 11/7/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday, 11/5/2020

NO

4

Friday, 11/6/2020

NO

5

Saturday 11/7/2020

NO

2-5

(After Election Day)

NO

2-5

(After Election Day)

NO

2-5

(After Election Day)

NO

The only way the current statutory framework works is if the ballot is delivered by USPS
in two days, the voter immediately returns the ballot, and it is received by the board of
elections within three days. All other voters who comply with the statutory framework are
disenfranchised, even though they complied with the statute.
The role of the judiciary when a meritorious constitutional challenge is brought
“includes the obligation to vindicate” the constitutional rights at issue, and in doing so
courts have wide latitude to craft an appropriate remedy.”

Robinson Twp. v.

Commonwealth, 83 A.3d 901, 953 (Pa. 2013); see also League of Women Voters of Pa.
v. Commonwealth, 178 A.3d 737, 793 (Pa. 2018) (“The Court possesses broad authority
to craft meaningful remedies [for constitutional violations] when required.”). Where, as

[J-96-2020] [MO: Baer, J.] - 8

here, “a legislatively unforeseen constitutional problem requires modification of a statutory
provision as applied,” the United States Supreme Court has admonished courts to look
to legislative intent when devising a remedy. See United States v. Booker, 543 U.S. 220,
246-47 (2005) (after ruling that federal sentencing statute that made guidelines
mandatory was unconstitutional, the Court made an effort to determine what “‘Congress
would have intended’ in light of the Court’s constitutional holding.” Id. at 246-47.
In Crossey (and in the present case), Petitioners recommend that the “received
by” date be moved from Election Day to seven days after Election Day, so long as the
mailing is postmarked by Election Day. In Crossey (and here), Secretary Boockvar
believes that moving the received-by day forward by three days is sufficient, and that
Petitioners’ longer time period would in fact interfere with other important functions that
must take place after Election Day. In crafting a remedy for an as-applied constitutional
violation, a court’s duty is to effectuate the intent of the General Assembly to the extent
possible and to otherwise not disrupt the statutory scheme. In light of these principles, I
do not believe that either of the parties’ recommended remedies provide the appropriate
solution.
There is no reasonable reading of the statute that would lead to the conclusion that
the Tuesday before Election Day was of any institutional importance. Instead, the clear
legislative intent was that all ballots were to be cast by 8:00 p.m. on Election Day, the
termination of the balloting process. It cannot be viewed as a coincidence that the closing
of the polls terminating in-person voting and the receipt of mail-in ballots were designated
by the statute to be the same. The last date on which applications for ballots would be
accepted was tied to an assumption that a timely vote could be cast before the only

[J-96-2020] [MO: Baer, J.] - 9

meaningful milestone, Election Day. As a result, the remedy to best effectuate the
legislative intent before the intervening circumstances is to move back, i.e., make earlier,
the final date on which applications for mail-in ballots may be submitted to the county
boards of elections. I would accept Secretary Boockvar’s opinion that three additional
days will substantially correct the problem. However, moving back by three days the
deadline for the receipt of applications by the boards of elections would result in that
deadline falling on Saturday. Instead, to reflect normal business days, the deadline for
receipt of the application by the boards of election should be moved to Friday, October
23, 2020. The received-by date for the ballot by the boards of elections, Election Day by
8:00 p.m., should remain unchanged.
For comparison, the following chart illustrates the new deadlines interfaced with
current USPS delivery standards:
DATE
BALLOT
MAILED BY
BOARD

DELIVERY
TIME (in
days)

DATE
BALLOT
RECEIVED
BY VOTER

DATE
BALLOT
MAILED BY
VOTER

DELIVERY
TIME (in
days)

DATE BALLOT
RECEIVED BY
BOARD

Wednesday,
10/28/2020

Wednesday,
10/28/2020

2
3
4
5

Friday, 10/30/2020
Saturday, 10/31/2020
Monday 11/2/2020
Monday 11/2/2020

BALLOT
RECEIVED IN
TIME TO BE
COUNTED?
YES
YES
YES
YES

2

Saturday, 10/31/2020

YES

3

Monday, 11/2/2020

YES

4

Monday, 11/2/2020

YES

5

Tuesday, 11/3/2020

YES

2

Monday, 11/2/2020

YES

2
Wednesday,
10/28/2020
Monday,
10/26/2020

Thursday,
10/29/2020
Thursday,
10/29/2020
3
Thursday,
10/29/2020

Friday,
10/30/2020

[J-96-2020] [MO: Baer, J.] - 10

3

Monday, 11/2/2020

YES

4

Tuesday, 11/3/2020

YES

5

Wednesday, 11/4/2020

NO

2

Monday, 11/2/2020

YES

3

Tuesday, 11/3/2020

YES

4

Wednesday, 11/4/2020

NO

5

Thursday, 11/5/2020

NO

2-5

(After Election Day)

NO

Friday,
10/30/2020
4
Friday,
10/30/2020
Saturday,
10/31/2020
Saturday,
10/31/2020
5
Saturday,
10/31/2020

Monday,
11/2/2020

As with the previous illustration, I assume that county boards of elections will process and
send out the ballots within forty-eight hours of receipt. Whether this is possible, likely or
impossible is apparently immaterial, since Secretary Boockvar, with knowledge of the
capacities of the county boards of elections, recommended a three-day extension, so I
assume that it accounted for this factor.
As required when remedying an as-applied constitutional defect, this remedy is the
least disruptive to the enacted statutory scheme. The problem to be remedied here is
that the seven-day period to complete the mail-in vote process has been rendered
unworkable by the current extraordinary circumstances. I have no doubt that the statute
was intended to accommodate the realities as they existed when Act 77 was enacted. It
is unconstitutional as applied to the November 2020 general election because of current
realities.
[J-96-2020] [MO: Baer, J.] - 11

For these reasons, in connection with the November 2020 general election only,
the deadline for requesting a ballot should be moved to Friday, October 23, 2020.4 The
legislative choice of Election Day at 8:00 p.m. should remain intact.
In summary, I agree with the Majority that the received-by date for ballot
applications in light of the deadline for submission of ballots to the county boards of
election is unworkable under current circumstances. I dissent from the invocation of
equitable powers to craft a remedy. In my view, this issue should have been decided on
the evidentiary record developed in Crossey based on the analytical framework for an asapplied challenge to the constitutionality of the statutory provisions as violative of Article
1, Section 5 of our Constitution, with the remedy crafted based upon the legislative intent
in enacting the circumstantially defective statutes.
Chief Justice Saylor and Justice Mundy join Part II of this concurring and dissenting
opinion.

4

To the extent that the non-severability clause in Section 11 of Act 77, 1 Pa.C.S. § 1925
is enforceable, I do not view the election specific remedies at issue here as-applied
constitutional violation as triggering the draconian consequence. In the context of the
COVID-19 pandemic, applying the non-severability provision to void Act 77 in its entirety
would itself be unconstitutional, as it would disenfranchise a massive number of
Pennsylvanians from the right to vote in the upcoming election.
More broadly, in Stilp v. Commonwealth, 905 A.2d 918, 978 (Pa. 2006), this Court
declined to apply an identically worded non-severability provision, id. at 973, refusing to
allow the General Assembly to “dictate the effect of a judicial finding that a provision in an
act is ‘invalid.’” Id. at 976. Here, as in Stilp, Act 77’s boilerplate non-severability provision
“sets forth no standard for measuring non-severability, but instead simply purports to
dictate to the courts how they must decide severability.” Id. at 973.

[J-96-2020] [MO: Baer, J.] - 12

